<html>
<title> - THE FISCAL YEAR 2010 BUDGET FOR THE NATIONAL PROTECTION AND PROGRAMS DIRECTORATE AND THE TRANSPORTATION SECURITY ADMINISTRATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                  THE FISCAL YEAR 2010 BUDGET FOR THE 
                   NATIONAL PROTECTION AND PROGRAMS 
                  DIRECTORATE AND THE TRANSPORTATION 
                        SECURITY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY
                     AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2009

                               __________

                           Serial No. 111-23

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
51-494 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop SSOP, Washington, DC 
20402-0001











                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 Sheila Jackson Lee, Texas, Chairwoman
Peter A. DeFazio, Oregon             Charles W. Dent, Pennsylvania
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Candice S. Miller, Michigan
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Emanuel Cleaver, Missouri            Peter T. King, New York (Ex 
James A. Himes, Connecticut              Officio)
Eric J.J. Massa, New York
Dina Titus, Nevada
Bennie G. Thompson, Mississippi (Ex 
    Officio)
                     Michael Beland, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
              Joseph Vealencis, Minority Subcommittee Lead










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Transportation Security and Infrastructure Protection..........    15

                               Witnesses

Mr. Philip R. Reitinger, Deputy Under Secretary, National 
  Protection and Programs Directorate, Department of Homeland 
  Security:
  Prepared Statement.............................................     2
Ms. Gale D. Rossides, Acting Administrator, Transportation 
  Security Administration, Department of Homeland Security:
  Prepared Statement.............................................     7

                                Appendix

Questions From Chairwoman Sheila Jackson Lee.....................    43

 
                  THE FISCAL YEAR 2010 BUDGET FOR THE 
                   NATIONAL PROTECTION AND PROGRAMS 
       DIRECTORATE AND THE TRANSPORTATION SECURITY ADMINISTRATION

                              ----------                              


                        Wednesday, June 10, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:15 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, Lujan, Cleaver, 
Himes, Massa, Dent, and Lungren.
    Ms. Jackson Lee. The subcommittee will come to order.
    Let me indicate that my delay was related to some security 
concerns that are occurring in and around the Capitol.
    Some of you may have heard that there was a shooting at the 
Holocaust Museum. The information I have is that two persons 
may have lost their lives. We don't have all the facts. But, 
hearing no objection, I would like for us to just have a moment 
of silence before we start this hearing.
    Thank you.
    The subcommittee will come to order. The subcommittee is 
meeting today to receive testimony on the fiscal year 2010 
budget for the National Protection and Programs Directorate and 
the Transportation Security Administration. Our witnesses today 
will testify about the budget request of their respective 
components for fiscal year 2010.
    At the onset, I would like to thank the witnesses for 
appearing before us today. Because schedules are hectic and the 
Deputy Under Secretary must leave before 3:00 p.m., I would 
like to proceed as quickly as possible. In addition, I would 
ask the indulgence of the Deputy Under Secretary if we are a 
few minutes beyond, but we recognize his scheduling issue.

  STATEMENTS OF PHILIP R. REITINGER, DEPUTY UNDER SECRETARY, 
  NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, DEPARTMENT OF 
 HOMELAND SECURITY AND GALE D. ROSSIDES, ACTING ADMINISTRATOR, 
TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Jackson Lee. Without objection, I would like to request 
that the witnesses' testimony be considered as read so that we 
can move directly to questions. Hearing no objection, it is so 
ordered.
    [The statements of Mr. Reitinger and Ms. Rossides follow:]
               Prepared Statement of Philip R. Reitinger
                             June 10, 2009
    Good morning, Chairwoman Jackson Lee, Ranking Member Dent, and 
Members of the subcommittee. Thank you for the opportunity to appear 
before you to discuss the progress the National Protection and Programs 
Directorate (NPPD) has made and how the President's budget request for 
fiscal year 2010 will position us to support the overall Department 
mission to protect and secure our Nation. I will also take this 
opportunity to highlight some of the Directorate's accomplishments.
      national protection and programs directorate budget overview
    The fiscal year 2010 budget request for NPPD is $1.959 billion and 
includes 2,710 Federal positions. This is an increase of $801 million 
over the fiscal year 2009 appropriated amount of $1.158 billion.
    The primary driver of the budgetary and personnel increase arises 
from the requested transfer of $640 million and 1,225 positions of the 
Federal Protective Service (FPS) to NPPD from U.S. Immigration and 
Customs Enforcement (ICE). The proposed transfer aligns the FPS mission 
of Federal facilities infrastructure protection within the NPPD mission 
of critical infrastructure protection. Further, NPPD chairs the 
operations of the Interagency Security Committee, a group that includes 
the physical security leads for all major Federal agencies and whose 
key responsibility is the establishment of Government-wide security 
policies for Federal facilities. These missions are complementary and 
mutually supportive, and the alignment resulting from the transfer 
improves and advances the mission effectiveness of both FPS and NPPD.
    To ensure a smooth transition pending congressional approval, NPPD, 
ICE, and FPS have formed a joint transition team. The transition team 
is reviewing a recently completed inventory of the financial, 
procurement, and administrative support services that ICE currently 
provides for FPS, along with the annual costs ICE charges for those 
services. Services that can be provided by NPPD or DHS Under Secretary 
for Management (USM) will be transferred from ICE. In those cases in 
which it is determined that ICE should continue as the service provider 
for fiscal year 2010, a Service Level Agreement between FPS and ICE 
will be established to ensure there is no disruption to operations 
during the transition until such time that services can be fully 
transferred to NPPD or USM in fiscal year 2011.
    Filling vacant Federal positions and right-sizing the Federal and 
contractor staff ratio across NPPD is my upmost priority. NPPD has made 
great strides in filling critical positions, but much work remains to 
build out a cadre of Federal staff across the Directorate. NPPD has 
brought on board 300 new employees over the last 12 months, and 
currently has approximately 800 Federal employees on board out of the 
1,064 fiscal year 2009 positions. We are projecting bringing on board 
another 200 by the end of fiscal year 2009. The fiscal year 2010 budget 
request includes 350 additional Federal staff across the entire 
Directorate offset by funding decreases in contractor support funding. 
The fiscal year 2010 request also includes 71 new positions mainly to 
support infrastructure security compliance and cybersecurity. This will 
bring NPPD to a total workforce of 2,710 in fiscal year 2010.
    I would now like to highlight some NPPD accomplishments as well as 
review the fiscal year 2010 requested budgets for the Office of 
Infrastructure Protection, the Office of Risk Management and Analysis, 
US-VISIT, and the Office of Cybersecurity and Communications.
Office of Infrastructure Protection
    The Office of Infrastructure Protection (IP) leads the coordinated 
national effort to reduce risk to our critical infrastructure and key 
resources (CIKR) posed by acts of terrorism; it also enables national 
preparedness, timely response, and rapid recovery in the event of an 
attack, natural disaster, or other emergency. IP has achieved a number 
of key milestones in the past year, such as:
  <bullet> Assigned preliminary risk tiers for facilities covered by 
        Chemical Facility Anti-Terrorism Standards (CFATS), a 
        comprehensive set of regulations that protect high-risk 
        chemical facilities from attack and prevent theft of chemicals 
        for use as weapons.
  <bullet> Provided physical security and risk data to 5,000 registered 
        Homeland Security Information Network--Critical Sector (HSIN-
        CS) users responsible for critical infrastructure and key 
        resources security in a coordinated national effort to reduce 
        risk posed by acts of terrorism and natural disasters. This 
        included the development and deployment of targeted baseline 
        critical infrastructure and key resource protection 
        information-sharing capabilities.
  <bullet> Assisted the Government of Trinidad and Tobago (GOTT),\1\ as 
        well as private sector owners and operators, in identifying 
        vulnerabilities throughout the liquefied natural gas system, 
        providing recommendations for enhanced security and protective 
        measures to mitigate risk. This operation was DHS' first 
        comprehensive, system-based vulnerability assessment of a 
        foreign nation's infrastructure system and has become the model 
        for international CIKR security engagements for both DHS and 
        other departments.
---------------------------------------------------------------------------
    \1\ The United States imports approximately 70 percent of its 
liquefied natural gas from GOTT, and any disruptions to the system 
would have an immediate impact on domestic energy supply and security, 
particularly for the Northeastern United States.
---------------------------------------------------------------------------
  <bullet> Integrated the State, Local, Tribal and Territorial 
        Government Coordinating Council into the full cycle of national 
        infrastructure protection planning and reporting. The Council 
        is a forum for its representatives to engage with the Federal 
        Government and CIKR owners and operators. The Council 
        integrates Council stakeholders into the national level 
        National Infrastructure Protection Plan (NIPP) framework, its 
        Critical Infrastructure Partnership Advisory Council, and 18 
        Sector/Government Coordinating Councils. This evolution of the 
        CIKR partnership model allows all levels of government to 
        provide input into both the NIPP and Sector-Specific Plans as 
        well as their implementation.
  <bullet> Established State and local critical infrastructure 
        protection training and technical assistance programs. Not only 
        do these programs support standardized infrastructure and risk 
        information, they also provide training to assist State and 
        local law enforcement, emergency responders, emergency 
        managers, and other homeland security officials in 
        understanding the steps necessary to develop and implement 
        comprehensive CIKR protection programs.
    IP's fiscal year 2010 request is $333.3 million and includes 725 
Federal positions. This request maintains critical capabilities; 
expands enforcement of the chemical security; supports development of 
final ammonium nitrate regulations; funds new nuclear reactor security 
consultations with the Nuclear Regulatory Commission; supports five 
Regional Resiliency Assessment Projects; and enhances coordinated 
national bombing prevention and improvised explosive device security 
efforts.
            Infrastructure Security Compliance: Chemical Security and 
                    Ammonium Nitrate
    The total funding requested for fiscal year 2010 to support the 
regulation of high-risk chemical facilities and establish ammonium 
nitrate regulations is $103.4 million, which includes 268 Federal 
staff.
    The increased funding request supports the hiring, training, 
equipping, and housing of additional inspectors. Funding will also 
support the completion and publication of final ammonium nitrate 
regulations that will help prevent the use of ammonium nitrate in an 
act of terrorism through both required registration and verification 
processes and inspection and audit procedures.
    As mentioned previously, DHS released CFATS and the final CFATS 
Appendix A rule, listing approximately 300 ``Chemicals of Interest'' 
and associated threshold quantities. Pursuant to CFATS, facilities 
possessing threshold amounts of Appendix A chemicals were required to 
complete a Top-Screen assessment within 60 days of the release of 
Appendix A (i.e., by January 22, 2008) or, if the facility acquires an 
Appendix A chemical subsequent to the release of Appendix A, within 60 
days of the facility's acquisition of that chemical. Facilities 
preliminarily designated as high-risk based on the Top-Screen 
submissions were also required to complete Security Vulnerability 
Assessments, and, if that high-risk status is confirmed by the Security 
Vulnerability Assessments, will be required to develop Site Security 
Plans and implement measures meeting DHS-defined risk-based performance 
standards.
    To assist facilities in performing these obligations, the 
Department developed an on-line suite of tools known as the Chemical 
Security Assessment Tool, which includes, among other applications, the 
Top-Screen, Security Vulnerability Assessment, and Site Security Plan 
tools; a Risk-Based Performance Standards Guidance Document that 
facilities may use when developing their Site Security Plans; and a 
Help Desk to answer questions regarding CFATS. Additionally, upon 
request, the Department performs technical consultations and technical 
assistance visits for facilities with questions regarding the 
compliance process. To date, over 36,000 chemical facilities have 
submitted Top-Screens, with over 7,000 facilities preliminarily 
designated high-risk in June 2008 and required to submit Security 
Vulnerability Assessments. Due to changes facilities have made around 
chemicals of interest since the preliminary designations a year ago, 
the number of high-risk facilities as of June 2009 has gone down to 
6,414 facilities.
    The Department recently sent final notification letters to the 
highest risk (Tier 1) facilities, confirming the facilities' high-risk 
status and initiating the 120-day time frame for submitting Site 
Security Plan and implementing the associated security measures. The 
Plans are due back to the Department on September 15, 2009. The current 
projections for each type of facility are as follows: Tier 1--182; Tier 
2--680; Tier 3--1,612; and Tier 4--3,940. Following initial approval of 
the Site Security Plans, the Department expects to begin performing 
inspections in the first quarter of fiscal year 2010, commencing with 
the designated Tier 1 facilities.
            Vulnerability Assessments
    An additional $3 million is requested in fiscal year 2010 to 
support Vulnerability Assessment Projects.
    Section 657 of the Energy Policy Act of 2005 (Public Law 109-58) 
requires DHS to perform security consultations for Nuclear Regulatory 
Commission (NRC) new nuclear reactor license applications prior to the 
NRC issuance of the license. DHS is responsible for conducting site 
security consultations in cooperation with the NRC, local law 
enforcement, and private sector partners to provide a report that 
identifies the potential vulnerabilities and threats associated with 
the proposed reactor locations. The NRC has informed DHS that there are 
10 facilities that have submitted license requests and two pending 
license requests that will require site-security assessments in fiscal 
year 2010.
    Additionally, IP will pilot six Regional Resiliency Assessment 
Projects, each of which will involve a cooperative Government-led, 
interagency assessment of both the specific CIKR and a general regional 
analysis of the surrounding infrastructure. The intent of this program 
is to identify and evaluate infrastructure ``clusters,'' regions, 
systems, and their key interdependencies. The outcome of the findings 
will support the development of coordinated protection efforts to 
enhance resiliency and address security gaps within the surrounding 
first responder communities and geographic region. The program's 
integrated approach will measure and provide metrics for risk 
mitigation to a region.
            Bombing Prevention
    A total of $14.8 million is requested to support bombing prevention 
efforts. The fiscal year 2010 request supports the completion of 16 out 
of the 22 Implementation Plan recommendations included in the National 
Strategy for Combating Terrorist Use of Explosives in the United States 
that are the responsibility of DHS. DHS is working closely with both 
the Department of Justice and the Department of Defense, who are 
leading the completion of the other six Implementation Plan 
recommendations, to carry out this National Strategy. The funding will 
support increased assessments of bombing prevention capabilities across 
the country and increased bombing prevention information services for 
Federal, State, local, and private sectors.
Office of Risk Management and Analysis
    The Office of Risk Management and Analysis (RMA) is leading the 
Department's efforts to establish a common risk management framework to 
identify, assess, and manage homeland security risk. RMA seeks to 
enhance overall protection, prevention, preparedness, and mitigation of 
homeland security risks through risk analysis and risk management 
strategies. RMA has:
  <bullet> Completed the prototype for the Risk Assessment Process for 
        Informed Decision-making (RAPID) to support the Department's 
        overall planning, programming, budgeting, and execution 
        process. When fully developed, RAPID will support strategic 
        policy and budgetary decisions by assessing risk, evaluating 
        risk reduction effects of DHS programs, and evaluating 
        alternative resource allocation strategies. In 2009, within the 
        RAPID framework, detailed assessments in the chemical and 
        biological threat spectrum are being used to inform the 
        Department's Integrated Planning Guidance by: (1) Providing an 
        analysis of DHS chemical/biological security programs; (2) 
        evaluating the degree to which DHS chemical/biological programs 
        are contributing to risk reduction; (3) identifying gaps; and 
        (4) recommending strategies for better allocating resources to 
        manage risk.
  <bullet> Completed the interim DHS Integrated Risk Management 
        Framework. This framework provides a foundation for 
        institutionalizing integrated risk management in the Department 
        by outlining an overall vision--as well as objectives, 
        principles, and a process--for integrated risk management 
        within DHS. It also identifies how the Department will achieve 
        integrated risk management by developing and maturing policy, 
        governance, processes, training, and accountability methods. 
        Members of the Department's Risk Steering Committee developed 
        the framework, which is supported by all DHS components, 
        directorates, and offices.
  <bullet> Managed and led the administration and operation of a 
        Department Risk Steering Committee, to serve as the 
        Department's risk management governance structure. The Risk 
        Steering Committee is a three-tiered construct. Tier I consists 
        of all heads of DHS components; Tier II consists of sub-
        directorate/component principals (e.g., assistant secretaries, 
        senior officials, deputy directors); and Tier III consists of 
        senior policy and analysis staff. The Risk Steering Committee 
        and its working groups meet frequently to review and produce 
        risk products for use by the entire Department.
  <bullet> Produced the first set of analytical guidelines for risk 
        practitioners across the Department. The Risk Management 
        Analytical Guidelines provide a body of knowledge for DHS and 
        its components to improve their risk management capabilities by 
        promoting sound risk management processes and techniques. These 
        primers capture and promulgate promising practices and lessons 
        learned to promote convergence of DHS risk management 
        activities and support education and training. Among the 
        initial titles are Developing Risk Assessment Methodologies, 
        Developing Scenarios, Assessing Vulnerabilities for Risk 
        Assessments, and Analyzing Consequences.
  <bullet> Published the DHS Risk Lexicon, which defines 73 key risk-
        related terms and provides a common vocabulary for the 
        foundation of an integrated risk management capability within 
        the Department.
    The fiscal year 2010 budget request for RMA is $9.9 million and 
includes 25 Federal staff. Major programs planned in fiscal year 2010 
for RMA expand on recent accomplishments and include:
  <bullet> Leading a study group under the auspices of the Quadrennial 
        Homeland Security Review that will define, frame, and establish 
        a process for conducting a homeland security national risk 
        assessment for the purpose of determining comparative all-
        hazards risk to the homeland and identifying opportunities to 
        manage that risk. Following the completion of the study, RMA 
        will implement the recommendations and begin conducting the 
        first homeland security national risk assessment.
  <bullet> RAPID II, to be completed by February 2010, will be the 
        first evaluation of the risk reduction effectiveness of DHS 
        programs against a broader spectrum of homeland security risk; 
        it will be used to help inform the Department's fiscal year 
        2012-2016 resource allocation process.
  <bullet> Continue development of a Risk Knowledge Center. The Center 
        will serve as the central point for risk data collection and 
        dissemination, as well as provide training to enable the 
        building of a risk core competency across DHS and the broader 
        homeland security enterprise. The Center will also provide 
        technical assistance to help personnel within DHS (and 
        eventually outside DHS) develop and/or apply risk assessment 
        and management concepts, methods, tools, and resulting data. 
        Further, it will support the application of advanced risk 
        concepts developed by a broad range of sources--DHS' Science 
        and Technology Directorate, academia, professional societies, 
        and RMA staff--to current and future needs.
United States Visitor and Immigrant Status Indicator Technology Program
    The United States Visitor and Immigrant Status Indicator Technology 
(US-VISIT) Program assists the Department in facilitating legal travel 
and protecting our Nation from dangerous people attempting to enter the 
country. Recent US-VISIT accomplishments include:
  <bullet> Deploying 10-print scanner technology to all major ports of 
        entry. This provides the capability to capture 10 fingerprints 
        from 97 percent of travelers. Utilizing 10-print capture 
        improves accuracy in matching fingerprints, increases the 
        identification of high-risk individuals, and reduces 
        interaction with low-risk travelers. Full deployment to 292 
        air, sea, and land ports of entry will be completed by the end 
        of this fiscal year.
  <bullet> Assisted State and local law enforcement participation in 
        Secure Communities. Secure Communities is an ICE initiative 
        that provides assistance in the identification of immigration 
        violators that have been arrested by State and local law 
        enforcement. Authorized Federal, State, and local government 
        user agencies are provided with access to biometric data to 
        identify and mitigate security risks.
  <bullet> Supporting the U.S. Coast Guard in the use of mobile 
        biometric services (biometrics at sea) off the coasts of Puerto 
        Rico and Florida. This aids in identifying and prosecuting 
        hundreds of illegal migrants at sea, including some wanted for 
        human smuggling and murder.
  <bullet> Enhancing the integrity of the immigration system through 
        continued development of alien exit reporting. US-VISIT began 
        biometric air exit pilots on May 28, 2009. Through July 2, 
        2009, U.S. Customs and Border Protection and Transportation 
        Security Administration will conduct tests in the boarding area 
        of the Detroit Metropolitan Wayne County Airport and the 
        security checkpoint of the Hartsfield-Jackson Atlanta 
        International Airport collecting biometric information from 
        non-U.S. citizens.
    The fiscal year 2010 budget request for US-VISIT is $356.2 million 
and includes 212 Federal staff positions. The request includes funding 
to support the growing identity management and screening services 
workloads resulting from the increase to 10-print identifications and 
verifications. The request also includes increased system operations 
and maintenance for the Automated Biometric Identification System (due 
to continued growth of existing programs and servicing new customer 
program needs), technology refresh for fingerprint matching hardware, 
and data center mirroring and migration.
Office of Cybersecurity and Communications
    The Office of Cybersecurity and Communications (CS&C) comprises the 
National Cyber Security Division, the National Communications System, 
and the Office of Emergency Communications. Recent CS&C accomplishments 
include:
  <bullet> The National Cyber Security Division (NCSD) assessed over 
        4,000 current external internet connections in the .gov domain 
        and identified approximately 80 of those as consolidated 
        internet access points.
  <bullet> NCSD began deployment of the National Cybersecurity 
        Protection System (NCPS) to enable data collection for the 
        detection of potential malicious cyber activities on Federal 
        networks and consequent coordination and analysis by US-CERT 
        (United States Computer Emergency Readiness Team).
  <bullet> During Hurricane Ike, the National Communications System 
        (NCS) helped leaders in the Houston and Galveston areas 
        communicate by prioritizing emergency calls over congested 
        phone lines and facilitating the restoration of critical 
        telecommunications services. The Government Emergency 
        Telecommunications Service completed over 93 percent of the 
        2,200 priority calls placed across five States.
  <bullet> DHS developed the National Emergency Communications Plan and 
        approved 56 State-wide Communications Interoperability Plans.
    The CS&C fiscal year 2010 budget request is $584.9 million and 
includes 419 positions.
  <bullet> The fiscal year 2010 request for the NCSD is $400.7 million.
    <bullet> This request includes an increase of $75 million from 
            fiscal year 2009 for the implementation of the 
            Comprehensive National Cybersecurity Initiative to support 
            the ability to develop and deploy cyber technologies to 
            counter on-going, real-world national cyber security 
            threats and apply effective analysis and risk mitigation 
            strategies to detect and deter threats. NCSD will support 
            the on-going reduction and consolidation efforts of 
            external Federal access points, enabling more effective 
            monitoring and alerting on suspicious activities occurring 
            across the Federal enterprise.
    <bullet> The NCSD request also includes an additional $15 million 
            to enhance outreach and coordination across all levels of 
            government and the private sector. The fiscal year 2010 
            budget request allows for additional support to the private 
            sector by funding 50 site assessment visits to CIKR 
            facilities, increasing the ability to identify 
            vulnerabilities in Industrial Control Systems across the 18 
            CIKR sectors. The fiscal year 2010 request also enhances 
            the capability for DHS to sponsor and support cyber 
            exercises with State, local, regional, and private sector 
            partners, as well as with our international partners. NCSD 
            also plans to conduct Cross Sector Cyber Assessments to 
            support enhanced cybersecurity for all 18 CIKR sectors. 
            This project will analyze cross sector perspectives and 
            activities on common vulnerabilities, protective measures, 
            interdependencies, risk assessment methodologies, and 
            mitigation strategies.
  <bullet> The fiscal year 2010 request for the NCS is $140.2 million; 
        this will fund 10 new Regional Communications Coordinator 
        positions and development of a Continuity Communications 
        Architecture to ensure, under all conditions, Federal executive 
        branch cross-department and agency communications.
  <bullet> The fiscal year 2010 request for the OEC is $44 million and 
        includes additional funding to support approximately 100 site 
        visits that will validate progress against the NECP goals, 
        provide additional support to lower-achieving urban areas, and 
        fund State-wide Communication Interoperability Plan workshops.
Office of the Under Secretary
    The fiscal year 2010 budget request includes $34.7 million and 104 
Federal positions for Directorate Administration and the Office of the 
Under Secretary. Priorities for fiscal year 2010 include integrating 
the Federal Protective Service into NPPD, consolidating NPPD financial 
data and reporting, coordinating with DHS to continue to streamline the 
hiring and security clearance processes for new staff, and conducting 
strategic assessments for use in developing future capability needs to 
combat new and emerging threats against infrastructure, cyber networks, 
and biometric technologies.
                                closing
    I appreciate the opportunity to discuss NPPD accomplishments and 
plans for fiscal year 2010 and look forward to answering any questions 
you may have.
                                 ______
                                 
                 Prepared Statement of Gale D. Rossides
                             June 10, 2009
    Good afternoon Chairwoman Jackson Lee, Ranking Member Dent, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear today to provide an update on the President's 
fiscal year 2010 budget request for the Transportation Security 
Administration (TSA).
    I would like to begin by thanking the subcommittee for its support 
of TSA's on-going efforts to improve transportation security. Your 
support positioned us well for a successful Presidential transition. I 
also want to thank the subcommittee for supporting the resources 
provided to TSA in the American Recovery and Reinvestment Act of 2009 
(ARRA). These resources are enhancing our Nation's explosives detection 
capabilities in airports throughout the country by significantly 
accelerating the deployment of more effective and efficient 
technologies.
                    ensuring an effective transition
    The Department of Homeland Security (DHS) has worked hard to ensure 
that TSA, as well as other DHS components, was poised to maintain our 
high level of security during the critical Presidential transition 
period. Continuity is essential for an agency that conducts security 
operations 24 hours a day, 7 days a week, and 365 days a year. TSA 
personnel participated in important transition efforts, including joint 
exercises with our DHS colleagues and other Federal agencies to ensure 
we could effectively prevent and respond to a potential terrorist 
attack during this period. Designating the Deputy Administrator at TSA 
as a career position also helps ensure continuity, and I am honored to 
serve in this position and as the agency's Acting Administrator.
                     building on our joint success
    I have experienced first-hand the growth and maturation of TSA from 
its creation following the tragic events of September 11, 2001 (9/11) 
to the current high-performing global organization protecting Americans 
and our transportation systems.
    Under the oversight of this committee, TSA has grown from a small 
cadre of employees to a dedicated workforce of over 50,000 protecting 
every domestic commercial airport, strengthening our Nation's surface 
transportation modes, and working with our transportation security 
partners both domestically and around the world. We began with the 
challenge of hiring, training, and placing the first Federal screeners, 
known as Transportation Security Officers (TSOs), in airports where 
they intercepted prohibited items such as guns, knives, and razor 
blades. Now, TSA employs a highly-trained, professional, multi-skilled 
TSO workforce that conducts physical and behavioral screening to 
counter constantly changing threats and operates state-of-the-art 
screening equipment throughout airports and across multiple modes of 
transportation.
                           constant vigilance
    Continuing TSA's success is as important today as it has ever been. 
For example, the threat level for commercial aviation remains high and 
terrorists continue to pose a threat to aviation. But the threats we 
face are broader than just aviation and terrorism. TSA is focused on 
the wide variety of threats, including natural disasters and health 
pandemics, that face all of our transportation hubs and infrastructure. 
We must remain vigilant and never lose focus of our mission.
                       implementing arra funding
    Before I address the fiscal year 2010 budget, I want to update you 
on our plans for deploying the $1 billion in funding provided by 
Congress to TSA in ARRA. Using a risk-based approach, TSA is purchasing 
and installing explosives detection systems (EDS) and equipment that 
will greatly accelerate the deployment of new technologies in airports 
across the country. These ARRA funds will not only improve security, 
but also will create jobs and strengthen our economy.
    Approximately $700 million of ARRA funding will be allocated to the 
Electronic Baggage Screening Program, which includes the procurement 
and installation of airport baggage handling systems. TSA approved 
funding for 15 airports in ten States, including several small and 
medium-sized airports, for optimal baggage screening solution projects. 
Additionally, we recently announced the award of $47 million for the 
purchase of 123 reduced-size EDS to be deployed at airports throughout 
the Nation.
    Approximately $300 million of ARRA funding is going to the 
Passenger Screening Program (PSP) to improve explosives detection 
capabilities in passenger screening. For the PSP, TSA plans to use ARRA 
funding for the purchase of Advanced Technology X-rays (AT X-ray), of 
which we announced an award of nearly $3 million for 44 AT X-rays, and 
additional Whole Body Imagers (WBI), Universal Conveyor systems, 
Bottled Liquid Scanners (BLS), and Next Gen Explosives Trace Detectors. 
The ARRA funding enables us to accelerate our projected schedules 
toward full system operating capacity, greatly enhancing checkpoint 
security for the traveling public.
    Finally, TSA is providing subject matter expertise and assistance 
to the Federal Emergency Management Agency (FEMA) for the award of the 
$150 million appropriated in ARRA for public transportation and 
railroad security assistance grants.
               fiscal year 2010 budget request highlights
    The fiscal year 2010 budget will strengthen current efforts to 
secure all modes of transportation and allow critical investments in 
key programs. Specifically, the fiscal year 2010 budget provides TSA 
$7.8 billion, which reflects a total gross increase of $800 million for 
transportation security initiatives.
    The fiscal year 2010 budget includes funding to support various 
activities and requirements, including;
  <bullet> $856.6 million for the procurement and installation of EDS 
        at airports;
  <bullet> $128.7 million for checkpoint and checked baggage screening 
        systems at airports;
  <bullet> $108.1 million for air cargo security;
  <bullet> $80 million for Visible Intermodal Prevention and Response 
        (VIPR) teams, which includes an additional $50 million for new 
        VIPR teams dedicated solely to surface transportation security.
    The fiscal year 2010 budget also includes the annualization of $30 
million received in fiscal year 2008 and $20 million received in fiscal 
year 2009 for such activities as Security Regulations, Strategies, 
Reports and Studies, Vulnerability and Threat Assessments; Name-Based 
Checks Infrastructure, Inter-modal Security Training and Exercise 
Program; Information Sharing and Analysis Center for transportation 
security; General Aviation; and additional Surface Transportation 
Security Inspectors (STSI).
    I would like to highlight a few programs from the fiscal year 2010 
budget.
    Visible Intermodal Prevention and Response Teams.--The $50 million 
for 15 additional VIPR teams increases our random and surge force 
protection capability at transit hubs and other surface transportation 
venues. VIPR teams are capable of protecting any mode of transportation 
through risk-based targeted or unpredictable deployment of TSA assets 
in coordination with State, local, and Federal officials. VIPR teams 
consist of any combination of TSOs, Transportation Security Inspectors 
(TSIs), Federal Air Marshals (FAMs), Behavior Detection Officers 
(BDOs), Explosives Security Specialists, Bomb Appraisal Officers 
(BAOs), as well as local, State, and Federal security and law 
enforcement partners.
    Bomb Appraisal Officers.--The fiscal year 2010 budget also adds 109 
BAO positions by the end of fiscal year 2010 to strengthen security at 
domestic airports. BAOs are highly skilled individuals who have 
undergone specialized training in the identification and disposal of 
explosives. BAOs provide continual interaction and formal training to 
TSOs to increase their ability to recognize potential improvised 
explosive devices (IEDs) and IED components. BAOs also assist in 
clearing suspicious articles presented at checkpoints, often avoiding 
the need to call bomb squads, which can result in lengthy airport 
delays.
    Infrastructure for Identity Vetting and Credentialing.--The fiscal 
year 2010 budget provides an additional $64 million to modernize the 
information technology infrastructure used to vet the identity of 
travelers and transportation workers. The funding will enable TSA to 
strengthen and enhance the existing infrastructure used to conduct 
vetting operations in several of our key security programs, such as 
Secure Flight, background checks for airport workers, the 
Transportation Worker Identification Credential (TWIC), Hazardous 
Materials Commercial Driver's License Endorsement, and alien flight 
students. The infrastructure funding will also allow TSA to vet new 
populations as directed by Congress in the Implementing Recommendations 
of the 9/11 Commission Act of 2007 (9/11 Act).
    EDS Procurement and Installation.--In addition to the funding 
levels enacted for fiscal year 2009 and through ARRA, the fiscal year 
2010 budget requests $565.4 million to further accelerate facility 
modifications, recapitalization efforts, and the deployment of new 
electronic baggage screening technology systems.
    Whisper Communications.--The fiscal year 2010 budget includes $5 
million for additional Land Mobile Radios (LMRs) at TSA screening 
checkpoints. The LMRs enhance communications between TSOs with 
significantly less disruption to the passenger screening process.
    Passenger Security Fee.--To better align the costs of aviation 
security with the beneficiaries, the President has proposed an increase 
to the Aviation Passenger Security Fee beginning in 2012. Since its 
establishment in 2001 as part of the Aviation and Transportation 
Security Act (ATSA), the Passenger Security Fee has been limited to 
$2.50 per passenger enplanement with a maximum fee of $5.00 per one-way 
trip. Congress anticipated that the aviation industry would pay for 
airline security costs through a combination of the Passenger Security 
Fee and an air carrier fee. However, the cost of providing security has 
increased substantially since 2001, leaving Federal taxpayers, rather 
than passengers and air carriers, to shoulder 60 percent of the expense 
of civil aviation security in fiscal year 2008. In the same year, 
Passenger Security Fee collections covered only about 31 percent of the 
discretionary costs for civil aviation security and air carriers 
covered the remaining 9 percent. Beginning in fiscal year 2012, the Fee 
would increase by $1.00 per year through fiscal year 2014. Under the 
proposal, the maximum fee in fiscal year 2014 and thereafter would be 
$5.50 per enplanement and $11.00 per one-way trip. The adjustment in 
2012 will fulfill the original intent of ATSA by more closely 
allocating the cost of aviation security services to the individuals 
who directly benefit while simultaneously reducing the burden on the 
general taxpayer. The administration and TSA ask for your support of 
this proposal and we commit to work closely with Congress to obtain the 
necessary authorization to begin the fee adjustments in fiscal year 
2012.
              implementing our on-going security strategy
    An effective security system must constantly adapt to ever-changing 
threats in the variety of transportation security environments in which 
TSA operates. Our transportation security strategy begins with 
intelligence, a key driver in our risk-based approach to security. Our 
daily operational decisions are influenced by the latest intelligence 
and the risks that emanate from the constantly evolving threats we 
face. As an example of our constant adaptation, we are in the process 
of upgrading security effectiveness at all of our aviation checkpoints, 
including the most significant overhaul in passenger screening since 9/
11.
    People.--The effectiveness of our security screening relies on our 
people--they are TSA's biggest investment and most valuable asset. We 
work hard to take care of our employees and we are making significant 
progress. Our workforce attrition rates continue to decrease. The 
latest fiscal year 2009 voluntary attrition rate of full-time TSOs is 
5.2 percent--an improvement of more than 58 percent since fiscal year 
2006. The number of workplace injuries has fallen over 75 percent from 
fiscal year 2004 to fiscal year 2008 and continues to decrease. For the 
first 7 months of fiscal year 2009 there has been a 16 percent decrease 
in workplace injury claims filed compared to the first 7 months of 
fiscal year 2008.
    Every TSO working at a checkpoint has completed an extensive 16-
hour retraining called ENGAGE!, which provides the latest information 
on intelligence, explosives detection, and human factors affecting 
security. This training is designed to develop a cadre of analytical 
security professionals. Additionally, all supervisory personnel have 
completed a second 16-hour training course called COACH! to help 
reinforce the ENGAGE! training and provide additional guidance to TSOs. 
We have revised our checkpoint Standard Operating Procedures to enable 
officers to use their judgment appropriately in achieving sensible 
security results.
    As part of TSA's improved security measures, we are deploying our 
workforce where we can achieve the best security results, most 
efficiently, and with minimal hassle for travelers. These improvements 
include the Travel Document Checker (TDC) and Screening Passengers by 
Observation Technique (SPOT) programs.
    The TDC program is now operating at all Federalized airports and 
enhances security by disrupting and detecting individuals who attempt 
to board an aircraft with fraudulent documents.
    We have deployed hundreds of BDOs at the Nation's busiest airports 
as part of the SPOT program. The SPOT program uses non-intrusive 
behavior observation and analysis techniques to identify potentially 
high-risk passengers based on their behavior. The program originated 
from other successful behavioral analysis programs that have been 
employed by law enforcement and security personnel both in the United 
States and around the world. Some of our law enforcement partners at 
the local and Federal level have asked TSA to provide training on this 
successful program.
    TSA believes a highly motivated workforce enhances our Nation's 
security. We implemented a pay-for-performance system to recognize and 
reward individual and organizational performance, and created a career 
progression program for TSOs with new job classifications and 
opportunities to acquire new security skills. Our flexible personnel 
system authorities enable TSA to offer creative pay incentives, such as 
full-time health benefits for part-time TSOs. And most importantly, we 
listen to our employees. Through the National Advisory Council (NAC)--a 
formal group of TSOs Nation-wide elected by their peers who meet in 
person with TSA's senior leadership on a quarterly basis--and the Model 
Workplace program, TSA strives for continuous improvement by addressing 
employee concerns. At TSA, these programs reflect a genuine commitment 
by senior leadership. I have participated in every quarterly meeting of 
the NAC.
    Process.--TSA is continuing to implement innovations in the 
checkpoint process. The current checkpoint during a peak travel period 
can be noisy and congested, which has the potential to conceal the 
actions of someone with hostile intent. The checkpoint pilot strives to 
provide a more convenient layout for passengers with more information 
explaining the screening process to create a better security 
environment with improved technology and enhanced training for our 
TSOs.
    Another simple yet effective program that improves the checkpoint 
process is the Diamond Self-Select program. Our self-select screening 
lanes are designated by signage (modeled after the familiar ski icons) 
that directs passengers to the appropriate lane based on their travel 
needs and knowledge. Green is the queue line for travelers who need 
extra time or special assistance, such as families traveling with 
children, people with disabilities or those who need prescription 
liquid medications or other liquids for medical conditions. The blue 
lane is for casual travelers who are somewhat familiar with the 
security procedures. The black diamond lane is for expert travelers who 
know the TSA security requirements and arrive at the checkpoint ready 
to go through efficiently.
    These dedicated lanes give passengers some measure of control over 
their own experience and also provide a better, less stressful 
environment for us to do our job. The result has been more effective 
and robust security. In cities with self-select lanes, we are seeing 
considerably lower alarm rates in the green lane because there is more 
time to prepare and remove prohibited items.
    Technology.--With the support of this subcommittee, we are 
expediting the upgrading of technology at passenger checkpoints and for 
checked baggage screening. AT X-Ray and WBI technologies greatly 
enhance our ability to detect small IED components made of common 
items, which remain the greatest threat, resulting in fewer bag checks 
and faster throughput, as well as the ability to upgrade the system 
with enhanced algorithms. WBI technologies enable TSA to detect 
prohibited items such as weapons, explosives, and other metallic and 
non-metallic objects concealed under layers of clothing without 
physical contact. TSA will continue to deploy in 2009 Bottled Liquid 
Scanners that are used to ensure sealed containers do not contain 
threat liquids. Additionally, TSA is purchasing and installing reduced-
size explosive detection systems (EDS) to increase security 
effectiveness and improve operational efficiencies through improved 
throughput.
    Deploying new technology is important, and certainly a step this 
subcommittee has encouraged, but we are also taking critical steps to 
reassess both the technology and the search methods used by our TSOs. 
TSA is working with the Science & Technology Directorate and the 
National Laboratories to stay ahead of terrorist tradecraft.
                update on significant on-going programs
    Before I conclude, I also want to update the subcommittee on some 
of our most significant programs.
    9/11 Act Implementation.--I want to thank the subcommittee for its 
on-going support of $20 million in fiscal year 2009 to implement new 
regulations and activities authorized by the 9/11 Act. TSA plans to use 
$3.6 million to upgrade the Automatic Detection and Processing Terminal 
(ADAPT) system that determines threats in the airspace and reduces the 
time and energy spent tracking an unknown anomaly that presents no 
threat. The remainder of the fiscal year 2009 funding for 9/11 Act 
implementation will be used for surface security measures, including 
the hiring of an additional 50 TSIs for surface transportation, 
completing vulnerability and threat assessments for surface modes, 
developing the Inter-Modal Security Training and Exercise Program, and 
developing a transportation security Information Sharing and Analysis 
Center.
    Air Cargo.--The 9/11 Act included two air cargo security 
requirements that mandate the screening of 50 percent of cargo 
transported on passenger aircraft by February 2009 and 100 percent by 
August 2010. I am happy to report that the industry is meeting the 50 
percent screening requirement. We predict that the 100 percent 
screening requirement will be met by August 2010 for domestic cargo 
through our Certified Cargo Screening Program (CCSP). Under this 
program, the responsibility for screening is distributed voluntarily 
throughout the supply chain to improve security while minimizing the 
potential negative impact on the integrity and movement of commerce.
    A key component of achieving these milestones is the requirement, 
developed in coordination with air carriers and other stakeholders, 
that 100 percent of cargo transported on narrow-body (single-aisle) 
aircraft be screened. This requirement went into effect in October 
2008. The passenger security impact of this screening is significant: 
although these aircraft carry only 25 percent of domestic air cargo on 
passenger aircraft, they account for the majority--approximately 95 
percent--of domestic passenger flights. More importantly, these flights 
carry more than 80 percent of all passengers on flights originating in 
the United States. Thus, even at the statutory deadline for screening 
50 percent of air cargo aboard passenger aircraft, we are effectively 
protecting the vast majority of the flying public.
    The requirement in the 9/11 Act to also screen 100 percent of 
inbound air cargo from international departure points continues to 
present significant challenges. Although it is unlikely that industry 
can meet the ambitious timetable set by Congress, we continue to work 
with our international partners and the private sector to address these 
challenges and expect to continue to see significant improvements in 
the level of security for inbound air cargo on passenger aircraft as we 
move forward. We have developed an international air cargo inspection 
program that expands our on-going foreign airport assessment regime to 
include a risk-based prioritization of sites and assets. This 
international regulatory activity work plan for air cargo will enable 
us to better determine areas of focus for inspection and assistance 
with our foreign partners. We look forward to working with this 
subcommittee on this issue as the August 2010 deadline approaches.
    Secure Flight.--Beginning with the fiscal year 2005 DHS 
Appropriations Act, Congress provided TSA with very specific guidance 
in the form of ten conditions to meet to address concerns with the 
implementation of the Secure Flight program and gave the Government 
Accountability Office (GAO) a proactive role in reporting on our 
progress in meeting those conditions. As verified in GAO's report on 
the Secure Flight program published last month, TSA generally achieved 
nine of the ten conditions and conditionally achieved the one remaining 
condition. Your oversight and our partnership with GAO in meeting these 
conditions made Secure Flight a better program and it is now poised to 
effectively fulfill the mandate of comparing passenger information 
against watchlists.
    Specifically, Secure Flight provides a consistent watch list 
matching process across all aircraft operators; provides for earlier 
law enforcement notification and coordination; and better protects 
watch list data thanks to its limited distribution. The Secure Flight 
program utilizes the Cleared List, a product of the DHS Transportation 
Redress Inquiry Program (DHS TRIP), to ensure that individuals who have 
been previously misidentified and have applied for redress are promptly 
cleared and do not experience similar problems in the future.
    The Secure Flight program began implementation with certain 
aircraft operators on selected flights on January 27, 2009. To date, 
four aircraft operators have successfully begun cutover and numerous 
others have begun testing. TSA truly appreciates the cooperation and 
assistance these volunteer aircraft operators provided to the program 
during its initial rollout.
    Secure Flight has also embarked upon an aggressive public outreach 
campaign in partnership with the aircraft operators and the Ad Council 
to educate passengers about how the Secure Flight program makes air 
travel safer and easier for millions of Americans.
    TSA believes that the Secure Flight program will be able to assume 
responsibility for watch list matching of passengers for all domestic 
commercial flights by the end of the first quarter of calendar year 
2010, and all international commercial flights by the end of calendar 
year 2010.
    Transportation Worker Identification Credential (TWIC).--I am also 
pleased to update you on the progress of the TWIC program that we 
jointly administer with the United States Coast Guard (USCG). TSA 
continues to operate over 149 enrollment centers located throughout the 
United States and territories to serve the maritime workers who will 
require a TWIC. As of May 25, 2009, TSA completed enrollment of 
1,208,412 workers and over 84 percent of workers who had enrolled have 
been issued their cards. The USCG completed the phased compliance of 
enforcement of TWIC in Captain of the Port (COTP) Zones Nation-wide by 
April 15, 2009. TSA and USCG closely monitored progress during the 
transition period to ensure smooth compliance at the COTP Zones. To 
further improve security and enhance enforcement efforts in COTP Zones, 
TSA completed initial capability evaluations of TWIC readers and 
approved 17 readers for use in the TWIC pilot program; additional 
readers are expected to undergo testing and be approved for use in the 
pilot. Early Operational Assessment of readers began in Brownsville, 
Texas, in April 2009 when the port completed final installation of 
readers and began operations of TWIC readers at their MTSA-regulated 
facilities. Other pilot participants are expected to follow Brownsville 
later this year.
    Global Outreach.--As TSA continues to adapt to changing threats, we 
recognize the need to expand our zone of security and interdict threats 
before they arrive on our shores. Through collaboration and 
partnerships, TSA promotes the implementation of effective global 
transportation security processes world-wide while ensuring compliance 
with international and TSA standards. Focusing on closing gaps and 
providing enhanced capabilities, TSA seeks to manage risks and work 
with our international partners to harmonize security measures.
    We accomplish this daily on many international fronts, 
multilaterally and bilaterally, through Transportation Security 
Administration Representatives in 23 countries overseas; a cadre of 
inspectors working with stakeholders and officials at airports, air 
carriers and Foreign Repair Stations; technical assistance programs; 
and standard-setting organizations such as the European Commission and 
the International Civil Aviation Organization (ICAO.) We promote best 
practices, capacity building and information-sharing through other 
international organizations such as the Group of Eight, the 
International Working Group on Land Transport Security, the European 
Community, the Asia-Pacific Economic Conference; and numerous ICAO 
regional groupings in Europe, Asia, Latin America, Africa, and the 
Middle East.
    Another example of our global efforts is our Office of Law 
Enforcement/Federal Air Marshal Service (OLE/FAMS) relationship with 
foreign air security partners. OLE/FAMS conducts training for foreign 
air marshals to combat international terrorism. As demonstrated during 
the United Kingdom August 2006 plot to use liquid explosives to take 
down passenger aircraft bound for the United States, TSA worked with 
our international partners to respond immediately.
    The Aviation Security Sustainable International Standards Team 
(ASSIST) initiative is already showing positive results. This program 
works to effectively build sustainable institutions through information 
sharing and best practices. Key focus areas include training needs, 
equipment, current aviation programs, and aviation security 
legislation. St. Lucia is the first nation to partner with TSA in this 
new program, which launched in January. In April, the Republic of 
Liberia became the second ASSIST partner country and just last month 
TSA completed an intensive 2-week training program on aviation 
passenger screening there. In the coming months we look forward to 
continuing this effort in other locations.
                               conclusion
    Madam Chairwoman, thank you and this subcommittee for the resources 
you have provided in the past to achieve significant enhancements in 
our people, processes, and technology. Thank you also for the 
opportunity to discuss the President's fiscal year 2010 budget request 
for TSA and our plans for continuing to improve transportation 
security. I look forward to working together. I would be pleased to 
respond to your questions.

    Ms. Jackson Lee. Because this hearing will be abbreviated 
due to the scheduling, the subcommittee requests that each 
witness meet with staff soon after this hearing concludes to go 
over additional questions. I would like to indicate that 
Members of the committee will have the opportunity to submit 
their questions, as well. At that point, Ranking Member Dent 
and I may ask that you meet with us, as well.
    Today's hearing is an important part of the subcommittee's 
oversight of the Department of Homeland Security. Specifically, 
it provides us with the opportunity to assess, discuss, and 
analyze the President's budget request for fiscal year 2010.
    I do thank the acting director, member of the 
Transportation Security Administration for the meetings that 
our committee has been able to have with her. So I thank you 
very much.
    As you all know, this subcommittee has jurisdiction over 
TSA and many elements of NPPD.
    With respect to TSA, we have already done a great deal this 
year. The TSA authorization bill was passed out of the House in 
an overwhelmingly bipartisan manner just last week. I again 
thank the Ranking Member, Mr. Dent, for being my original 
cosponsor on this legislation.
    When it comes to infrastructure protection and the other 
elements of NPPD, the committee is moving quickly to extend and 
comprehensively modify the Chemical Facility Anti-Terrorism 
Standards. In addition, the subcommittee will be working on an 
authorization packet for NPPD later this year. Some of our 
Members have asked about paying more attention to general 
aviation. A number of new issues will be coming to our 
attention.
    With respect to TSA, the subcommittee is generally pleased 
with the budget request of almost $7.8 billion. For fiscal year 
2010, TSA has requested an additional budget authority for 
adding bomb appraisal offices, travel document checkers, and 
behavioral detection officers to enhance aviation security.
    In addition to the standard checkpoint and baggage 
screening operations, TSOs will continue to support security 
initiatives, such as screening of passengers by observation 
techniques, visible intermodal prevention and response teams, 
and the Aviation Direct Access Screening Program. TSA has also 
made heightened investments in technology, precisely what we 
need to keep the traveling public safe.
    I am concerned about TSA's fiscal year 2010 budget request 
of $108 million for cargo security operations. This figure does 
not support an increase in FTEs for air cargo and reflects a 12 
percent decrease from the fiscal year 2009 enacted amount. Even 
as TSA faces significant challenges with respect to air cargo 
security, it is imperative that TSA has significant resources 
to face these challenges.
    The President's fiscal year 2010 budget request for surface 
transportation security at TSA totals roughly $128 million, 
which is more than double the fiscal year 2009 enacted 
appropriation. Although I have concerns about how these new 
resources are allocated, this request reflects a real 
investment in securing non-aviation modes of transportation and 
is consistent with the broader priorities of our authorization 
bill.
    Turning to NPPD, there is much to applaud in this budget 
proposal. This directorate has a troubled history, and this 
budget attempts to unify an entity that contains several 
disparate components.
    In fact, let me be very clear: Sometimes it is not 
understood what the infrastructure protection aspect of our 
jurisdiction is. The only thing that I can say to you that 
makes it as real and as viable and important as I believe it 
is, and I believe my Ranking Member believes it is, is to 
recognize the overall responsibility of this committee, 
including infrastructure protection, takes into account aspects 
of cybersecurity, which we know is shared by our other 
subcommittee, but also it deals with the very incident that we 
have just pointed to that happened today. Infrastructure is 
everything in America, and we must be concerned about it.
    The committee welcomes the $87 million increase over fiscal 
year 2009 appropriations for the National Cybersecurity 
Division. This addresses an important function. We are pleased 
that the Deputy Under Secretary, who has a career of success in 
the cyber environment, is willing to serve in order to help 
protect the Nation.
    We still need to better understand how the Department's 
efforts will interface with the rest of the Federal Government, 
especially with the creation of a new cyber coordinator in the 
White House. Because this subcommittee works a great deal with 
the 18 critical infrastructure sectors, we must ensure that the 
Department's cyber efforts are efficiently leveraging these 
important relationships.
    I applaud the Deputy Under Secretary for his testimony that 
filling vacant Federal positions and right-sizing the Federal 
and contractor staff ratio across NPPD is his utmost priority. 
This subcommittee fully supports this effort. But I am 
concerned about the suitability protocols of NPPD. This 
subcommittee stands ready to assist you in your efforts to 
expedite the security clearance process for prospective 
employees.
    The subcommittee is pleased with NPPD's request for $333 
million for infrastructure protection. As you well know, we 
have done a lot of work in this important area, and the 
response to the Mumbai attacks shows that we have a long way to 
go. The increases for chemical site security and the ammonium 
nitrate regulations are also important steps.
    However, the subcommittee is concerned about the cuts to 
partnerships related to the National Infrastructure Protection 
Plan. In this economic climate, it seems that we should be 
bolstering these efforts as the private sector, an important 
security partner, will have fewer resources.
    I remain very concerned with the Office of Risk Management 
and Analysis. Staff has quarterly briefings with RMA, and it 
seems both underfunded and headed in too many different 
directions. As I said last spring, we need a strategic plan 
from RMA that puts it on a path to success. I look forward to 
introducing legislation that will clarify the roles and 
responsibilities of RMA.
    Finally, the President's 2010 budget request proposes to 
move FPS out of Immigration and Customs Enforcement and into 
NPPD. The committee agrees that ICE was not the proper entity 
to house FPS but questions whether moving it to NPPD will 
address the problems encountered under ICE. And we look forward 
to hearing your thoughts about the proposed move today.
    I look forward to our discussion today, and I will work 
with you and am willing to work with you in order to support 
the vital mission of both TSA and NPPD. Once again, I thank the 
witnesses for their participation today.
    Let me also acknowledge the presence of the gentleman from 
California, Mr. Lungren; the gentleman from Connecticut, Mr. 
Himes; and the gentleman from New Mexico, Mr. Lujan; and thanks 
them for their presence here today.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Dent, for an opening statement.
    Mr. Dent. Thanks, Madam Chairwoman.
    Good afternoon. I would like to thank both our witnesses 
for joining us today. I know your time is in short supply, so I 
will respect that.
    We understand that there is an inordinate amount of time 
senior officials of the Department spend answering too many 
different congressional committees because of Congress's 
dysfunctional jurisdiction over the Department of Homeland 
Security. However, since the Committee on Homeland Security is 
the principal authorizing committee in the House, we very much 
appreciate you being with us today. So, that said, in light of 
some of the time constraints, I would like to keep my remarks 
short.
    As you know, the House passed the TSA Authorization Act 
last week. The bill was negotiated on a bipartisan basis. I 
thank the Chairwoman for her leadership on that issue. Also, 
the committee met with many different stakeholder for input. I 
believe it was a good bill, and I was happy to be an original 
cosponsor of the legislation.
    The Republican Members of committee, however, believe that 
it was premature to bring the bill to the floor for 
consideration before a new administrator was named for the TSA. 
As you know, TSA did not provide any formal input into the 
bill, and that is unfortunate.
    One of the casualties of TSA not being able to provide 
input to the TSA Authorization Act was the misguided adoption 
of the amendment that would have severely restricted the use of 
whole-body imaging technology. The adopted amendment will 
prevent TSA from using whole-body imaging technology for 
primary screening purposes at the airport checkpoints.
    As you know, the committee has been very supportive of WBI 
technology because we know that it enhances aviation security. 
We understand that WBI technology can detect many things, such 
as small IEDs, plastics explosives, ceramic knives, and other 
objects traditional metal detection cannot detect.
    This technology was developed with the backing of Congress 
because we know our enemies are looking to use certain 
explosives which are not detectable with metal detectors or 
magnetometers. Restricting the use of WBI technology at the 
airport checkpoint will put us in a vulnerable position, just 
as we were prior to 9/11. We simply can't allow that to happen.
    I should note that I saw the WBI technology for myself last 
week at Reagan National. I think it is a great technology, and 
I am very satisfied with the privacy measures currently in 
place. I know you have taken a great deal of care to ensure 
that. I think there is a lot of inaccurate information out in 
the public domain, and many Members are misinformed on the 
technology.
    As the TSA Authorization Act makes its way through the 
legislative process, it is my sincere hope, and for the sake of 
all Americans who fly, that TSA will weigh in and inform 
Congress on the advantages of WBI technology so we can ensure 
the use of this innovative and very necessary technology at our 
Nation's airport. My colleague, Mr. Lungren, was very eloquent 
on this issue. I wish more Members could have heard his 
comments on that amendment.
    Moving to the National Protection and Programs Directorate, 
I am very glad to see that the administration is making 
cybersecurity a priority. I am encouraged by the increased 
funding request of $75 million over fiscal year 2009 to support 
the implementation of the Comprehensive National Cyber Security 
Initiative.
    Mr. Reitinger, I understand you have an exemplary 
background in cybersecurity, and I look forward to the work you 
will do at the National Protection and Programs Directorate.
    Thanks again for both of you being here today.
    I will yield back the balance of my time.
    Ms. Jackson Lee. Let me thank the gentleman for his 
testimony.
    I welcome our witnesses.
    Our first witness is Philip R. Reitinger, who was appointed 
by Secretary Janet Napolitano to serve as a Deputy Under 
Secretary for NPPD on March 11, 2009. In this role, Reitinger 
leads the Department's integrated efforts to reduce risk across 
physical and cyber infrastructures.
    Prior to joining DHS, Mr.--let me just ask, how do you 
pronounce your name?
    Mr. Reitinger. Yes, ma'am, it is ``Reitinger.''
    Ms. Jackson Lee. It is ``Reitinger.'' I just want to make 
sure. Thank you.
    Prior to joining DHS--I wanted to make sure that we were 
not getting that smile because--you are just a smiling person.
    Mr. Reitinger. Yes, ma'am.
    Ms. Jackson Lee. Thank you very much.
    Mr. Reitinger was the chief trustworthy infrastructure 
strategist at Microsoft Corporation. I would suggest to you 
that you come widely applauded, because in his title of his 
previous position had the term ``trustworthy''. Is that 
correct?
    Mr. Reitinger. Yes, ma'am, it is.
    Ms. Jackson Lee. I couldn't imagine that the Secretary 
could find a better selection. Thank you.
    In that role, he worked with Government agencies and 
private-sector partners to enhance cybersecurity and 
infrastructure protection.
    Our second witness, Ms. Rossides, is acting administrator 
of TSA. As acting administrator, Ms. Rossides oversees a 
workforce of 50,000 and the security operations of 450 
Federalized airports throughout the United States, as well as 
the Federal security regime for highways, railroads, ports, and 
mass transit systems. Ms. Rossides was one of the six original 
Federal executives handpicked in 2002 to build TSA. We are 
certainly appreciative of your leadership on that issue.
    As agreed to at the beginning of today's hearing, the 
witnesses' testimony will be considered as read so that we can 
begin to question our witnesses in the interest of time.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize the Ranking Member for 5 minutes, Mr. 
Dent.
    Mr. Dent. Thank you, Madam Chairwoman.
    Just by way of commentary, I learned a long time ago--my 
middle name is W-I-E-D-E-R. My mother taught me, as a young 
person from Pennsylvania Dutch country, I-E is ``E,'' E-I is 
``I.'' Mr. ``Reitinger,'' there are a lot of names like that in 
my area.
    But just a couple things, Mr. Reitinger. Is the Department 
aware that the Committee on Homeland Security and the Committee 
on Energy and Commerce are crafting legislation to authorize 
the Department's regulatory authority over chemical facilities?
    Mr. Reitinger. Yes, sir.
    Mr. Dent. Then, the Department did request a 1-year 
extension for the current CFATS regulations. Why did you do 
that knowing that the committees are engaged in legislation?
    Mr. Reitinger. Thank you, sir. Let me first, before 
answering that question, thank the committee for the 
opportunity to testify today and for the kind words that both 
you and the Chairwoman said about me and about NPPD and the 
criticality of our mission.
    To answer your question in particular, sir, the Department 
requested a 1-year extension of CFATS in the budget because we 
believe that 1 year would give us the time to work effectively 
with Congress for a permanent reauthorization of CFATS.
    The Department supports the permanent reauthorization of 
CFATS, and a year seemed to be a reasonable amount of time to 
enable that discussion to take place and an action to be taken 
by Congress.
    Mr. Dent. Do you believe that the current CFATS regulations 
are sufficient?
    Mr. Reitinger. I believe the current CFATS regulations give 
us a good basis for going forward, sir.
    As the Ranking Member knows, we are currently in the 
process of implementing the regulations, in tiering assets, and 
in executing the site security plans that are called for under 
the regulation. That activity will give us a lot of additional 
experience about the effectiveness of the regime, if there are 
holes in it.
    So, while I am comfortable with the regime as it is, I 
believe we will have additional opportunities to learn about 
opportunities for improvement going forward. I look forward to 
working with the committee and staff on the most effective 
design for that program.
    Mr. Dent. I have introduced legislation to extend the 
current CFATS regulations by 3 years. So thank you for that 
comment.
    One of the issues Congress is grappling with is whether or 
not to require facilities to re-engineer their plants to use 
different and perhaps less dangerous chemicals in their 
manufacturing processes. Alternatively, plants could shift from 
on-site storage model to a just-in-time delivery model. A 
popular catchy phrase for this is called ``inherently safer 
technologies,'' or IST.
    If IST reviews were mandatory, how many Government 
employees who are professional IST experts capable of analyzing 
each of these facility processes does the Department have on 
staff? Any idea?
    Mr. Reitinger. Well, sir, in terms of specific IST experts, 
I am not aware that we have any. We, of course, are in the 
process of hiring and training chemical experts, chemical 
inspectors, who would develop certainly expertise that would be 
applicable to that sort of activity, if not completely aligned 
with it.
    One of the things I would say is that there is nothing 
about the current statutory regime, however, that forbids the 
use of what amounts to IST technologies, choosing to use 
different chemicals, choosing to use different technologies, in 
order to tier down or comply with the existing regime.
    So the current regime allows use of those, it just doesn't 
mandate their analysis or use.
    Mr. Dent. Does the Department's fiscal year 2010 budget 
request include any investment in IST expertise?
    Mr. Reitinger. Not specifically, sir. It does, however, 
include authorizations to hire up to 139 CFATS inspectors, with 
an additional 20 ammonium nitrate inspectors who could be 
cross-trained, or with the upcoming addition of 40 chemical 
inspectors who could be cross-trained to do CFATS inspections.
    Mr. Dent. Ms. Rossides, as you know, during the last week's 
authorization, TSA's authorization bill, the House adopted the 
amendment offered by Mr. Chaffetz and Ms. Shea-Porter, which 
would prohibit the use of whole-body imaging in primary 
screening positions. Of course, I opposed this amendment very 
strongly, as did Mr. Lungren.
    As you know, I went to Reagan National last week and saw 
this technology first-hand. I was, as I mentioned, really very 
impressed by it. I saw an individual walk through a checkpoint 
with two weapons, and, without giving any detail, let's just 
say I was unnerved by the magnetometer's inability to detect 
them. However, the whole-body imaging showed both concealed 
weapons pretty easily.
    Could you explain the Department's current privacy 
safeguards in place that govern the use of this technology? 
What would be the practical implications if the prohibition of 
using whole-body imaging technology for primary screening were 
to become law? You know, what capabilities would be lost?
    Ms. Rossides. Yes, sir.
    First of all, with respect to the privacy issues, TSA took 
really great measures to protect the privacy concerns. We have 
a privacy impact assessment study that was published that 
reflects those measures.
    But, very specifically, first of all, the passengers have a 
choice as to whether or not they go through the WBI or the 
walk-through metal detectors.
    Second, the images that are viewed are viewed in a remote 
location, so that the officer that is viewing the image never 
sees the passenger and the officer that is assisting the 
passenger never sees the image. The face is blurred.
    There is signage in the checkpoint advising the passengers 
of their options and what the image actually looks like. The 
technology itself does not store, it does not print, it does 
not transmit nor save the image. Once the image is deleted, it 
cannot be retrieved.
    These are the measures that we have put in place. In the 
places where we have the technology, we have over a 95 percent 
satisfaction rate with the traveling public.
    In all honesty, sir, based on the intel that I and the 
leadership team at TSA sees every single day, if we do not have 
the ability to deploy this technology and utilize it to the 
best of the abilities for the system, it will represent a 
severe limitation of our detection capability.
    We know that those who intend to do harm today have moved 
way beyond metal items. They are, in fact, looking for things 
that they can conceal. They are looking for things that the 
walk-through metal detector cannot detect, and the whole-body 
imaging technology can.
    Mr. Dent. Well, thank you. I hope somebody in the media is 
writing that down and they publish that tomorrow. It is a very 
good statement. I appreciate that.
    Finally, on the LASP program, as you know, I have some real 
concerns about the proposed rulemaking. I noted that, with some 
comfort, the Department has recently conducted a couple of 
workshops of various stakeholder groups, and will soon hold a 
third, to consider future proposed rulemaking.
    How is this process that you are conducting different than 
the process used to develop the initial rulemaking, which has 
given a lot of us, on a bipartisan basis, some real heartburn?
    Ms. Rossides. Well, sir, the initial rulemaking that we 
sent out, we actually did something that was rather 
unconventional with our regular rulemaking process in that we 
did have five public meetings on the initial rulemaking.
    But after the extensive comments--and I believe we got over 
6,000 comments from the public in general--we have held a 
series of meetings with major trade associations and other 
stakeholders. We held the first meeting in April, the second in 
May, and we have the third meeting scheduled for June 15. What 
we are looking at is those areas of concern by the external 
stakeholders and associations.
    Once we have these meetings, we will look to see where the 
interests of those persons are and the TSA concerns and 
security interests are. Then we will go out with--we will 
reopen the notice of proposed rule making for a second round of 
comments.
    I am hoping, and from the feedback we are getting from the 
associations, that is a positive step in the right direction, 
in terms of coming to agreement on how we close some of the 
security vulnerabilities we are concerned with and meet their 
concerns, as well.
    Mr. Dent. I just think a lot of the Members here would be 
appreciative if the stakeholder input was not summarily 
dismissed.
    Ms. Rossides. It won't be.
    Mr. Dent. Thank you.
    I will yield back.
    Ms. Jackson Lee. Thank you.
    Let me ask Mr. Reitinger again, how close to the 3 o'clock 
hour can you stay?
    Mr. Reitinger. Thank you, Chairwoman. I have a speaking 
engagement at the Chamber of Commerce, where I know one of your 
Members is going later. I was supposed to leave at 2:45, but I 
will push it, as we need to, to respond to the committee.
    Ms. Jackson Lee. Well, let me do this. My questions are 
only going to be to you. I hope, if you give quick answers, I 
might be able to get Mr. Lungren in and Mr. Himes before you 
leave.
    If I could ask Members to only question--we will be able to 
come back around for Ms. Rossides. If that can work for your 
questioning, it would be helpful, since he has an opportunity 
to leave.
    Let me quickly ask the question about the NPPD. There have 
been a lot of discussions about the permanence of NPPD. As we 
all know, it is a disparate collection of entities that, in 
some cases, do not appear to a unifying focus beyond being 
security programs.
    With that said, does this budget set the stage for the 
reorganization of the NPPD before or after the delivery of the 
Quadrennial Homeland Security Review next winter, Mr. 
Reitinger?
    Mr. Reitinger. No, ma'am, it does not. The budget, in fact, 
is designed to help drive unity of NPPD by building an 
effective front office that will enable the organizations to 
move effectively and work together on its joint mission of 
mitigating threats to the homeland.
    Ms. Jackson Lee. Are you saying that you don't intend to 
begin to look at reorganization at this time or before the 
delivery of the Quadrennial Homeland Security Review, or are 
you going to do it after? What is the time frame for 
reorganization? What is the interest in reorganization?
    Mr. Reitinger. Well, ma'am, an ultimate decision about 
reorganization I would leave to the Under Secretary, once 
confirmed by the Senate.
    I believe we have a good basis going forward with NPPD. 
There are no current plans to reorganize NPPD, other than to 
move IGP up as a direct report to the Secretary. We intend to 
move forward effectively. As experience tells us whether the 
organization of NPPD is optimal, we would come back and work 
with the committee to make sure that could be done as 
effectively as possible and with minimal disruption to 
business.
    Ms. Jackson Lee. Well, let me just hope that you will 
convey to your leadership there that we are interested in 
seeing a plan for reorganization or at least some argument that 
it shouldn't be reorganized.
    The subcommittee is concerned with the level of personnel 
NPPD employs. I am happy to learn from your testimony that many 
you brought on 300 new employees over the last 12 months and 
currently have approximately 800 Federal employees on board out 
of 1,064.
    For that reason, I was pleased to learn from your budget 
request that you intend to bring on additional personnel. Could 
you describe NPPD's efforts to employ additional personnel, how 
this will affect current contracts at the Department?
    Mr. Reitinger. Yes, ma'am. As you indicated in your opening 
statement, Madam Chairwoman, my No. 1 priority is bringing the 
right people on board. It is my personal belief that 
organizations succeed or fail based on the people that they 
have. Therefore, that takes the majority--of my time, I spend 
the biggest chunk of it working to make sure that we have 
effective processes in place to bring on the right people as 
rapidly as possible to supplement the excellent staff we 
already have.
    To that end, we have aggressive hiring plans for the 
remainder of the fiscal year, and we will be bringing on 
additional people next year.
    As my testimony also indicates, we are making efforts to, 
as you said, correctly right-size the contractor workforce so 
that we build up our Government personnel capabilities, create 
expertise in Government, and use contractors appropriately for 
the roles for which they are best suited, which includes 
scaling to meet needs and for getting particular expertise that 
is readily not available in the Government workforce.
    That will, I think for the foreseeable future, remain my 
No. 1 priority, because I believe if we can do that 
effectively, everything else will come with it.
    Ms. Jackson Lee. I would like you to make yourself 
available for briefing for Members who may be interested and 
myself--I happen to be interested--on the progress of that 
effort and how you are approaching it, particularly since it 
relates to utilizing or non-utilizing of contractors. So if you 
could make note of that, I would appreciate it.
    Mr. Reitinger. I would be happy to, ma'am.
    Ms. Jackson Lee. On the RMA, you heard my comments earlier. 
They have been meeting with our staff. We know that they have 
an ambitious agenda, ranging from a national risk assessment to 
the informing of budget cycles to a heavy presence working with 
the Quadrennial Homeland Security Review.
    So how, then, is approximately $9 million enough for fiscal 
year 2010 for this particular subset? Staff was told last week 
that 19 of the 26 FTEs are filled; that means that you have 
seven that are not. How quickly can you get to full capacity, 
given the major hiring that you are trying to do within NPPD?
    Mr. Reitinger. Well, ma'am, I believe that the budget 
request is reflective of what we believe we need to start to 
drive success with RMA; and, in particular, to have it lead the 
risk management study group within the Quadrennial Homeland 
Security Review.
    I think, going forward, this and other areas will get 
additional knowledge about the scope of requirements and could 
come back to the committee or find the resources within DHS and 
reallocate personnel, if necessary, to accomplish the mission.
    In terms of hiring, I believe that the number that you 
stated refers to--my recollection is we have 13 Government 
personnel on-board in FTE, with six offers outstanding, and 10 
contractor personnel on-board. That is my current 
understanding. So we will be to be the number you said very 
soon. We are focusing just as much on RMA hiring as we are on 
hiring for other components. So we will bring on the additional 
FTEs as rapidly as possible to make sure that we can 
effectively execute the mission.
    Ms. Jackson Lee. Let me suggest that I appreciate the 
answer that you had to give. This should be an on-going review 
by those of us who are concerned that any cuts in the budget, 
when we are trying to build and ensure that the Department does 
have the staff, is of concern to us.
    It follows that my next question about the $11 million cut 
from IP's national infrastructure protection program efforts, 
we are curious as to the rationale behind those cuts, 
particularly since we know the private sector are not regulated 
for security purposes. Many do not have the financial resources 
in this economic climate.
    So I would appreciate it if you would explain whether other 
departments and agencies which partner with DHS under the NIPP 
will be providing resources to counter and to complement the 
losses of $11 million and to further security efforts under the 
NIPP and fiscal year 2010.
    I think one of our biggest Achilles heels are the private 
sector, although they are aware of the responsibilities of 
securing their facilities, the question is, do we have it at a 
level that suggests that they are doing everything they can do? 
We are now cutting in this area.
    Mr. Reitinger. Yes, ma'am. Let me answer that in several 
different ways, if I could. I will try to be as brief as 
possible.
    First, it is not our intention to not do anything we were 
going to do with the cut of $11 million. We might simply have 
to push out particular products that we were designed from 
fiscal year 2010 to perhaps fiscal year 2011.
    We are also going to have to rely on a more, as your 
question indicates, a more distributed model for resourcing the 
partnership. That seems, to me, appropriate because it is, in 
fact, a distributed process involving not just the Department 
of Homeland Security but multiple Federal agencies and 
literally thousands upon thousands of private-sector entities. 
We are going to need to rely more on them to help drive the 
NIPP partnership. I will be working personally and avidly to 
make sure other Federal agencies do their part in that process.
    In addition, with regard to the private sector, as your 
question points out, it is a more difficult time for the 
private sector to devote things such as working to partnership 
with the Department of Homeland Security.
    That said, I spent the last 6 years in the private sector, 
and I can personally testify to the fact that large portions of 
the private sector are deeply committed to the security of the 
United States and I believe, with the right partnership, with 
the right opportunities, are willing to go to even greater 
lengths to work with U.S. Government, and DHS in particular, to 
more effectively secure the homeland.
    Ms. Jackson Lee. I thank the gentleman.
    With that, I will end my questioning and yield to Mr. 
Lungren. I will reserve my questions for you, Ms. Rossides. 
Thank you.
    Mr. Lungren.
    Mr. Lungren. Thank you very much, Madam Chairwoman.
    Mr. Reitinger, in the President's budget I think there is 
$19 million for the implementation or enforcement of the 
chemical security regulations. Can you give us an update on 
where we are in terms of the implementation of the chemical 
security regs?
    Mr. Reitinger. Yes, sir. The most recent action--as I am 
sure you know, the original notice of rulemaking was published 
back in 2008, and initial tiering determinations were made. 
This is also reflected in my testimony.
    Most recently, back in May, the tiering of the entities 
regulated under CFATS, the initial letters went out to those 
regulated under tier 1, the highest level. So, those have been 
notified of their need to develop a site security plan. So that 
effort is on-going. Further communications to the lower tiers 
will take place over the remainder of the year.
    Mr. Lungren. The authority to regulate the chemical 
security expires in October of this year because of how we had 
to fashion legislation in the past. How long does the 
Department need to complete and review all the vulnerability 
assessments, the site security plans and site visits to the 
covered facilities?
    Mr. Reitinger. Yes, sir, we believe that will be an on-
going activity and would support reauthorization of CFATS. That 
is the reason that we ask for, in the budget request, the 1-
year reauthorization, so we could discuss with Congress a 
permanent reauthorization of the CFATS regulatory regime.
    Mr. Lungren. I want to stress that, because, you know, 
there is a lot of talk here on the Hill that we didn't do 
enough or we have to change it and so forth. You got the 
industry to buy into it. You had a cooperative effort with the 
industry to come up with regulations that, it appears to me, 
can actually work. I am worried about us starting the whole 
process again, not that we can't improve the process, but 
starting it again and losing all the good work that we had in 
the past.
    Do you share that concern?
    Mr. Reitinger. I certainly would not like to start again 
from scratch. We have made a lot of headway. We have done some 
extensive hiring. We are bringing the right expertise on board 
to be able to execute the regime. Zeroing out that program and 
restarting would be costly and inefficient.
    Mr. Lungren. The budget request has $19 million in there to 
complete the ammonium nitrate regulations that were mandated 
some years ago. Can you give us the status of the regulations, 
when you expect those will be completed?
    Mr. Reitinger. Yes, sir, I can. The advanced notice of 
proposed rulemaking came out last year, and comments were 
received. Based on those comments, which came in through 
December of last year, a task force was established by DHS in 
January of this year.
    That body has been reviewing the comments, contacting 
internal and external stakeholders, and is working on 
developing an actual notice of proposed rulemaking that should 
be released some time in the fall, after review by OMB. The 
ultimate effective date of such a regulation will depend on a 
number of factors after that.
    Mr. Lungren. Sure, I understand that. But I hope that you 
understand that we, in the Congress, are very concerned about 
the ammonium nitrate. It does appear to be a substance that is 
a favored substance used by terrorists. This Congress was 
concerned, with some sense of urgency, that do have 
regulations, so I hope that they will be completed sooner 
rather than later.
    The committee will be considering chemical facilities 
security legislation next week. We have the issue of inherently 
safer technology, or IST. There is some issue--again, this goes 
back to the question about whether we start almost from scratch 
or revamping it again. Can you give us your thoughts on IST and 
its reasonable application to regulations?
    Mr. Reitinger. Of course, sir. I will be brief on this 
subject, because, as you indicate, sir, there is a hearing next 
week specifically on the topic.
    There is nothing in the current regime that prohibits a 
covered entity from implementing the use of inherently safer 
technologies to tier down or to comply with the existing 
regime. So the existing regime has the flexibility to allow 
regulated entities to use those sorts of technologies. It does 
not, however, mandate them.
    I, and NPPD generally, would be happy to work with the 
committee going forward to make sure that any permanent 
reauthorization of CFATS or other statutory amendments most 
effectively allow meeting critical national needs around 
protecting chemical facilities and, at the same time, preserve 
the greatest degree of flexibility around risk-based 
performance so that covered entities can comply most 
effectively with the Federal requirements.
    Mr. Lungren. I thank you. I appreciate that response.
    I will return any time I might have.
    Ms. Jackson Lee. Let me thank you.
    Before I just may be able to yield a minute or 2 to the 
next speaker, looking at the clock, Mr. Reitinger, I just want 
to make mention of the fact that our chemical legislation we 
have been working on for a very long time, so it would not be 
starting from scratch.
    If we got momentum and saw this thing really formulating, 
would you welcome it getting done within the year?
    Mr. Reitinger. I would welcome a reauthorization, a 
permanent reauthorization, as rapidly as possible of the CFATS 
regime, yes, ma'am.
    Ms. Jackson Lee. Thank you.
    Mr. Himes, we have you for a moment.
    Mr. Himes. One minute, one question, Madam Chairwoman.
    Mr. Reitinger, I am interested in the topic of 
cybersecurity, in particular. I have listened to people at DOD 
and elsewhere who are concerned with this issue make statements 
indicating they understand the threat. In all candor, it also 
seems like people are just now beginning to really think how to 
address that threat.
    So my question is, looking at your budget request and also 
aware of the fact that the White House has developed this 
concept of naming a cyber coordinator, can you address how you 
are thinking about this, how you are coordinating this in an 
integrated fashion with DOD and other interested agencies and 
departments, and how you might relate to the White House cyber 
coordinator, and how your budget proposal reflects that 
possible integration?
    Mr. Reitinger. Yes, sir, I can. We have a very strong 
interagency coordination process under the White House through 
interagency policy committees. They meet regularly to make sure 
that all of the agencies are moving forward jointly to address 
the issue.
    In that vein, I would greatly welcome the appointment of a 
cyber coordinator in the White House, because it is my opinion, 
as the President indicated as the outcome of the 60-day review, 
that this is an issue of such national importance that we need 
White House leadership. We need White House leadership to 
continue to bring all of the agencies together as effectively 
as possible.
    I pledge to you and the committee that DHS will be a part 
of that and will work effectively, not only with the White 
House but with all of our agency partners from DOD, through the 
Department of Commerce, the Federal Bureau of Investigation, 
and many others, to make sure we are effectively addressing the 
issues.
    I believe our budget proposal reflects the increasing 
seriousness of the issue. As the Chairwoman noted, we are 
devoting substantial additional dollars to help do our part in 
DHS to help provide for cybersecurity both within the Federal 
Government and in the private sector.
    Mr. Himes. Thank you.
    I yield.
    Ms. Jackson Lee. Thank you.
    Mr. Lujan is next.
    Mr. Massa, did you have a question? Because you would have 
to ask Mr. Lujan to yield.
    Mr. Massa. No, Madam Chairwoman. I will wait until we go 
around our first round.
    Ms. Jackson Lee. All right. Thank you.
    I think he is ending his time. Mr. Lujan, did you have a 
second of any comment?
    Mr. Lujan. Well, Madam Chair, maybe not necessarily 
anything that the Under Secretary would have to respond to. I 
could probably make my point as the Under Secretary is packing 
up, so best to utilize his time. I know he has an important 
speaking engagement.
    But, you know, the issue that we would have to visit about 
our report as well. But I would yield back to the Chairwoman 
and allow him to maybe be excused, and I could make my point as 
he is packing up.
    Ms. Jackson Lee. Well, I am yielding to you, Mr. Lujan. You 
are ready to make your point.
    Mr. Lujan. Okay. With that, Madam Chairwoman, thank you 
very much.
    The one thing, to carry on what Mr. Himes was discussing 
pertaining to cybersecurity, is again that we have an 
invaluable asset in some of our NNSA laboratories, both 
Lawrence Livermore, Los Alamos, and Sandia National 
Laboratories, of which they already process real-world 
experience, technology, Government, and private-sector 
interface to be able to be an immediate asset to these efforts 
and to this program.
    I would hope that, as we look at DHS in conjunction with 
what the President's efforts are in this area, that we look to 
the NNSA laboratories for their expertise and to fully utilize 
their experience with the data sets that have been compiled, as 
well as other security measures that can be taken.
    I yield back, Madam Chair. My other questions I can reserve 
until later on. Thank you.
    Mr. Reitinger. Let me again offer my apologies that I need 
to leave and my thanks to the committee for understanding that 
I had a prior commitment and my commitment to come back and 
meet with you and/or staff at your convenience to address any 
additional questions that you have.
    I would, in response to the last Member's point, say that I 
agree completely that this is a national problem and we need to 
bring all national capabilities to bear to address it. So I 
look forward to working with the committee and all elements of 
the Government to make that happen as effectively as possible.
    Ms. Jackson Lee. We are understanding of that. As you are 
putting your papers together, I don't want to--Mr. Cleaver, did 
you have a point you wanted to get on the record as he is 
packing up?
    Let me suggest to the Members what I said earlier, that any 
additional questions we will provide in writing. Mr. Reitinger, 
you indicated that you would be willing or accepting the fact 
of sitting down with staff after this particular meeting to go 
over any additional points.
    Mr. Reitinger. Yes, ma'am.
    Ms. Jackson Lee. Thank you very much.
    We are somewhat out of order here, but let me find out, Mr. 
Lujan, did you finish?
    Mr. Lujan. Madam Chairwoman, I would yield back so we can 
go to the second round of questions.
    Ms. Jackson Lee. All right. So then I am going to go to Mr. 
Cleaver. The witness that you have before you is the acting 
administrator for TSA.
    Mr. Cleaver. I am concerned about--and I apologize if this 
issue has already surfaced. But the TSA has this mandate by 
2010 to do 100 percent screening. Based on what happened with 
this existing budget, I am wondering if it is still realistic 
to have a 100 percent screening by 2010 if we are going to 
begin to cut back in the current budget?
    Ms. Rossides. You are speaking about the air cargo budget?
    Mr. Cleaver. Yes.
    Ms. Rossides. Yes, sir. First of all, let me explain the 
reduction, which is a reduction of $18 million that was in the 
2009 budget that was for pilots of utilizing technology. Those 
dollars went out to various partners that were testing the 
technology. So, in essence, that was a one-time investment that 
was made in 2009. So, in essence, the budget is a flat budget, 
you know, the same investment in terms of the program dollars 
from 2009 to 2010.
    With respect to the screening and the mandate for the 100 
percent screening for both domestic and international by August 
2010, we are absolutely certain that, on the domestic side, we 
will meet that mandate.
    We do believe that it is going to be a significant 
challenge to meet the international mandate by August 2010. 
Because, in essence, you have 98 countries that are importing 
to the United States via air cargo, and it is going to be a 
challenge to get all of those in compliance by the August 2010 
deadline.
    Honestly, sir, that is not necessarily a function of the 
dollars that TSA has, but it is the limitations we have with 
some of those foreign governments in getting them to comply 
with that mandate.
    Mr. Cleaver. So you do believe that, with the existing 
revenue funding stream, that domestically, at least, you will 
be able to meet the deadline?
    Ms. Rossides. Yes, sir.
    Mr. Cleaver. Now, then what needs to be--there is nothing 
that needs to be done congressionally to deal with the 
international?
    Ms. Rossides. No, sir. What we are doing is we are visiting 
these countries, we are giving them our standards. We are 
assisting them with teams of TSA experts that are going there 
and assisting them to try to get their supply chains to meet 
the U.S. standards.
    It is not that we are not going to get quite far towards 
that 100 percent; we are estimating today that we will get 
about 80 to 85 percent of the way. But there will be some 
countries where it is going to be difficult to get to that 
August 2010 date.
    Mr. Cleaver. Where are we now? What percentage----
    Ms. Rossides. We are over 50 percent, both domestically and 
internationally, as of today.
    Mr. Cleaver. You have no reservations whatsoever----
    Ms. Rossides. For the domestic side, yes, sir.
    Mr. Cleaver. But your projection is perhaps under 90 
percent.
    Ms. Rossides. For the international, that is right.
    Mr. Cleaver. Madam Chairwoman, one other question that is 
related to this, because I am concerned that when the budget 
shows a reduction--and I am not sure how it can be addressed--
but when the budget shows a reduction like this--and I don't 
want you to make up stuff and pad it--you wouldn't do it 
anyway. But, you know, it does create some concern, and I am 
not sure how to address it.
    Are you familiar with H.R. 2200?
    Ms. Rossides. Uh-huh.
    Mr. Cleaver. Was the congressional action taken in that 
legislation helpful in addressing this issue?
    Ms. Rossides. Yes, sir, in a way, it does----
    Mr. Cleaver. Internationally.
    Ms. Rossides. It extends the time frame, but that 
legislation actually does not change the mandate that we have 
under the 9/11 Act, which is for the August 2010 deadline. That 
legislation is still in effect, and that is the target date we 
are working towards. That is the date we are working towards 
with our international partners, the August 2010 date.
    Mr. Cleaver. All right.
    Thank you, Madam Chairwoman.
    Ms. Jackson Lee. I thank the gentleman from Missouri.
    That last point that you made, could you restate it and 
clarify it for me, please?
    Ms. Rossides. Yes, ma'am. It is my understanding that, 
although the provision to provide for the 2 years from the date 
of the enactment of the TSA reauthorization bill recognizes--
this is what the counsel is advising me--that the mandate under 
the 9/11 Act to meet the August 2010 date doesn't change. Now, 
I may be incorrect on that, but that is my understanding, that 
we still have an August 2010 mandate under the 9/11 Act.
    Ms. Jackson Lee. That is for domestic?
    Ms. Rossides. I believe it is both domestic and 
international.
    Ms. Jackson Lee. We will pursue that further.
    Let me recognize Mr. Massa for 5 minutes.
    Mr. Massa. Thank you, Madam Chairwoman.
    Thank you, Secretary, for being here today. I would like to 
return to one topic with a follow-on question.
    You very adroitly answered a question about whole-body 
imaging. Paraphrasing what you said, I believe the word was 
``critical'' for the security of the agency to fulfill its 
mission.
    Ms. Rossides. Yes, sir.
    Mr. Massa. Am I understanding your opinion of that process 
correctly?
    Ms. Rossides. Yes.
    Mr. Massa. You also stated that passengers in all cases 
would participate voluntarily.
    Ms. Rossides. Right.
    Mr. Massa. Can you help me understand how a voluntary 
program could therefore be critical to the security of the on-
going operations, since there is no way to screen or determine 
who is going to be participating since they self-select?
    Ms. Rossides. No, sir, the way the system is designed is 
the passenger would be given the option to go through the 
whole-body imaging technology. If they pass through that 
technology, then that technology is so superb at detecting 
anything on the body that it will not require us do an officer 
do a pat-down.
    Mr. Massa. No, I understand that. Although I would never 
want to inflict anyone on my participation in this program, my 
point here is, you may the statement that the deployment of 
this technology is critical to the overall improvements in the 
security of TSA.
    Ms. Rossides. Yes, sir.
    Mr. Massa. But you also outlined and have now confirmed 
that participation by passengers is voluntary. That, to me, is 
a fundamental disconnect in logic.
    If I say that we have to do that to this group to increase 
security and then I say to this group it is voluntary to 
participate and no one opts in, how could that technology 
thereby be considered to be crucial to the increase in security 
of the group?
    Ms. Rossides. Well, sir, it is because the majority of the 
passengers are opting in, No. 1. No. 2, in order to do what we 
have to do every day, we have to be able to deploy as many 
tools as possible to help us in the screening process.
    Mr. Massa. Is it a question of speed?
    Ms. Rossides. It is a very effective process to screen 
people very quickly. It is much quicker to go through the 
whole-body imaging than it is to do a pat-down. So one is a 
passenger throughput, but the primary goal is the ability to 
detect without ever having to touch the passenger.
    Mr. Massa. So a second point I would like to ask, if you 
could just give me a few moments on this, it is my understand--
and I apologize that I arrived late; it may have been addressed 
before my arrival--that we are preparing to fulfill a 
requirement to increase security in corporate aviation.
    That brings the presence of air marshals, the screening of 
passengers, and the handling of corporate, in fact all private 
aircraft over a certain weight limit, to the standards that we 
have come to be familiar with as the general public, myself 
included, flies.
    Is that program continuing, as had been previously briefed?
    Ms. Rossides. It is subject to continuous discussions 
currently with the stakeholders. We are going to go out with a 
second round of proposed comments and a second round of a 
notice of proposed rulemaking. The goal is to listen to and 
address the concerns that the stakeholders have, but also to 
close the gap in what we see as some security vulnerabilities 
with the general aviation population.
    Mr. Massa. Is part of that enhanced security in corporate 
aviation entailed in the embarkation of air marshals on those 
aircraft?
    Ms. Rossides. It is one of the elements. Whether that 
ultimately ends up in the final decision, you know, that is to 
be determined. But it was one of the elements, to know, to have 
a law enforcement security official on board.
    Mr. Massa. So one of the concerns I have with this 
potential mandate is, where will these people come from? It is 
my understanding--and I apologize, I am just a country guy from 
upstate New York--but it is my understanding, from the reading 
of the information I have been given, that we kind of are 
looking for people anywhere and we are facing some shortages in 
that particular endeavor.
    Where will we find all the additional officers necessary to 
fulfill this requirement in general and corporate aviation?
    Ms. Rossides. I believe that the proposal would allow those 
corporations to employ their own, and then we would train them 
or offer training to a certain standard.
    Mr. Massa. Well, I would offer an observation that if a 
company is buying and training their own, we have kind of lost 
control of that particular aspect of the security operation.
    So it is my opinion, as a pilot, I am very dubious of the 
enhanced security that this particular mandate, in all of its 
factions, will bring. I am concerned about its cost-benefit 
analysis and detracting from other areas that are a much more 
significant potential threat.
    I am open to participate and offer any insight, as a guy 
with an awful lot of hours behind the stick, as to what this is 
going to mean to general and corporate aviation and to the 
traveling corporate world. This is an incredibly important tool 
to them. I don't want to put any more burdens on business when 
we don't have to.
    Ms. Rossides. We would be happy to sit down and talk to you 
and actually brief you on the comments as we go through the 
period of working with the associations.
    Mr. Massa. Thank you.
    Thank you, Madam Chairwoman. I yield back.
    Ms. Jackson Lee. Let me query my colleague, because he does 
have a lot of information.
    Before I do that, Ms. Rossides, let me suggest to you that 
we are going to look at the jurisdictional question of 9/11 
versus H.R. 2200. I would offer that clarification.
    Before Mr. Massa leaves, I wanted to query Mr. Massa before 
I move us to our next round.
    Because of your experience behind the stick, could you just 
articulate for the committee the point that you are making? 
Were you suggesting the impact on general aviation?
    Mr. Massa. Thank you, Madam Chairwoman.
    Ms. Jackson Lee. So our witness can hear it, as well, maybe 
in a clearer manner.
    Mr. Massa. Certainly. So my concerns about this particular 
proposed enhancement of security on aircraft--and I think it is 
over 18,500 pounds; I may be off on that number, but it is 
almost everything that flies--has to do with not only its 
impact on general aviation, which I believe, if fully 
implemented, will basically terminate general aviation, but 
also on the ability to use corporate aircraft as an extensive 
business tool.
    I fully understand that a three-engine Intercontinental jet 
or a Gulfstream 5 or any of the larger corporate jets 
potentially represents an aviation threat as per the nightmares 
that we have lived through in the last decade. But every 
individual on a corporate flight is self-identifying and self-
selecting. That airplane will never get off the ground unless 
everybody on the airplane knows everybody else on the airplane. 
That is the fundamental difference between corporate aviation 
and the general traveling public.
    Likewise, in light general aircraft it is much the same. If 
the airplane is small enough, you can't put the security 
measures inside of a Cessna 150 or a Cessna whatever.
    So I am very, very concerned about the impact on this 
industry. It represents a significant sector of our economy. We 
have, you know, whole cities, literally, for whom the 
construction of light and corporate aircraft is a key element.
    I do not presuppose or recommend that the current briefings 
I have received get enacted into law. This is going to be very, 
very, very problematic. Again, I am speaking to this as a guy 
who has done a lot of flying.
    So I offer those viewpoints, and I stand ready to help in 
any way possible. Although I will counsel there are a lot of 
people on this that are a lot smarter than I am. But I know the 
questions.
    Ms. Jackson Lee. I wanted you to restate your concerns on 
the record and just to say to you that, on that particular 
question, we are going to have a general aviation hearing so 
that we can respond to being helpful to TSA. TSA's regulations 
have been, if you will, somewhat challenging. I happen to err 
on the side of wanting more security, but I also want to be 
balanced and responsible.
    So I wanted you to be able to articulate that on the record 
again. Also indicate to you, Mr. Massa, that we will be having 
a hearing on this question overall of general aviation 
security.
    I would just ask the agency to be prepared, because we will 
be asking you to respond to your framework for security in that 
instance. I thank you.
    We are going to start a second round that I am going to 
start with and then yield to you, Mr. Dent. I am going to focus 
my questions on cargo and a number of other issues.
    I would appreciate, Madam Administrator, if you would 
explain to us the reduction in light of the upcoming August 
2010 100 percent cargo screening deadline for cargo on 
passenger aircraft. The reduction I am talking about, the 
fiscal year 2010 request for air cargo security programs is 
less than the enacted fiscal year 2009.
    Can you describe how the budget is changing with respect to 
the number of inspectors, as well as the resources being 
allocated to certify shippers' screening facilities?
    I have visited a number of our airports; I think I relayed 
that to you. One of the issue was the certification of the 
shippers' screening facilities, which can be helpful in moving 
cargo.
    Would you provide us with your understanding of that?
    Ms. Rossides. Yes, ma'am. The enacted 2009 cargo budget was 
for $123 million, and the request for 2010 is $108 million, and 
that difference, which is actually $15 million, represents a 
reduction from 2009 to 2010 for a one-time investment in 
technology to be deployed in pilot locations with these cargo 
facilities to test in the cargo environment the technology.
    With respect to the number of inspectors, the program level 
from 2009 to 2010, it remains the same. In fact there is a 
small increase for the cost of living for the payroll for the 
employees in the program area.
    The work that we are doing in the air cargo program is a 
very strong partnership with the external business cargo 
facilities, those who are becoming certified shippers, and that 
is on-going and we are actually making very, very good 
progress, particularly here in the United States, with 
certifying those facilities and those certified shippers so 
that we are quite confident that we will get to the 100 percent 
by August 2010 here in the United States.
    With respect to the international partners, we are doing a 
lot of work internationally, visiting those countries, really 
training them, educating them about the process that the United 
States Government has put in place here, and gaining compliance 
that way with our international partners.
    So from a budget standpoint from 2009 to 2010, that 
reduction was a one-time technology investment that does not 
impact the strength of the program from 2009 to 2010.
    Ms. Jackson Lee. That seems to be a limited window. You are 
suggesting that the work that you do between 2009 and 2010 is 
not going to be diminished. What about perspective planning, 
needing more staff to prepare for after 2010? How does this 
budget relate to those issues?
    Ms. Rossides. The projection is once we gain compliance 
with the mandate by 2010. Then those resources will be in an 
audit role. They will go out and they will visit, and we will 
have a series of ways of looking across the system, looking at 
compliance and then selecting for audit those locations where 
we believe we may have a concern. But the program will shift 
from educating to gain compliance and certification to an audit 
process.
    Ms. Jackson Lee. So what you are saying is you have enough 
personnel to certify, and you use a formula to audit and to 
check to see whether or not they are functioning properly?
    Ms. Rossides. That is correct, after they have been 
certified.
    Ms. Jackson Lee. Let me put a hold on that point and just 
raise the issue of whether or not I am comfortable with 
security being done by audit. So I know some information has to 
be gained that way as well. Why are there no new FTEs or 
funding increases for the purpose of building and expanding the 
expertise and workforce for surface transportation programs? I 
hope you and the staff will review extensively H.R. 2200 
because it does have a lot of positive aspects for surface 
transportation security.
    Ms. Rossides. First of all, let me say that we do 
appreciate the fact that with the TSA reauthorization bill, 
there is direction to TSA to focus on surface modes of 
transportation.
    With respect to our budget in 2010, it is for $128 million. 
That actually represents an increase of about $65 million over 
our enacted 2009 level. Most of that is going towards our VIPR 
teams, which are--this will create 15 permanent VIPR teams that 
will be deployed in the surface modes of transportation. In 
addition, that supports 225 surface inspectors who work across 
the system in the surface areas doing the inspection work and 
working with those industries in terms of meeting certain 
security standards that we put out across the system.
    Also, our surface program includes canines, which currently 
we have 86 teams which cover 15 different mass transit 
locations and ferries as well on a random basis.
    Ms. Jackson Lee. Let me just pursue the VIPR teams, which 
have their fans and nonfans. When you say deploy 250, are you 
talking about over various surface transportation systems?
    Ms. Rossides. Yes, ma'am. Working with our State and local 
partners, we would go into various modes of transportation. For 
example, we would work in the rails with Amtrak, we would work 
in mass transit in some of the major cities, working with them 
to put these VIPR teams, which we have found to be an excellent 
deterrence. The success of these, for example, in the last 
couple of years we have probably executed about a thousand VIPR 
team deployments, and about 45 percent of those have been in 
the surface areas. It is very much a partnership with the local 
mass transit police departments, local mass transit 
authorities, and we have done work in collaboration with the 
Coast Guard with the ferries in the Pacific Northwest.
    Ms. Jackson Lee. We have the funding to deploy them and 
have them remain in place for a period of time?
    Ms. Rossides. They would be strategically situated around 
the country to work in an area in the mass transit in those 
areas.
    Ms. Jackson Lee. Targeted or to remain on-going?
    Ms. Rossides. It would be an on-going process.
    Ms. Jackson Lee. So they would be assigned to a specific 
area when we have funding to keep them on duty?
    Ms. Rossides. Yes.
    Ms. Jackson Lee. Just for my own edification, are there 
various oversight in terms of back at headquarters on issues 
dealing with civil liberties and civil rights in terms of how 
these teams will be acting?
    Ms. Rossides. Yes, ma'am. They all have a supervisor on the 
site with them, and they have been through the training. Our 
Office of Civil Rights and Civil Liberties does monitor their 
activities, and any instances of concern are immediately 
investigated.
    Ms. Jackson Lee. Thank you.
    Last year working with Assistant Secretary Hawley, we 
discussed checkpoint evolution as TSA's new way of modernizing 
checkpoints across airports. This initiative was started at the 
end of the previous administration. Outside of BWI, it does not 
appear that many of the elements have been implemented in other 
airports. What is the status of Checkpoint Evolution?
    Ms. Rossides. Well, I am very happy to say that as of end 
of April, we have completely trained all 50,000 frontline 
officers in the training which we called ``Engage and Coach,'' 
which was a combination of providing them enhanced IED 
detection capabilities.
    Ms. Jackson Lee. So you are saying it is across all 
airports?
    Ms. Rossides. Yes, ma'am. We have trained the entire 
workforce by the end of April.
    The other part of the evolution strategy is to continue to 
focus on the training of our supervisors, which we are in the 
process of doing now. Then the third element really is the 
technology, which is the major investments in technology that 
we are making to bring the entire system at the checkpoint up 
in terms of our advance technology X-ray and continuing to 
improve the in-line baggage systems.
    Ms. Jackson Lee. What methods are you using to measure to 
check to see whether or not the Checkpoint Evolution is 
working? What are your benchmark standards?
    Ms. Rossides. The benchmarks and standards include, we have 
a pilot program on-going where we are asking the traveling 
public for feedback as soon as they have passed through the 
checkpoint. We have piloted that at BWI.
    We also are developing surveys in conjunction with several 
of the carriers to ask about passenger experience that they 
have had.
    When we have deployed any of the new technology in, for 
example, the WBI in the pilot modes, we do surveys right there 
with passengers to ask them for their feedback, and we are 
developing a series of pulse surveys that we will provide to 
the workforce that continues to focus on their ability, their 
quality of work life issues within TSA, all of which goes 
towards their ability to better do the job.
    Ms. Jackson Lee. These are good benchmarks. Do you have 
someone reviewing this and making assessment?
    Ms. Rossides. Yes, ma'am. The senior leadership team of 
TSA, and particularly our managers in our security operations, 
look at these measures and they drill them down to every 
airport in the country.
    Ms. Jackson Lee. Let me yield now. Thank you very much. Let 
me yield now to the gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Madam Chairwoman.
    The Inner City Bus Security Grant Program has provided 
grant programs to private over-the-road buses for the past 5 
years. The President's fiscal year 2010 budget request, 
however, proposes the elimination of this grant program. Can 
you tell us why the Inner City Bus Security Grant Program is 
being eliminated in this year's budget?
    Ms. Rossides. Sir, the proposal was to shift the focus from 
the grants funding per se to the work with what we call an 
ISAAC, which is an interagency advisory committee. In the 
course of looking at the entire grants process this year, those 
were not funded for 2010.
    Mr. Dent. Also, section 1604, the implementing 
recommendations act of the 9/11 Commission Act required that 
airports that have incurred eligible costs associated with the 
development of partial or completed in-line baggage systems 
before enactment of the implementing recommendations act of the 
9/11 Commission Act be included in the TSA prioritization 
schedule for airport security improvements projects. The 
President's budget request includes a significant funding 
increase of $565 million from the 2009 level for in-line 
explosive detection systems, procurement, and installation.
    Can you tell us how much of that funding will go towards 
the reimbursement of airports for in-line systems that airports 
themselves installed and paid for?
    Ms. Rossides. No, sir, at this point I can't give you an 
exact figure on that. I will tell you that we do, through a 
rather extensive process, have the airports apply, but I can 
predict the breakdown of that right now.
    Mr. Dent. The final rule for the Secure Flight was 
announced in October of last year. Can you give us an update on 
the Secure Flight implementation?
    Ms. Rossides. Yes, sir. The Secure Flight Program began to 
actually what we call cutover air carriers at the very end of 
January. As part of the building of this program and the work 
to bring it on-line, we have done an extraordinary amount of 
work with the Government Accountability Office, which has been 
a terrific partner in getting us to a program level that is 
really quite exceptional. We have met all 10 conditions that 
the GAO set before we launched the program.
    As of today, we have four or five carriers that are now 
providing their passengers' names, and TSA is screening them 
under the Secure Flight Program, and we are working with all of 
the domestic carriers to provide the dates for when they will 
begin cutover. The goal is to have all domestic carriers cut 
over and operating fully under Secure Flight by March 2010. We 
are working with them now on those schedules for the cutover. 
The ultimate goal is the international carriers will be all 
covered under Secure Flight by the end of 2010.
    Mr. Dent. Thank you. I yield back the balance of my time.
    Ms. Jackson Lee. I thank the gentleman.
    Mr. Lujan for 5 minutes.
    Mr. Lujan. Thank you, Madam Chairwoman.
    One of the questions I have in and around, and I guess most 
of my questions center around, in and around surface 
transportation, with how we are able to fully screen vehicles, 
trucks. We go back to 1995 with the Oklahoma City bombing, how 
we are screening vehicles and the importance of looking at 
container vehicles and those vehicles delivering packages to 
homes and business, and what we truly can do to ensure we are 
providing adequate screening for these vehicles.
    How is the Department ensuring that these vehicles, there 
is adequate support for surface transportation going forward?
    Ms. Rossides. Part of the dynamic is what is the TSA role 
versus the State and local role with respect to surface 
transportation, the truckers, and we do this through a series 
of assessments. We have a model where we are assessing each of 
the industries in terms of their abilities to provide training 
to their workers. We do have programs in place where we vet the 
drivers and we also have an extensive work through our grants 
administration which goes to surface in general, particularly 
with respect to rail. It is a matter of our providing them 
certain standards to meet rather than we are in there actually 
inspecting.
    Mr. Lujan. I talk about our laboratories quite a bit. I 
think they are an immense resource. But there are laboratories 
that are developing technology for quick screening but it is 
very effective screening that I hope we look to employ. One of 
the concerns that I have is a few of the programs that are 
related to surface transportation. One is the First Observer 
Program, which appears to be getting reduced, although there is 
the Highway Information Sharing Analysis Center, which is 
getting an increase, but it is part of the First Observer 
Program which appears to be getting cut. I would like to know 
how that is going to truly work or provide support from a 
surface perspective.
    Then related to the efforts with utilizing some of the VIPR 
teams, one of the concerns that I have, and I will quote from 
some information here, that the surface transportation security 
and efforts to analyze functions established in the 9/11 Act, 
it is troubling that the additional funds and personnel are not 
targeted to any of the most urgent needs or gaps in TSA's 
execution of its surface transportation security mission, such 
as the Surface Transportation Security Inspection Program, the 
Transit Security Grant Program, and building up surface 
transportation security personnel and expertise.
    Although we are seeing more support with surface 
transportation or with the VIPR programs, the resources don't 
appear to be going toward the surface transportation security 
inspectors, and I may have that unclear and if I need to clear 
that up, please let me know. But when we are utilizing these 
programs to assist or offer the initial support with transit or 
with surface, why is it that the training that is taking place 
is maybe those who have more expertise with air as opposed to 
those on surface, where in fact that program is to be managed a 
bit by the entity with the air marshals?
    Ms. Rossides. If I understand your question, on the surface 
side what we do is we help design training, we help put 
standards out. We work with whatever the mode is, whether it is 
rail, mass transit, highways, to provide training conferences. 
But a lot of that is done as part of creating a baseline of a 
standard for that particular industry.
    The VIPR program is utilizing TSA resources, TSA personnel, 
to assist, to complement, to help provide as a deterrence in 
those surface areas.
    I don't know if I have answered your question. We can go 
back and I can give you a total picture of what we are doing in 
the highway area with the ISAAC and how that is viewed as one 
of the strong partnerships between TSA and the Federal sector, 
is the work that we are doing with the highway and the motor 
carriers. But I am not sure that I am being responsive to your 
question and that I am answering your question.
    Mr. Lujan. Madam Chairwoman, I will submit the question in 
writing.
    Can you include where are the most urgent needs or gaps in 
TSA's execution of its surface transportation security mission 
exists to the committee? I think that will assist us in 
providing the needed resources and they are being targeted to 
areas where we are making sure that we are keeping our surface 
areas the safest.
    Thank you, Madam Chairwoman.
    Ms. Jackson Lee. Thank you. We would be happy to have the 
gentleman meet with representatives from TSA going forward, or 
the gentleman can engage the committee staff and we can be sure 
that his questions receive an answer in writing. That may be 
helpful to the gentleman.
    I am delighted now to recognize the gentleman from 
California, Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you, Madam Chairwoman.
    Registered Traveler, Congress likes the idea. Congress says 
they like the idea. Congress repeats they like the idea. 
Congress puts it in legislation; and TSA says, What? What does 
it take for Congress to convince TSA and whatever 
administration it is that we are serious about Registered 
Traveler?
    Ms. Rossides. Well, sir, I think we know that you are 
serious about it, and I think one of the things that we are 
looking at is how do we create the kind of process that is 
first focused on security; second, enables us to ensure that we 
don't have what we are concerned about with respect to clean 
skins?
    Second, one of the things that the Secretary now is looking 
at is Registered Traveler-like programs across the whole 
Department, and how do we maybe bring some alignment with those 
and how do we employ those in a risk management way?
    One of the areas that will make all of our jobs easier at 
some point down the road, and hopefully in the not-too-distant 
future, is the use of biotechnology and biometric cards and 
things like that so we have a confidence in who is presenting 
that you don't have a fraudulent form of identification and 
that you create a program where you are maximizing the security 
benefits as well as the customer service benefits.
    We don't have the program today, and I will tell you that 
the Secretary is committed to looking at this as well as other 
RT-like programs across the Department.
    Mr. Lungren. What I can't understand is we use now, we use 
the license you get from a State. Some States do a better job 
than others in making sure that the person who gets it is the 
person who says he or she is. I have always thought that part 
of the equation of risk is threat consequence--threat 
vulnerability and consequence, and the only way you know the 
threat is by gathering information or intelligence. The whole 
idea of registered travelers is people expose themselves to 
more information checking for you than the average person. 
Presumably a one-time or twice-a-year person getting on the 
airplane is not going to be as interested in it as a regular 
traveler. So presumably you can do the vetting of these people 
or have the company that does the Registered Traveler Program 
do the vetting of these people on a regular basis and you would 
have more information. I don't understand. Why does giving you 
more information make it more likely that they are more of a 
threat than less information? I can't get over that. I 
understand you folks say we don't understand it, but I just 
don't understand that. I mean, I presume if you have more 
information upon which to check against somebody's bona fides, 
that is better than not having the information, isn't it?
    Ms. Rossides. It is. It is. As I said, the goal going 
forward is to look for what kind of a protocol, what kind of a 
security clearance, and what kind of a card could you have that 
would benefit the interest of folks that are looking for an RT 
versus our interest for screening.
    I would say it is still an issue on the table and we just 
haven't gotten the solution yet.
    Mr. Lungren. I understand the Behavior Detention Program at 
the checkpoints have been very effective?
    Ms. Rossides. Yes, sir.
    Mr. Lungren. Can you give us a status update on the 
program? What do you think we will be doing in 2010 funding to 
further improve the program?
    Ms. Rossides. It is basically a flat budget for behavior 
detection officers, and they are the folks that are trained to 
observe passenger behavior and then refer to the officers at 
the checkpoint if they see any anomalies in those behaviors.
    We also have a slight increase of about 55 FTE for our bomb 
appraisal officers. These are two complementary skill sets 
around the checkpoint that help with detection. Both of these 
programs have been terrific internal to TSA from a security 
standpoint, but also they have given our officers a career path 
to move from a transportation security officer up to a behavior 
detection officer or a bomb appraisal officer.
    Mr. Lungren. So from your standpoint and from your 
administration's standpoint, you think these have been 
successful programs?
    Ms. Rossides. Yes.
    Mr. Lungren. They have come through well under the testing 
and we ought to integrate them as a regular part of our 
program, correct?
    Ms. Rossides. Absolutely.
    Mr. Lungren. I don't think these programs are that well-
known here on the Hill, and I think we need to do a better job 
of letting Members know exactly what this is and the basis upon 
which you have made the evaluation so that you will have the 
support for it that I think it deserves.
    Ms. Rossides. I would be happy to brief the committee.
    Mr. Lungren. Thank you very much.
    Ms. Jackson Lee. I thank the gentleman very much, and I 
want to thank Mr. Cleaver for his patience, and I yield the 
gentleman 5 minutes for questioning.
    Mr. Cleaver. Thank you.
    Let's go back and revisit the whole issue of cargo. I have 
three quick questions. With H.R. 2200, TSA was given additional 
time to move up to 100 percent of the cargo internationally. 
Perhaps I should have asked this question a little better when 
we had our earlier exchange because I am not sure whether you 
said you still don't believe that we will get up to 100 percent 
internationally after the additional time?
    Ms. Rossides. At this point, the additional time would be 
beneficial to have. I just can't say sitting here today what 
countries will be the last to come into compliance and by what 
date we will be able to get that date. If it is August 2010, 
December 2010, that is part of the work with these 
international partners that we are trying to do. I will check 
and we will provide, I am happy to provide the committee a 
specific schedule by country when we think we will have 
compliance. But I can't answer the question right now.
    Mr. Cleaver. It would be important for me to know that 
because I remember when we had the onslaught of public 
criticism, as I am sure you do, so this is an important issue 
out in the world.
    I am a former mayor, and we have all of our police 
officers, when they stop individuals they always refer to them 
as ``Mr.'' and ``Mrs.'' because people don't like to be stopped 
so you have got to be as courteous as possible. I am familiar 
with police departments, primarily in Missouri, but the chances 
are that is the case around the Nation, for the same reasons. 
That is not a part of the training for TSA officers?
    Ms. Rossides. Yes, it is, sir. We put a lot of emphasis on 
the courtesy, the professionalism, the respect that they should 
pay passengers. We even go so far as to recommend specific 
statements that they should be making when they are approaching 
the passengers, when they are patting them down. We do focus on 
the communication with passengers.
    Mr. Cleaver. Yes, I flew out of an airport yesterday in 
Springfield, Missouri, and Bentonville, Arkansas, have a joint 
airport, and there was an older gentleman who was being 
screened and the TSA office kept saying, ``Bob, just come over 
here and sit down.'' I wanted to say something, but of course I 
thought better of it and I think I was probably smart in not 
saying anything. It just occurred to me that may not be a part 
of the training, but you are saying it is?
    Ms. Rossides. It is, sir. But there is always room for 
improvement for a workforce of 52,000 people.
    Mr. Cleaver. Yes, and that is exactly where I am going now 
because there is an increase in the training budget this year. 
Is there a certain area where you intend to go in terms of 
improving training or creating training with the additional 
money that is appropriated or will be appropriated?
    Ms. Rossides. Yes. Our focus is on their ability to detect 
small improvised explosive devices, and those training dollars 
go principally to continue to train them in that area. However, 
the training that I just described we finished to all 52,000 
employees, actually a good deal of that was on how you engage 
the passenger and how you communicate with them. One of the 
things we are looking at as well is continuing to put out 
training on that side of the equation because for the officer, 
honestly, if they have a calm passenger and they get in the 
proper kind of conversation with the passenger where they 
remain calm as they are going through the screening process, we 
actually get a higher level of screening as a result. So it is 
very much a part of the training for both improvised explosive 
device training as well as how they engage with the passengers, 
how they communicate with the passengers.
    Also, we put a tremendous amount of focus on dealing with 
people with disabilities and training for persons in 
wheelchairs and other disabilities because such a great 
percentage of our traveling population either is persons with 
disabilities or persons with artificial hips or persons with 
pacemakers, and so that is also a part of the training.
    Mr. Cleaver. I have a missing knee, my left knee, and so I 
go through it twice a week. I am perfectly willing and happy to 
do that, and I am glad that the training is moving in that area 
because this gentleman that I spoke of earlier, he was 
irritated and a little confused and then I became irritated and 
confused, as were others around me. But I held back because if 
you are a Member of Congress and you say something, you end up 
on the front page of the newspaper, maybe even get the chair, 
the electric chair.
    Ms. Jackson Lee. Would the gentleman yield?
    Mr. Cleaver. Yes.
    Ms. Jackson Lee. The gentleman has articulated a concern 
that has been constant. My recollection, Mr. Cleaver, is that 
we worked very hard to secure TSA officers or TSOs after 9/11. 
It was a massive plus-up, a surge. I am grateful for the 
wonderful Americans that rose to the cause. I think as we have 
thanked them for their service, and there are probably a number 
of individuals he might know in his own airport that he sees on 
a regular basis and says thank you, but this training issue has 
come up a number of times.
    Professional development, I would like to call it. I would 
like to work with the gentleman. In fact, we are going to be 
writing freestanding legislation on this whole question of 
professional development. I thought we had more of it in H.R. 
2200, but we had so much to do.
    Let us put this on your mind. What the gentleman has been 
saying and what we have all been saying, one of the reasons we 
went to behavioral assessment, and that information was given 
to me by another TSO who was trying to be responsive, that 
behavioral person didn't have all of the manners that I think 
they should have. Security should not be conflicted with 
manners.
    I would just like to join the gentleman. He made a simple 
point which is he could call this person mister, whoever the 
TSA officer was, but that is in a line of circumstances that we 
seem to find, and I am just going to put--I am used to putting 
gorillas on the record. No Member is asking for special 
privileges, it is not about us. But what I would say is what 
the gentleman has indicated, if we were or a good citizen were 
to offer a suggestion, think what the gentleman is saying, that 
our suggestion would be taken out of context and there is no 
question as to there is some doubt as to how it would be 
received and whether or not there would be a supervisor there 
that would welcome Congressman Cleaver's calm assessment of the 
circumstance. That is all in training and that is all in 
professional development, and at the same time balancing and 
making sure that terrorists and the shoe bomber and some other 
creative person doesn't get through.
    When we first started this, Congressman Mayor, you were a 
mayor and read about this. The baby formulas were maligned and 
mothers who were breast feeding had issues. Then we had issues 
with the hip, the artificial hip. We were just getting it 
together.
    So, Madam Administrator, as we move into this new 
administration, as we plus up on the numbers of TSOs because we 
need them, as we prepare to provide them, and this is not your 
issue, but provide them opportunity for workforce rights that 
they have been asking for, I think it is important for you to 
note, and I will yield back to the gentleman, as someone who 
has been involved either on this subcommittee for a number of 
years since 9/11, this is an issue that we must confront. We 
confront it all of the time in our law enforcement, but this is 
a new team. It looks like on this new team we should be able to 
make as much progress as we possibly can.
    I yield to the gentleman.
    Mr. Cleaver. Thank you, Madam Chairwoman. You said much 
more eloquently and clearly what I was hoping to convey. 
Whenever we increase training dollars, it seems to me that is a 
perfect opportunity to expand the teaching of courtesy.
    I yield back.
    Ms. Jackson Lee. Thank you very much for your astuteness 
and eloquence, Congressman.
    Let me conclude by giving us an update on the Secure Flight 
Program implementation. It looks like there is very little in 
the budget requested for this program, and we would like to 
have the assurance from TSA that you are budgeting 
appropriately for this program since it is supposed to be 
completed in fiscal year 2010?
    Ms. Rossides. Yes, Madam Chairwoman. We are making 
excellent progress on Secure Flight. The system is built and we 
are in the process now of working with the carriers to begin 
the transference of their system of vetting over to TSA. There 
is a schedule in place. We are working very hard with the 
carriers to keep that schedule so that the U.S. carriers have 
been cut over and their passenger records are being vetted 
under the Secure Flight Program by March of 2010, and again the 
international carriers by the end of 2010.
    We have had great success with those carriers, albeit they 
are small carriers, and our capability to vet them under the 
Secure Flight Program. There is a very strong management team 
in place, and as I stated earlier, we have met all of the 
conditions under the Government Accountability Office for this 
program to be a very strong program. We will keep the committee 
apprised of the progress we are making as we are bringing the 
major carriers into the system.
    Ms. Jackson Lee. I appreciate if you would keep us 
informed. It is very important. I also ask, we have language in 
H.R. 2200 on these foreign repair stations. This has been a 
continuing issue for this committee. We want to see TSA take 
our interests seriously and begin to look at the structure that 
you need to put in place and the requirements that you need to 
put in place.
    There is no doubt that every time a catastrophic incident 
happens in the air, or one that happens on the ground, such as 
Mumbai, which was our latest, and we had Spain and some other 
areas, that was surface transportation, but the recent 
Brazilian Air France air crash, those of us on this committee's 
immediate response is not to be hysterical but it is to think 
of anything so catastrophic, disappearing, no evidence, at 
least in the most recent hours, begin to think of all kinds of 
unfortunate incidents. Those foreign repair stations are one of 
the stopgaps to that kind of unfortunate circumstance possibly 
occurring, as it was with the question of interline bags that 
we addressed, tragically probably too late in the case of Pan 
Am 103, which was preceding 9/11.
    So what is the hold-up or the issue with the foreign repair 
stations?
    Ms. Rossides. Madam, the rule is within review still within 
the administration, and we are working very diligently to get 
it out so that it will be something that we can work on. We are 
staying in very close touch with the FAA on it, and it is a 
matter of getting it through the review process currently 
within the administration.
    Ms. Jackson Lee. I want to leave these points on the 
record. Mr. Reitinger has gone and this is not in his absence, 
but if you can convey to him, I think I made a point about 
being apprised and kept in sync with what you are doing on 
outreach. I know that TSA, the whole agency is looking to 
provide, to ensure that they have the right kind of staffing. 
Some people would say, as I mention this on the record, that I 
am speaking the obvious because there is possibly new attitudes 
here in Washington, and I respect that and I am excited about 
it, but I hope that we are keeping in mind diversity, and that 
includes region, that includes ethnicity, racial. Sometimes 
that overlaps. That includes both, if you will, gender, that is 
diverse, so we will look in far ranges of opportunities.
    I hope that we will look at the Nation's colleges. The 
class of 2009 is now ready to work. There are small and large 
universities. I am always hearing from my constituents, they 
didn't come to ABC, 2,500-student campus, I know you can't do 
that, but with e-mail and outreach, I frankly believe some 
notice should be at all of the campuses across America, at 
least those that may have programs, and that includes 
historically black colleges, Hispanic-serving colleges, and any 
other college, community colleges, Ph.D., MIT, all those that 
have a range of diversity.
    I think the other point of it is that goes to the idea of 
contracting. H.R. 2200 gives some impetus or push to science 
and technology that has not been very responsive. There are all 
sorts of small inventors and others with creative ideas that 
need to be before you and need to be on your list if they are 
adequate. That needs to be diverse as well. Talent is diverse. 
Maybe we will have an opportunity for us to get back and show 
some data that indicates that you have seen the light as you 
move forward to building your team and obviously getting all of 
the personnel that the Secretary needs at DHS.
    Ms. Rossides. Thank you, Madam Chairwoman. I would love to 
come back and brief you on specifically the initiatives TSA has 
put in place on diversity. We have some superb programs with 
colleges and programs where we are offering our officers 
associate degrees. We have extensive intern programs now that 
are in place, and I would love to be able to brief you or the 
committee and your staff on those programs.
    Ms. Jackson Lee. We will be delighted, and you will get 
your chance.
    Ms. Rossides. Thank you.
    Ms. Jackson Lee. Let me ensure that I have no further 
questions. I think I have asked the question on Secure Flight.
    I thank the witnesses for appearing before us today and the 
Members for their question. The Members of the subcommittee may 
have additional questions for the witnesses, and we ask that 
you respond to them expeditiously in writing.
    Hearing no further business, let me thank you very much for 
your presentation. The subcommittee now stands adjourned.
    [Whereupon, at 3:58 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions From Chairwoman Sheila Jackson Lee for Phillip R. Reitinger, 
 Deputy Under Secretary, National Protection and Programs Directorate, 
                    Department of Homeland Security
    Question 1. There has been a lot of discussion about the permanence 
of NPPD. As we all know, it is a disparate collection of entities that, 
in some cases, do not appear to have a unifying focus beyond being 
security programs. With that said, does this budget set the stage for a 
reorganization of NPPD before or after the delivery of the Quadrennial 
Homeland Security review next winter?
    Answer. The National Protection and Programs Directorate (NPPD) is 
a diverse organization with a vital cross-cutting and unifying mission 
of risk reduction. The Directorate works to reduce risks to the Nation 
through five mission areas: Protect the Nation's citizens and visitors 
against dangerous people, protect the Nation's critical infrastructure, 
protect and strengthen the Nation's cyber and communications 
infrastructure, strengthen the Department's risk management platform, 
and strengthen partnerships to foster collaboration and 
interoperability.
    NPPD has just passed the 2-year anniversary of the establishment of 
the organization and much has been accomplished during this time to 
solidify NPPD as a permanent organization within the Department. While 
building an organization that is best aligned to meet critical mission 
needs is always under review, there are currently no plans to eliminate 
or reorganize NPPD before the delivery of the Quadrennial Homeland 
Security Review (QHSR). The findings of the QHSR will be incorporated 
during the fiscal year 2011 and 2012 budget cycles. It is premature at 
this time to speculate whether the QHSR findings will impact the 
organizational make-up of NPPD.
    The fiscal year 2010 President's budget request included the 
proposed transfer of the Federal Protective Service (FPS) to NPPD from 
U.S. Immigration and Customs Enforcement. The proposed transfer aligns 
the FPS mission of Federal facilities infrastructure protection within 
the NPPD mission of critical infrastructure protection. Further, NPPD 
chairs the operations of the Interagency Security Committee, a group 
that includes the physical security leads for all major Federal 
agencies and whose key responsibility is the establishment of 
Government-wide security policies for Federal facilities. These 
missions are complementary and mutually supportive, and the alignment 
improves and advances the mission effectiveness of both FPS and NPPD.
    Question 2. As you can imagine, the subcommittee is concerned with 
the level of personnel NPPD employs. The subcommittee was happy to 
learn from your testimony that NPPD has brought on-board 300 new 
employees over the last 12 months, and currently has approximately 800 
Federal employees on board out of the 1,064 fiscal year 2009 positions. 
We were pleased to learn from your budget request that you intend to 
bring on additional personnel. Please describe NPPD's efforts to employ 
additional personnel and how this will affect current contracts at the 
Department.
    Answer. There are additional personnel coming on-board each pay 
period. The National Protection and Programs Directorate (NPPD) has 859 
employees on-board as of July 6, 2009. There are an additional 184 
selections in the pipeline, which are currently in the tentative job 
offer, security, or final job offer phases of the hiring process.
    Additional efforts to increase NPPD's staffing include:
    1. Within the past 100 days NPPD has switched their contract for 
        hiring support from Booz Allen Hamilton to the Office of 
        Personnel Management (OPM). In addition to a cost savings, 
        OPM's processes have streamlined several of the hiring steps 
        and have provided NPPD with a more comprehensive tracking 
        system, which allows a more accurate identification and 
        determination of where delays are occurring in the hiring 
        process as well as the ability to quickly address the 
        underlying cause(s) for those delays.
    2. The Deputy Under Secretary has implemented internal procedures 
        that ensure appropriate coordination and hiring decisions are 
        made within defined timelines.
    3. An improved process has also been implemented to review requests 
        by candidates for recruitment incentives.
    4. There have been a number of steps undertaken by the Office of 
        Security to streamline the clearance process. In addition to 
        those steps, NPPD has received approval to assign a Federal 
        employee full-time to coordinate the preliminary checks to 
        abbreviate the amount of time required for a completed security 
        package to get from the candidate to the security adjudicators.
    5. Since there have been frequent delays in the amount of time 
        selectees take to complete their security paperwork and have 
        their fingerprints taken, tentative job offer letters now 
        require candidates to complete their security paperwork and 
        fingerprinting within a week of receiving the pre-appointment 
        letter. If the required documents have not been submitted with 
        a week of the offer letter the individual is called to 
        determine if they need any assistance in completing this 
        requirement and provided with 1 additional week if there is a 
        reasonable justification for their delay. At that time they are 
        also informed that if the paperwork is not completed within the 
        second week, the job offer will be rescinded and DHS will need 
        to go to the next candidate under consideration. Additional 
        extensions are only approved for extenuating circumstances.
    6. The Director of Resource Administration is also working with the 
        components and the Human Capital Office to ensure that standard 
        or existing position descriptions (PDs) are being utilized to 
        fill current vacancies. The length of time required to draft, 
        review, and acquire approval for PDs prior to announcing a 
        position has been identified as a significant point of delay in 
        the hiring process.
    Based upon on board strength, the current list of candidates within 
the pipeline and the additional process changes undertaken, NPPD expect 
to be able to reach a required staffing level of more than 1,000 for 
fiscal year 2009, with selections made against another 10% of existing 
vacancies.
    In regard to `` . . . how this will affect current contracts at the 
department''; as FTE positions are filled with Federal employees it 
will reduce NPPD's reliance on contractors. As NPPD hires additional 
Federal personnel we are validating if contractor support positions 
need to be replaced. Once this determination is made NPPD will 
coordinate with the Office of Procurement Operations to request 
appropriate contractual action (i.e. reevaluating exercising contract 
of options periods and/or de-scope the contract requirements, etc.)
    Question 3a. As you know, the subcommittee has been quite concerned 
about the progress and authority of the Office of Risk Management and 
Analysis. As directed, RMA has been providing quarterly updates to 
staff. From these updates, it appears that RMA has quite an ambitious 
agenda, ranging from a national risk assessment to the informing of 
budget cycles to a heavy presence in the development of the Quadrennial 
Homeland Security Review.
    How, then, is approximately $9 million enough for fiscal year 2010?
    Answer. The Office of Risk Management and Analysis (RMA) has two 
strategic objectives: (1) Establish an integrated approach to risk 
management within the Department of Homeland Security (DHS); and (2) 
conduct systematic, rigorous risk analysis methodologies to execute 
assessments in support of Department-wide decision-making. To work 
towards these objectives, RMA has planned and budgeted for the drafting 
of an Integrated Risk Management Framework and development of 
supporting materials and processes; execution of the Risk Assessment 
Process for Informed Decision-making (RAPID) tool; and leading a study, 
under the auspices of the Quadrennial Homeland Security Review, to 
develop a process and identify the level of required resources to 
produce a Homeland Security National Risk Assessment (HSNRA) which will 
serve as a tool to provide strategic guidance and inform high-level 
Departmental resource allocation in a meaningful way. Following the 
HSNRA study, RMA will review the scope of requirements and with 
guidance from Department leadership reevaluate the resources needed to 
accomplish their mission.
    Question 3b. Staff was told last week that 19 of 26 FTEs are 
filled. How quickly can it be at full capacity, given the vast hiring 
bureaucracy at NPPD?
    Answer. RMA has 13 Government personnel on board and 11 on-site 
contractors. In addition, 7 applicants have accepted FTE offers. Five 
of the 7 accepted offers are Presidential Management Fellows. The 
remaining vacancies within RMA are not due primarily to the perceived 
limitations of the hiring business process within DHS, but rather, the 
difficulty of finding qualified applicants with the technical and 
scientific expertise required for conducting risk analytics. RMA has 
the National Academies and individuals from the private sector and 
academia assisting with the recruitment efforts. RMA is also 
considering filling at least one of the technical billets using an 
Intergovernmental Personnel Assignment (IPA).
    Question 4. The President's budget request cuts $11 million from 
IP's National Infrastructure Protection Program efforts. Please explain 
the rationale behind these cuts, given that most companies are not 
regulated for security purposes and many do not have the financial 
resources in this economic climate.
    Please also explain whether other departments and agencies--which 
partner with DHS under the NIPP--will be providing resources to further 
security efforts under the NIPP in fiscal year 2010.
    Answer. The Department of Homeland Security (DHS) must prioritize 
limited resources towards the highest priority programs. The reductions 
to the National Infrastructure Protection Plan (NIPP) program efforts 
were required to fund other critical DHS responsibilities.
    Maintaining the greatest possible degree of engagement and 
information-sharing with our private-sector critical infrastructure and 
key resources (CIKR) partners and coordination with the Sector Specific 
Agencies (SSAs) will continue to be a main focus of the Office of 
Infrastructure Protection (IP).
    These funding reductions will result in DHS relying more heavily on 
its sector-specific partners to use their own existing expertise and 
sustain service capabilities. SSAs will need to assume a greater role 
in managing, developing, and producing sector programs, reports, and 
metrics. The private-sector is actively engaged in the public-private 
partnership. They contribute their subject-matter experts (SMEs) and 
bring corporate representatives to the table at their own cost and 
time. Several of the partnership trade member associations have taken 
on some of the sector support responsibilities including planning, 
analysis, and writing support for tailoring products to their members' 
interests. DHS will work diligently with remaining resources to ensure 
that the value found in information sharing and coordination remains 
high between DHS and our private-sector partners.
    Although DHS will not be able to provide the same amount of in-
person interaction with the private-sector and State, local, Tribal, 
territorial, and regional governments and organizations, the Department 
is promoting on-line conference capabilities and delivering web-based 
training on the Homeland Security Information Network for Critical 
Sectors. DHS will continue to foster relationships with private-sector 
entities while promoting mutual-aid agreements within and among CIKR 
partners in the industry.
    The SSAs outside of IP provide funding to develop and implement a 
wide range of CIKR programs. The budget requests for each of these 
sectors are at least partially captured in their Sector CIKR Protection 
Annual reports. Due to the reduction, DHS will no longer provide on-
site contract SME support to departments and agencies with SSA 
responsibilities, and they will need to assume a greater role for the 
development, coordination, and final submission of the sector metrics, 
Sector CIKR Protection Annual Reports, Sector-Specific Plans (annual 
reviews and triennial rewrites), and other required information.
    Question 5. As you know, the expiration of the Chemical Facility 
Anti-Terrorism Standards is of great import to this committee. Is the 
Department prepared to ask for an extension of the legislation? If so, 
what resources are needed for fiscal year 2010 for CFATS? Your 
testimony requests $103.4 million for fiscal year 2010, which includes 
268 Federal staff, and this is to be allocated for high-risk chemical 
facilities and to establish ammonium nitrate regulations. Under this 
request, how much is going to the CFATS program?
    Answer. The President's budget submission included a request to 
extend authorization of the Chemical Facility Anti-Terrorism Standards 
(CFATS) for a period of 1 year to give us time to evaluate what is 
needed for a permanent authorization. For fiscal year 2010, the 
Department of Homeland Security has requested funding in the amount of 
$103.4 million to continue its efforts under CFATS and to develop 
ammonium nitrate regulations.
    The Department's fiscal year 2010 request included 268 FTP and 246 
FTE Federal staff. Of the requested $103.4 million in funding, the 
Department has proposed to direct $33.5 million to salaries and 
benefits, $55.5 million to CFATS and $14.4 million to ammonium nitrate 
regulations.
    Question 6. As you know, the committee championed the resilience-
based approach to critical infrastructure protection during the last 
Congress. Your testimony and the budget request highlight five Regional 
Resiliency Assessment projects at IP. Please describe these projects, 
their resources, and their objectives.
    Answer. Much of the Nation's critical infrastructure and key 
resources (CIKR) are not part of a single, integrated system that can 
be controlled and monitored from a single location. High-priority CIKR 
are a complex ``system of systems''--a loosely woven network of 
localized infrastructure, each with unique characteristics and 
vulnerabilities. Recognizing this, the Office of Infrastructure 
Protection (IP) has adopted a resilience-based approach to protecting 
Nationally significant CIKR. This shift is reflected in the 2009 
National Infrastructure Protection Plan (NIPP), Partnering to Enhance 
Protection and Resiliency, which focuses on protection and resiliency 
as National priorities. Resilience of critical infrastructure focuses 
on systems as a whole--particularly on investments that make a system 
better able to absorb the impact of an event without losing the 
capacity to function. The resilience of critical infrastructure also 
includes the protection and physical survivability of key National 
assets and structures. Because of the regionally clustered distribution 
of CIKR, the protection of component assets is best planned, 
coordinated, and executed locally. The Department of Homeland Security 
(DHS) developed the Regional Resiliency Assessment Program (RRAP) to 
analyze and build resilient assets, systems, and communities at the 
regional level.
    The RRAP is a cooperative Government-led assessment of designated 
CIKR facilities and regional analysis of the surrounding 
infrastructure. It provides Federal, State, local, Tribal, territorial, 
and private sector stakeholders with an awareness of the geographic 
area's National and regional impact, vulnerabilities, dependencies, 
interdependencies, resiliencies, and necessary protective measures. The 
RRAP:
  <bullet> Examines vulnerabilities, threats, and potential 
        consequences from an all-hazards perspective using enhanced 
        assessment methodology;
  <bullet> Identifies CIKR dependencies, interdependencies, resiliency 
        characteristics, and gaps;
  <bullet> Evaluates the prevention and protection capabilities of 
        owners/operators, local law enforcement, and emergency response 
        organizations;
  <bullet> Supports required grant applications;
  <bullet> Provides baseline examination of risk and metrics to measure 
        mitigation; and
  <bullet> Coordinates and integrates other protection programs, 
        including assessments, training, economic analysis, IED 
        awareness, geospatial products, information sharing and 
        exercises.
    The RRAP analyzes gaps using multiple assessments and surveys 
including Site Assistance Visit (SAV)\1\ and Enhanced Critical 
Infrastructure Protection (ECIP)\2\ assessments, Buffer Zone Plans 
(BZPs),\3\ the Computer-Based Assessment Tool (CBAT),\4\ independent 
subject matter expert analysis, Emergency Services Capabilities 
Assessment (ESCA),\5\ System Recovery Analyses (SRA),\6\ Multi-
Jurisdiction Improvised Explosive Device Security Planning 
(MJIEDSP),\7\ National Capabilities Analysis Database (NCAD) 
assessments,\8\ and other tools designed to capture the region's 
dependencies, interdependencies, and resiliency characteristics. The 
results are used to enhance the overall security posture of the 
facilities, the surrounding communities, and the geographic region 
using short-term improvements and long-term investments in equipment, 
planning, training, and resources to mitigate risk.
---------------------------------------------------------------------------
    \1\ SAVs are facility vulnerability assessments focused on 
identifying security gaps and recommending protective measures. SAVs 
are conducted by DHS/IP in coordination with other Federal, State, and 
local government entities and CIKR owners and operators.
    \2\ ECIP visits are conducted by DHS/IP in coordination with 
facility owners and operators and other Federal, State, and local 
partners to assess overall site security and recommend protective 
measures at facilities, track implementation of new protective 
measures, and build public-private relationships.
    \3\ BZPs are strategic documents developed by local jurisdictions 
with support from DHS that assist State and local law enforcement and 
other first responders in developing site-specific preventive and 
protective measures that make it more difficult to successfully target 
and attack CIKR sites.
    \4\ CBAT blends vulnerability assessment data, structural 
schematics, and other relevant site data with 360-degree spherical 
color video of facilities, surrounding areas, routes, and other areas 
of interest to create an interactive visual guide of any location.
    \5\ ESCA examines the region's emergency services capabilities in 
the context of all-hazard events such as natural disasters or terrorist 
attacks.
    \6\ SRA examines the region's interdependencies in the context of a 
tailored scenario, such as large-scale system failures or industrial 
accidents.
    \7\ MJIEDSP examines the region's IED security plans in the context 
of integration of assets and capabilities from multiple jurisdictions 
and emergency service sectors, providing DHS officials and regional 
authorities and responders with an accurate picture of current 
preparedness and response capabilities for IED security.
    \8\ NCAD assessments of bomb squads, explosive-detection canine 
units, SWAT teams, and public-safety dive teams use a task-based model 
to examine IED security operations capabilities and readiness.
---------------------------------------------------------------------------
    Each RRAP produces an Integrated Protective Measures Analysis 
(IPMA) Report and a self-executing CBAT multi-media file for use as a 
State and regional planning and response tool. The IPMA and CBAT 
multimedia file documents the resiliency of critical nodes in the 
region; dependencies and interdependencies among the assets and 
possible cascading effects from loss, destruction, disruption, or 
degradation of one or more of these systems; gaps and corresponding 
options for consideration, to be used for continued planning to buy 
down risk; and individual assessment reports and plans.
    The IPMA can be used by the State to inform their Buffer Zone 
Protection Program (BZPP) grant applications. RRAP-identified gaps and 
options for consideration are mapped directly to the multi-jurisdiction 
Vulnerability Reduction Purchasing Plan (VRPP) required as part of the 
BZPP application. In this way the RRAP supports more effective resource 
allocation decisions. For each RRAP BZPP grant funding is used address 
RRAP-identified planning and equipment needs of the local law 
enforcement agencies responsible for protecting the CIKR sites.
    Five (5) RRAPs will be completed in fiscal year 2009. RRAP 
locations were selected by DHS in coordination with the States based on 
relative risk profile and feasibility of the assessment process. 
Programmatically, each RRAP costs between $596,500 and $686,500 for DHS 
to conduct. This cost does not include BZPP grant funding, which are 
funds provided directly to local law enforcement.
    Based on the budget request for fiscal year 2010, IP will conduct 
six (6) RRAPs. The regions will be selected by DHS based on input from 
the States through the Tier 1 and Tier 2 data call. The revised data 
call allows States to nominate ``critical clusters'' that meet the Tier 
1 and Tier 2 criteria. Critical clusters are groups of similar 
infrastructure that can be disrupted through a single incident, whether 
natural or manmade, and the disruption of which could cause Nationally 
or regionally critical consequences meeting the Tier 1 and Tier 2 
thresholds. IP is currently assessing high-risk clusters across the 
U.S. as well as preparing guidance and a data call to States. Potential 
locations for the fiscal year 2010 RRAP include: Detroit International 
Transportation Hub, Colonial Pipeline (Atlanta Hub), Louisiana Highway 
1 (LA1), Port of Long Beach, Las Vegas Strip, and Henry Hub Pipeline in 
Louisiana.
                               (nppd) oec
    Question 7. Within NPPD sits the Office of Emergency Communications 
(OEC), which has, among many responsibilities, ownership of the 
Integrated Wireless Network, or IWN. This is supposed to be an 
interoperable communications network for all Federal law enforcement 
officials--including DHS, DOJ, and Treasury. To date, however, OEC has 
done nothing to advance the implementation of IWN. In your view, is 
interoperability a priority for Federal law enforcement officials? If 
so, what role do you believe OEC should play in that effort? How should 
this office work with the Office of the CIO, as well as the CIOs of DHS 
components, to advance interoperability within DHS?
    Answer. The Office of Emergency Communications (OEC) and Federal 
law enforcement officials recognize the importance of interoperability 
with other Federal, State, local, and Tribal agencies. However, 
existing Federal tactical wireless infrastructure is outdated, 
resulting in an inability to meet both intra- and inter-agency 
communications needs. Federal tactical wireless capabilities must be 
modernized and basic operability shortfalls addressed before 
interoperability can be achieved. Historically, these modernization 
efforts have been underfunded, which limits interoperability efforts.
    The Department of Homeland Security (DHS) believes that the 
original Integrated Wireless Network (IWN) concept of a single, Nation-
wide, consolidated network is no longer viable due to funding 
limitations and the disparate requirements of Federal law enforcements 
users. OEC and the Office of the Chief Information Officer (OCIO) are 
working together to implement the underlying IWN concepts of 
intergovernmental partnerships, joint requirements gathering, and 
integrated short- and long-term planning to improve mission-critical 
wireless capabilities and promote interoperability while reducing 
costs. OEC's inherent interagency and intergovernmental roles and 
responsibilities are appropriate to drive joint requirements 
development, planning, and implementation efforts. However, this can 
only be achieved with a true stakeholder-driven approach in concert 
with Federal users and managers from partner agencies and components.
    OEC, the DHS OCIO, and the DHS Component OCIOs are working together 
through the Wireless Working Group to develop a consolidated 
Departmental strategy for the modernization of DHS tactical wireless 
infrastructure. This strategy will address immediate mission-critical 
tactical voice requirements while driving toward an integrated 
interoperable long-term solution. OEC supports the Department's 
strategic planning efforts by identifying opportunities for resource 
sharing with external agencies across all levels of government and by 
helping to define and shape interoperability standards and external 
relationships for long-term coordination. Through the Emergency 
Communications Preparedness Center, OEC is advocating the need for 
Federal tactical wireless communications modernization and will elevate 
the issue to senior officials throughout the Federal emergency 
communications community. In addition, OEC is adding value to Federal 
efforts by sharing its knowledge of State and local activities across 
the Nation to help identify opportunities for resource sharing across 
various levels of government.
    Question 8. The stimulus bill signed earlier this year provided $60 
million for Customs and Border Protection to procure and deploy 
tactical wireless communications equipment. How is OEC working with CBP 
to ensure that this money is spent on equipment that would fit within 
the DHS vision of IWN and within the DHS vision for having an 
interoperable communications system for all its law enforcement 
officials?
    Answer. In the case of the stimulus bill, the Office of Emergency 
Communications (OEC), the Office of the Chief Information Officer 
(OCIO), and the Department of Homeland Security (DHS) Wireless Working 
Group are working closely together to ensure development of a common 
strategy for both Customs and Border Protection and U.S. Immigration 
and Customs Enforcement that improves interoperability and cost 
efficiencies through the acquisition of standards-based technologies 
(e.g., Project 25) while promoting the sharing of resources, to include 
spectrum, infrastructure, engineering, and acquisition. Per DHS 
Management Directive 4100.1, OCIO is responsible for the internal 
coordination of wireless investments across the Department, which it 
does through the DHS Wireless Working Group. OEC identifies 
opportunities for DHS components to coordinate with other Federal, 
State, local, Tribal, and territorial agencies external to DHS.
    Question 9. IWN has been under the purview of OEC for several years 
now. As you have become familiar with the work of NPPD during your time 
at DHS, what, if anything, have you seen done to date by OEC on IWN? Do 
you think that OEC has a role in overseeing a Department-wide effort to 
build an interoperable communications system for Federal law 
enforcement officers, given the lack of operational expertise in the 
Office?
    Answer. The Department of Homeland Security (DHS) believes that the 
original Integrated Wireless Network (IWN) concept of a single, Nation-
wide, consolidated network is no longer viable because of funding 
limitations and the disparate requirements of Federal law enforcements 
users. OEC and the Office of the Chief Information Officer (OCIO), 
through the Wireless Working Group are working together to implement 
the underlying IWN concepts of intergovernmental partnerships, joint 
requirements gathering, and integrated short- and long-term planning, 
thereby improving mission-critical wireless capabilities and promoting 
interoperability while reducing costs.
    OEC works through the DHS Wireless Working Group and the OEC-
chaired Federal Partnership for Interoperable Communications for 
operational expertise. OEC plays an important role in the Department-
wide effort to build an interoperable communications system for Federal 
law enforcement officers. OEC's core roles and responsibilities are 
appropriate to drive joint requirements development, planning, and 
implementation efforts. However, this can only be achieved with a true 
stakeholder-driven approach in concert with Federal users and managers 
from partner agencies and components. OEC provides comprehensive 
knowledge and understanding of requirements and activities across 
departments and various levels of government to identify opportunities 
for resource sharing and to help define and shape external 
relationships for long-term coordination. Through the Emergency 
Communications Preparedness Center, OEC is advocating the need for 
Federal tactical wireless communications modernization and will elevate 
the issue with senior officials throughout the Federal emergency 
communications community.
    Question 10. In the DHS response to the GAO Report on Radio 
Communication (report number 09-133, dated December 2008), the reason 
giving for abandoning the joint IWN program was, ``Because DOJ and DHS 
have different regional priorities--a common system will not work at a 
national level . . . '' Given that, why has DHS not at least embraced 
IWN within its own Department? Wouldn't the IWN program provide the 
cost savings, efficiencies, and interoperability needed between DHS 
agencies, such as CBP, ICE, Coast Guard, and others?
    Answer. The Department of Homeland Security (DHS) believes that the 
Integrated Wireless Network (IWN) concept of a single, Nation-wide, 
consolidated network is no longer viable both for DHS and as part of an 
interagency partnership because of cost and schedule constraints. The 
Office of Emergency Communications (OEC) and the DHS Office of the 
Chief Information Officer (OCIO) are working together through the DHS 
Wireless Working Group (WWG) to implement the underlying IWN concepts 
of intergovernmental partnerships, joint requirements gathering, and 
integrated short- and long-term planning, thereby improving mission-
critical wireless capabilities and promoting interoperability while 
reducing costs. Each of these organizations includes representation 
from U.S. Immigration and Customs Enforcement (ICE), Customs and Border 
Protection (CBP), and the U.S. Coast Guard (USCG), as well as the other 
DHS components.
    OEC, the DHS OCIO, and DHS components including CBP, ICE, and USCG 
are integrating these concepts as they develop a consolidated 
departmental strategy for the modernization of DHS tactical wireless 
infrastructure through the DHS WWG. This collaborative effort will 
result in a strategy that addresses immediate mission-critical tactical 
voice requirements while driving toward an integrated interoperable 
long-term solution. A key element of the DHS strategy is to ensure that 
investments are coordinated with internal and external partners and 
that opportunities to share resources are appropriately considered. In 
addition, DHS components including CBP, ICE, and USCG are examining 
common architectures and standards so as not to preclude future 
interoperability or resource sharing if current operational priorities 
dictate the need to modernize independently in some areas.
    Question 11. The White House Web site states the Federal Government 
will ``support efforts to provide greater technical assistance to local 
and state first responders and dramatically increase funding for 
reliable interoperable communications systems.'' Given the minimal 
budget change in the President's fiscal year 2010 request for the 
Office of Emergency Communications, how does NPPD intend to meet the 
increasingly high demand for technical assistance across the country?
    Answer. The National Protection Programs Directorate/Office of 
Emergency Communications (NPPD/OEC) Interoperable Communications 
Technical Assistance Program (ICTAP) provides direct support through 
the development and delivery of training, tools, and on-site services 
to State, Tribal, territorial, regional, and local agencies for the 
implementation of the National Emergency Communications Plan (NECP) and 
the advancement of public safety emergency communications, operability, 
and interoperability capabilities.
    NPPD/OEC technical assistance is provided at no cost to States/
territories with the stipulation that the services support the 
implementation of the State's Statewide Communication Interoperability 
Plan and promote achievement of the NECP goals. Using the NPPD/OEC 
Technical Assistance Catalog, the States may submit up to five requests 
for services annually (an average State has more than 30 applicable 
initiatives). Although participation by the States/Territories is 
voluntary, during fiscal year 2009 all 56 States/Territories have 
requested (or indicated that they will request) NPPD/OEC technical 
assistance, with more than 90 percent submitting the maximum five 
service requests. Nation-wide, 240 technical assistance requests have 
been (or will be) submitted. In considering these requests, NPPD/OEC 
uses a needs-based approach, incorporating the State's risk and 
communications capability, to determine how best to allocate its 
technical assistance resources.
    The President's fiscal year 2010 budget request includes an 
additional $3.8 million for OEC. If enacted, the increased funding will 
provide some additional support to State and local interoperable 
communications technical assistance. Specifically, assistance will be 
provided to State and local governments to achieve response-level 
emergency communications by the designated goal deadlines.
    The fiscal year 2009 NPPD/OEC budget for State-requested technical 
assistance was $5.2 million. OEC's strategy for meeting the current 
demand is based on innovative restructuring and the re-scoping of 
services. We try to minimize the travel cost by working remotely or 
conducting multiple engagements during a single trip. During the 
project-planning phase, OEC scopes the engagement in the most cost-
effective manner. Our project managers look for additional cost-cutting 
measures by leveraging personnel with broad skill sets that allow them 
to conduct multiple facets of a Technical Assistance delivery, 
minimizing the need to send additional personnel. Lastly, we look to 
other programs to transfer applicable requests, such as the Public 
Safety Interoperable Communications Grant Program. Our diligent efforts 
to maximize the productivity of each Technical Assistance dollar enable 
us to fulfill more than half of the States' fiscal year 2009 requests.
    Although it remains unclear how many ICTAP requests NPPD will 
receive for fiscal year 2010, we are confident that strong program 
management, responsible and creative engagement scoping, and the 
leveraging other programs will maximize the available fiscal year 2010 
funding to ensure that State, territorial, local, and Tribal 
governments receive critical Technical Assistance services to address 
key emergency communications gaps.
    Question 12. Nearly 8 years have passed since the tragic attacks of 
9/11 and 3 years since the devastating storms of Hurricane Katrina. 
Congress responded and created the Office of Emergency Communications 
at DHS to be the focal office responsible for emergency communications 
in the Post-Katrina Emergency Management Reform Act of 2006. Despite 
efforts made by Congress, I remain very concerned by the various 
components at the Department with stronger influences over first 
responder communications capabilities. For example, some argue that the 
relationship between the OEC and FEMA Disaster Emergency Communications 
(DEC) is a complementary relationship, while others view their missions 
as overlapping, identical, or competing. Can you explain how you intend 
to strengthen the OEC within this budget request and streamline 
interoperable emergency communications issues at the Department and 
within the Federal Government?
    Answer. Secretary Napolitano has made unifying the Department of 
Homeland Security (DHS) as ``One DHS'' a top priority. Within the 
Department, the Office of Emergency Communications (OEC) is the focal 
point for National planning and coordination for interoperable 
emergency communications, and Departmental leadership will continue to 
support OEC's efforts to strengthen and coordinate emergency 
communications activities both within the Department and across other 
Federal Government agencies.
    The Department plans to facilitate intra- and inter-departmental 
coordination on emergency communications and interoperability issues. 
Inter-departmental coordination will occur within the Emergency 
Communications Preparedness Center framework. Intra-departmental 
efforts will occur within the framework of a DHS-wide working group, 
led by OEC and dedicated to coordinating emergency communications 
issues across the Department. The intra-Departmental working group will 
include components such as OEC, the Federal Emergency Management 
Agency, the National Communications System, and the Command, Control 
and Interoperability Division of the Science and Technology 
Directorate.
    Question 13a. As you know, PKEMRA created the Emergency 
Communications Preparedness Center (ECPC) to serve as the focal point 
and information clearinghouse for Federal interagency emergency 
communications efforts. However, in order for the ECPC to be 
established, DHS, through the OEC, must complete a charter with the 
signatures from all the appropriate Department heads across the Federal 
Government. The ECPC charter was due to Congress last year, but it has 
yet to materialize.
    What assurances can you provide to the committee about the 
Department's commitment to taking the issue of operability and 
interoperability seriously both at DHS and throughout the Federal 
Government?
    Answer. The Department of Homeland Security (DHS), through its 
Office of Emergency Communications (OEC), is fully committed to 
establishing the Emergency Communications Preparedness Center (ECPC) as 
the focal point for interagency efforts and as a clearinghouse for 
intergovernmental information to support and promote communications 
operability and interoperability. OEC created an ECPC working group in 
September 2007 as the primary collaborative mechanism to establish the 
ECPC and facilitate its activities. In its first action, the ECPC 
working group solicited and coordinated Federal agency input to the 
National Emergency Communications Plan (NECP), which was published in 
July 2008. The ECPC working group also drafted and internally approved 
an ECPC Charter. The Charter was approved by the DHS Secretary on June 
8, 2009, and distributed to member departments and agencies for 
approval and designation of their official representatives.
    With the approval of the ECPC Charter by the Secretary of Homeland 
Security and continued planning within the OEC, the committee can be 
assured that DHS is seriously addressing the issues of operability and 
interoperability. OEC is actively supporting the following actions:
  <bullet> Close coordination with ECPC member agencies to gain 
        approval of the Charter and to identify representatives to 
        serve on the ECPC executive and steering committees. To date, 
        the Charter has been approved by six of the 12 ECPC member 
        agencies;
  <bullet> Content development and agenda planning for the inaugural 
        ECPC executive committee and steering committee meetings to be 
        convened upon final charter approval by member agencies;
  <bullet> Development and testing of ``beta'' version of a secure 
        emergency communications clearinghouse capability for rollout 
        in January 2010;
  <bullet> Continued execution of targeted focus group activity in the 
        area of emergency communications technical assistance and grant 
        guidance coordination. For example, the technical assistance 
        focus group has successfully cataloged Federal Technical 
        Assistance programs and begun identification and sharing of 
        best practices for effectively administering Technical 
        Assistance; and
  <bullet> Execution and completion of the initiatives and milestones 
        identified in the NECP.
    DHS is optimistic that full approval of the ECPC Charter by member 
agencies will be achieved by September 2009.
    Question 13b. From your assessment, what are some of the major 
hindrances to OEC fulfilling this requirement?
    Answer. Approval of the Charter and designation of formal 
representatives to the ECPC have been delayed because of the impact of 
the Presidential transition and the resulting Departmental appointments 
and confirmations of personnel needed to review and approve agreements. 
We believe this to no longer be an issue.
    Question 13c. What Congressional assistance is needed for the 
Department to complete this requirement?
    Answer. We believe that progress is being made more quickly now 
with the ECPC Charter and the designation of representatives from the 
Federal agencies. In addition, we will continue to develop the agenda 
for the initial ECPC session.
                              (nppd) cyber
    Question 14. How will the President's announcement of the creation 
of a new ``cyber coordinator'' in the White House affect the 
Department's cybersecurity mission?
    Answer. As the Nation becomes ever more dependent upon cyber 
networks, we must address cybersecurity strategically. Overcoming new 
cybersecurity challenges is a difficult task requiring a coordinated 
and focused approach to better secure the Nation's information 
technology and communications infrastructures. President Obama's 
Cyberspace Policy Review reaffirms that cybersecurity is among the most 
significant issues facing the Nation's economy and national security, 
and it solidifies the priority that the administration places on 
improving cybersecurity.
    The Department of Homeland Security (DHS) believes the creation of 
a senior-level cyber position within the White House will help ensure 
coordination and collaboration across Government agencies. No single 
agency is responsible for cyberspace and the success of our cyber 
mission relies on more than one department. As such, the many 
Government players with complementary roles--including DHS, the 
intelligence community, the Department of Defense, the Department of 
Justice, and other Federal agencies--require coordination and 
leadership to ensure effective, and efficient execution of the overall 
cyber mission.
    DHS will continue to have a preeminent role in ensuring the 
cybersecurity of the Federal domain and collaborating with the private 
sector to improve the security of private sector networks, and it will 
have a significant role in accomplishing near-term actions outlined in 
the report, including updating the National strategy, strengthening 
private sector and international partnerships, increasing public 
awareness and preparing a National response plan. The operational goals 
of the comprehensive National strategy will include better 
coordination, response, recovery, and mitigation across stakeholder 
communities.
    Furthermore, DHS works closely with its Federal partners, and the 
leadership and staff of the National Security Staff in the development 
and continued tracking, coordination, and execution of the 
Comprehensive National Cybersecurity Initiative. The Department also 
maintains close working relationships with the 18 Critical 
Infrastructure and Key Resources (CIKR) sectors, and their Federal 
sector-specific agencies, under the National Infrastructure Protection 
Plan Partnership Framework.
    Question 15. How does the Department intend to work with other 
relevant agencies to secure the electric grid from cyber attack?
    Answer. In May 2004, DHS created the Control Systems Security 
Program (CSSP) within the National Cyber Security Division (NCSD) to 
lead a cohesive effort focused on reducing the cyber risks to the 
control systems within critical infrastructure. A control system is a 
general term that encompasses several types of systems, including 
Supervisory Control and Data Acquisition, process control, and other 
automated systems that are most often found in the industrial sectors 
and critical infrastructure. These systems are used to operate physical 
processes in industries such as electricity, oil and gas, water, and 
critical manufacturing. Control system security in the electric power 
grid is particularly important because of the significant 
interdependencies inherent with the use of electricity in all other 
critical infrastructure sectors. In addition, operations of Federal, 
State, and local government rely on the electric grid. Therefore, 
assessing risk and effectively securing industrial control systems is 
vital to maintaining the Nation's strategic interests, public safety, 
and economic prosperity.
    The CSSP currently partners with several Federal, State, and local 
agencies to provide analysis capabilities for technologies affecting 
control systems that impact the electric grid. Among these 
organizations are the Army Corps of Engineers, Department of Defense, 
Department of Energy, Department of Justice, Department of the Navy, 
Department of the Treasury, Department of Transportation, Environmental 
Protection Agency, Federal Energy Regulatory Commission, Nuclear 
Regulatory Commission as well as representatives from law enforcement 
and the intelligence community. These relationships provide reciprocal 
coordination on efforts as emerging technologies, and the cyber issues 
affecting critical infrastructure, are evaluated. Most importantly, the 
CSSP's Advanced Vulnerability Discovery facility, funded by DHS and 
housed at the Idaho National Laboratory, offers a world-class test 
environment where technical experts continuously evaluate nearly every 
major control system used in the critical infrastructure.
    In 2006, DHS issued the National Infrastructure Protection Plan 
(NIPP) that identified the CSSP as responsible for coordinating 
activities to reduce the likelihood of success and severity of impact 
of a control systems cyber attack against CIKR sectors through risk 
mitigation activities. DHS recognizes that control systems exist across 
sectors and must be secured from cyber attacks, the effects of which 
could result in significant consequences. To address this, the CSSP has 
built a culture of reliability, security, and resiliency by partnering 
with government agencies, industry, and international entities to 
reduce the cyber risk to all 18 CIKR sectors. The CSSP leverages the 
risk management framework and partnership model described in the NIPP, 
which provides a mechanism for coordination among CIKR stakeholders, 
Government, and industry associations.
    To assist public and private sector partners in identifying and 
mitigating the risks to their control systems, the CSSP provides 
leadership and subject matter experts through partnerships with key 
stakeholders. It develops recommended vulnerability mitigation 
strategies, practices, informational products, and assessment tools and 
delivers focused training. Recognizing that stakeholders must be 
involved in the process of identifying vulnerabilities and developing 
strategies to improve their security posture, the CSSP developed the 
first widely available control system cybersecurity self-assessment 
tool, which employs a systematic and repeatable approach for owners and 
operators to assess the security of their industrial control systems 
network. It also offers recommendations based on industry standards 
that are customized to the operating characteristics of each control 
systems facility.
    While valuable products and tools such as these allow asset owners 
to understand the cyber risk to their control systems, it is also 
imperative that all stakeholders have a full understanding of the 
underlying fundamentals of control systems security. Consequently, the 
CSSP developed an advanced training center at the Department of 
Energy's Idaho National Laboratory that includes functional models of 
critical infrastructure equipment. This center provides hands-on 
training in a realistic, scenario-based environment. Since the 
program's inception, more than 14,000 professionals have received 
training through both classroom and web-based instruction.
    To execute its mission and lead a cohesive effort between 
Government and industry, the CSSP created two overarching initiatives: 
The Industrial Control Systems Cyber Emergency Response Team (ICS-CERT) 
and the Industrial Control Systems Joint Working Group (ICSJWG). The 
ICS-CERT, in coordination with the United States Computer Emergency 
Readiness Team (US-CERT), is an operational entity that responds to and 
analyzes control systems-related incidents, conducts analysis on 
vulnerabilities and malicious software, or malware, and disseminates 
cybersecurity guidance to all sectors through informational products 
and alerts. The ICS-CERT provides more efficient coordination of 
control system-related security incidents and information-sharing with 
Federal, State, and local agencies and organizations, the intelligence 
community, private-sector constituents including vendors, owner-
operators, and international and private-sector CERTS.
    The ICSJWG follows a structured approach supported by the NIPP 
Partnership Framework and the Critical Infrastructure Partnership 
Advisory Council to continue the successful efforts of the Process 
Control System Forum to accelerate the design, development, and 
deployment of more secure industrial control systems. This group held 
its inaugural meeting on March 25, 2009 and is comprised of industry 
representatives from both Sector and Government Coordinating Councils 
under the NIPP Partnership Framework. The ICSJWG will provide a vehicle 
for communicating and partnering across all CIKR sectors among Federal, 
State, and local agencies, and private asset owner-operators of 
industrial control systems. CSSP engages through the ICSJWG with 
several Federal agencies on the issues of cybersecurity and industrial 
control, which include matters impacting legacy electric grid 
technologies and the enabling technologies used to deploy the ``SMART 
GRID'' systems. Departments and agencies participating in the ICSJWG 
include the Army Corps of Engineers, Department of Agriculture, 
Department of Defense, Department of Education, Department of Energy, 
Department of Health and Human Services, Department of Justice, 
Department of State, Department of the Interior, Department of the 
Navy, Department of the Treasury, Department of Transportation, 
Environmental Protection Agency, Federal Aviation Administration, 
Federal Energy Regulatory Commission, Food and Drug Administration, 
National Institute of Standards and Technology, National Science 
Foundation, and the Nuclear Regulatory Commission as well as 
representatives from law enforcement (FBI, Secret Service) and the 
intelligence community.
    DHS identifies vulnerabilities and works with the vendors, owners, 
and operators of control systems to develop mitigation strategies 
tailored to their use and application in each of the critical sectors. 
There can be a gap between identification of a vulnerability and 
development of a vendor patch or full solution. To address this, the 
CSSP has developed a Vulnerability Management Process operated by the 
ICS-CERT, in conjunction with trusted partners, to identify interim 
mitigation and consequence management approaches. CSSP also engages 
with other Federal partners in this process--such as the Departments of 
Defense and Justice and the intelligence community--to address equities 
and mitigate risks as vulnerability identification, risk assessment, 
mitigation development, and promulgation of these mitigation efforts 
are advanced.
                               (nppd) fps
    Question 16a. The fiscal year 2010 budget request proposes the 
transfer of the Federal Protective Service (FPS) from Immigration and 
Customs Enforcement (ICE) to the National Protection and Programs 
Directorate, with level funding for FPS. FPS was previously transferred 
from the Government Services Administration (GSA) into DHS on March 1, 
2003; a move that brought with it a number of management and 
contracting issues, as well as budgetary shortfalls. Even prior to the 
transfer, GAO noted in a 2004 report that GSA could not collect 
sufficient funds through fees to pay for FPS security services and had 
to provide FPS with supplemental funding from the GSA Federal building 
fund in order to cover the FPS deficits. Once under DHS, the Office of 
the Inspector General repeatedly identified poor contract oversight as 
another major issue for FPS, and a major cause of FPS' budget problems. 
In hearings held by this committee and reports to congressional 
appropriators, FPS identified methods of cutting costs that revolved 
around increasing fees, reductions in its staffing, and reductions in 
the hours those Federal employees work, but not in a reduction of 
contract guards.
    Given that FPS has been plagued by problems with financial 
management throughout its time in the Department of Homeland Security, 
how does NPPD plan to address these issues?
    Question 16b. Does NPPD project FPS to run a budget deficit in its 
first fiscal year under NPPD?
    Question 16c. Does NPPD plan to continue cost-cutting measures for 
FPS? If so does NPPD plan to use the ICE model for cutting costs, or 
will it create its own plan to address the financial problems at FPS?
    Question 16d. Does NPPD have a plan for improving the contract 
guard procurement process?
    Answer. The National Protection and Programs Directorate (NPPD) is 
working with U.S. Immigration and Customs Enforcement (ICE) and the 
Federal Protective Service (FPS) to ensure FPS' critical operation and 
management functions continue without interruption during the 
transition. NPPD already uses ICE as its service provider for the 
accounting and financial system services. ICE will continue to provide 
these services to NPPD, and subsequently to FPS, if Congress approves 
its transition. NPPD is also evaluating FPS' processes and internal 
controls in the areas of budget and financial management. NPPD has 
already identified several improvements that will be implemented 
beginning in fiscal year 2010. Based on current cost and revenue 
projections, NPPD does not expect FPS to run a budget deficit next 
year.
    NPPD is evaluating the operating costs of FPS to identify areas 
where there is insufficient funding. NPPD is also studying where 
funding might be better utilized for improved operations. NPPD is also 
evaluating the FPS staffing and workforce composition to ensure that 
FPS has the appropriate level and mix of Federal staff and contractors. 
NPPD is not considering cutting FPS operational staff. NPPD has 
identified FPS billing and collections as an area that can be staffed 
more effectively to provide better customer service. Additionally, NPPD 
is reviewing the historical amounts of outstanding FPS collections to 
determine if the collections process can be improved.
    ICE and FPS are currently developing and implementing improvements 
in the areas of acquisition and contract oversight staffing, training, 
and policy development. ICE and FPS are also working on a number of 
standardization initiatives to address challenges in contract guard 
oversight and management. The proposed transfer of FPS to NPPD, if 
approved by Congress, will not delay or otherwise alter the steps 
currently being taken by ICE/FPS.
    In addition, DHS is conducting a major coordinated review regarding 
the way forward with FPS in light of the recent GAO report. The DHS 
review will be provided to Congress in the next several weeks.
                             (nppd) ip/rma
    Question 17. How are you expediting the security and suitability 
review process at NPPD? I hear that wait times for a clearance to be 
transferred can take as many as 6 months. Can Congress help expedite 
this process?
    Answer. The National Protection and Programs Directorate (NPPD) 
faces many challenges in the security and suitability clearance 
processes. While we have made progress in on-boarding Federal 
employees, we still face a large backlog of people we need to bring on-
board. However, we are working to increase the number of people 
assigned to the staffing process to expedite hiring. That said, work 
also remains to be done in reconciling the suitability process specific 
to the Department of Homeland Security (DHS) with the overall security 
clearance process. While this one instance of what NPPD is doing 
internally to accelerate the process, we are receiving assistance from 
DHS in improving the process.
    The Under Secretary for Management is also committed to working 
with NPPD to resolve these issues, and we continue to work together to 
coordinate our efforts. For example, we implemented a system wherein 
NPPD is responsible for the initial steps in the clearance process, 
including inviting the candidate to access the on-line system to enter 
required information and loading candidate information into the 
Integrated Security Management Systems (ISMS), the Office of Security's 
tracking database. This has shortened the timeline form the issuance of 
a tentative job offer to the entry of personal data into ISMS, which 
initiates the background investigation. Additionally, the Office of 
Security no longer requires original signatures before initiating a 
background investigation. This will shorten the time associated with 
mailing original signatures and improve timeliness of decisions. 
Collectively, these changes should significantly impact the wait times 
for a clearance.
    Question 18. In your testimony, you say that IP has ``[p]rovided 
physical security and risk data to 5,000 registered Homeland Security 
Information Network-Critical Sector (HSIN-CS) users responsible for 
critical infrastructure . . . .'' Our hearing on the Mumbai attacks in 
March revealed that DHS' response--in terms of outreach to the private 
sector--was hobbled and confused. Can you demonstrate the satisfaction 
of these users with HSIN-CS?
    Answer. The Mumbai attacked occurred over the Thanksgiving holiday 
weekend on November 26-29, 2008. During the Mumbai attacks, DHS 
provided the private sector incident-related documentation and reports 
via the Homeland Security Information Network--Critical Sectors (HSIN-
CS). HSIN-CS housed 26 documents related to the Mumbai attacks, 
including sector-specific vulnerability reports for the Transportation 
and Commercial Facilities sectors. Content also included post-incident 
analysis, protective measure reports, and future threat analysis. DHS 
posted the Office of Intelligence & Analysis' warning product, ``(U//
FOUO) Islamic Militant Group Attacks Multiple Locations in Mumbai, 
India'' on HSIN. Once a clear picture of the attacks emerged after the 
initial chaos, products such as the Technical Resource for Incident 
Prevention's (TRIPwire) ``Analysis of Mumbai Combined Arms Operation 
and Recommended Protective Measures'' were posted.
    As indicated in the graph below, during the week of the incident 
period (notably a holiday timeframe) stakeholders accessed HSIN-CS 
content 280% more (195 sessions/day) and remained on-line 86% longer 
(6.5 minutes) than is typical during a holiday. The length of a session 
reflects the user's interest in accessing relevant content. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The second graph below (HSIN-CS Daily Session Volume and Length: 
Nov 19-Dec 9 2008 Workdays) provides further context of HSIN-CS usage 
during the Mumbai attacks as compared to the weeks immediately before 
and after the incident.
    As not all private entities in the Commercial Facilities Sector are 
registered users of HSIN-CS, DHS communicates using a variety of 
methods. The Commercial Facility SSA directly contacted private sector 
partners in the immediate aftermath of the Mumbai attacks, in 
particular the Lodging Subsector. The Commercial Facility SSA urged 
private sector partners to review their protective posture and 
electronically re-distributed awareness tools such as the ``Active 
Shooter'' materials (booklet, poster, wallet cards). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            (nppd) us-visit
    Question 19. The committee understands that DHS has begun piloting 
two different biometric collection methods at airports for the US-VISIT 
program, one involving TSA at the checkpoint and the other using CBP 
officers at the gate. We are aware that the program has roughly $30 
million in carry-over monies to use for the pilots, but we are 
concerned it may need additional funds. If the pilots indicate that the 
CBP or TSA collection methods are optimal, will you have the funding 
necessary to implement biometric exit in fiscal year 2009 or fiscal 
year 2010?
    Answer. Approximately $28 million remains available from prior-year 
appropriations for testing technological solutions with pilot scenarios 
for the Biometric Exit project. The Department of Homeland Security 
(DHS) originally intended the collection of biometrics--with the costs 
involved--to be borne by the commercial carriers. DHS published this 
intent in a notice of proposed rulemaking (NPRM) in the Federal 
Register on April 24, 2009.
    Congress included a provision in the Consolidated Security, 
Disaster Assistance, and Continuing Appropriations Act, 2009, that 
restricted DHS from obligating US-VISIT funds for a final comprehensive 
air exit solution until additional tests were completed. US-VISIT 
conducted pilot tests with the Transportation Security Administration 
(TSA) at the security checkpoint in the Hartsfield-Jackson Atlanta 
International Airport and with U.S. Customs and Border Protection (CBP) 
at the boarding gate in the Detroit Metropolitan Wayne County Airport. 
After a review within DHS, the results of the CBP and TSA pilot tests 
will be reported to the House and Senate Appropriations Committees and 
reviewed by the Government Accountability Office. Both pilots began on 
May 28, 2009, and concluded on July 2, 2009--a period of 35 days.
    Based on the results of the pilots and comments to the NPRM, DHS 
plans to publish a final rule, tentatively scheduled for March 2010, 
which will direct the implementation of new biometric procedures for 
non-U.S. citizens departing the United States via airports and 
seaports.
    If DHS goes forward with a final rule implementing the solution as 
stated in the NPRM--that commercial air carriers and vessel carriers 
will collect and transmit biometrics--no further funding would be 
required to implement Air/Sea Biometric Exit. If the evaluation and 
analysis of the air exit pilots recommend selection of a Government-
operated option, such as CBP at the boarding gate or TSA at the 
security checkpoint, US-VISIT anticipates that additional funding will 
be required to implement such a recommended option. In that case, US-
VISIT needs to develop a new cost estimate to determine the amount of 
additional funds required.
    Question 20a. Last year's DHS appropriations bill required the 
Department to complete two biometric exit pilots at airports: (1) Where 
the airlines collect and transmit biometric exit data and (2) where CBP 
collects such information at departure gates. It is our understanding 
that the Department has yet to partner with any airline but that it has 
moved forward with the CBP pilot as well as an additional pilot 
performed by TSA personnel.
    What can you tell the committee about the exit pilots currently 
being performed by US-VISIT?
    Answer. US-VISIT conducted a pilot with Customs and Border Patrol 
(CBP) collecting biometrics at boarding gates at the Detroit 
Metropolitan Wayne County Airport in Detroit, Michigan, and another 
pilot with the Transportation Security Administration (TSA) collecting 
biometrics at a security checkpoint at the Hartsfield-Jackson Atlanta 
International Airport in Atlanta, Georgia. Both pilots began on May 28, 
2009, and concluded on July 2, 2009--a period of 35 days.
    CBP operated at the departure gate at Detroit Metropolitan Wayne 
County Airport. This pilot evaluated the operational impact of 
collecting biometric information from, and verifying the identity of, 
passengers at the departure gate before leaving the United States for a 
foreign destination. CBP collected biographic and biometric information 
from in-scope travelers near the departure gate. The biometric 
information collected consisted of electronic fingerprints: Either a 
right-hand, four-finger scan or two single-finger scans. The biographic 
information was collected from travel document information--such as 
name, date of birth, document issuance type, country, and document 
number--all of which are contained in the document's machine-readable 
zone of a machine-readable travel document.
    CBP used two different biometric collection devices during the Air 
Exit pilots: The 3M RT mobile passport and ID reader; and the portable 
Cross Match Guardian R Jump Kit. CBP used both collection devices to 
determine which device type would better serve the needs of its 
collection staff. CBP followed its established reporting requirements 
regarding the air carriers and processes to minimize interference with 
the air carrier boarding process.
    TSA operated at the security checkpoint at Hartsfield-Jackson 
Atlanta International Airport. This pilot evaluated the operational 
impact of collecting biometric information from, and verifying the 
identity of, passengers at TSA security checkpoints before leaving the 
United States. Those foreign passengers with an international 
destination were directed to an area within the checkpoint where the 
biographic and biometric information were collected. The biometric 
information collected consisted of two electronic single-finger scans. 
The biographic information was collected from travel document 
information--such as name, date of birth, document issuance type, 
country, and document number--all of which are contained in the 
document's machine-readable zone of a machine-readable travel document. 
TSA chose to use the 3M RT mobile passport and ID reader device for 
biometric collections.
    A total of 34,485 transactions were collected from May 28 to July 
1, 2009.\9\ CBP collected 10,903, and TSA collected 23,582. Passengers 
were compliant and familiar with the process because of their 
experience with biometric collection and verification at ports of entry 
upon their entry to the United States. The results of this test are 
currently under evaluation at DHS.
---------------------------------------------------------------------------
    \9\ The biometrics were collected from passengers through July 1; 
none were collected on July 2, 2009. The processing of the collected 
biometrics through US-VISIT systems continued through July 2, and the 
decommissioning of the devices was completed that day. Thus the air 
exit pilots began on May 28, 2009, and were completed on July 2, 2009.
---------------------------------------------------------------------------
    Question 20b. What progress has DHS made in addressing the air 
carriers' concerns?
    Answer. The Department of Homeland Security (DHS) officials reached 
out to the airline industry on numerous occasions to address its 
concerns and to identify potential partners for biometric air exit 
pilot efforts. Despite on-going US-VISIT discussions with the Air 
Transport Association and its member carriers, no airline volunteered 
to participate in the biometric exit pilot required by the fiscal year 
2009 DHS Appropriations Act. The airline industry made clear in many 
forums its concerns about DHS requiring the collection of biometrics by 
carriers.
    Question 20c. If DHS is unable to complete the air carrier pilot, 
what will be the Department's next steps?
    Answer. Based on the results of the exit pilot tests and the 
comments received from the notice of proposed rulemaking, DHS will 
determine which methodology for collecting biometrics best addresses 
the dual needs of security and facilitation. Once a solution is 
identified, DHS will publish a final rule and deploy the solution at 
the air and sea ports.
    Question 21. Secretary Napolitano's Southwest Border Initiative 
calls for the installation of license plate readers on outbound lanes 
throughout the southwest border. These readers will be instrumental in 
controlling the exit of smugglers attempting to move drugs, weapons, 
and cash out of the country and into the hands of the cartels. What 
role, if any, will US-VISIT play in gathering and analyzing the exit 
information that is collected from the license plate readers?
    Answer. US-VISIT does not play any role in gathering or analyzing 
the exit information that is collected from the license plate readers. 
The US-VISIT Arrival and Departure Information System (ADIS) is a 
person-centric system.
    ADIS does not receive license plate reader information from U.S. 
Customs and Border Protection (CBP). However, ADIS is currently in a 
planning stage for creation of an interface this year with TECS, a CBP 
database to receive Western Hemisphere Travel Initiative/Vehicle 
Primary information.
  Questions From Chairwoman Sheila Jackson Lee for Gale D. Rossides, 
      Acting Administrator, Transportation Security Administration
    Question 1. The fiscal year 2010 request for air cargo security 
programs is less than the enacted fiscal year 2009 amount. Can you 
please explain this reduction in light of the upcoming August 2010 100% 
cargo screening deadline for cargo on passenger aircraft?
    Can you describe how the budget is changing with respect to the 
number of inspectors, as well as the resources being allocated to 
certify shippers' screening facilities?
    Answer. The fiscal year 2010 budget submission was built on the 
fiscal year 2009 enacted appropriation, which included a one-time 
increase of $18 million to expand air cargo screening technology 
pilots. The $18 million increase was not mandated to recur in the 
fiscal year 2010 budget. As a result, the fiscal year 2010 request of 
the Transportation Security Administration (TSA) was lower than its 
fiscal year 2009 enacted budget. The funds requested for fiscal year 
2010 are adequate for TSA's current initiatives. Currently, TSA's 
workforce of 450 Transportation Security Inspectors for Air Cargo (TSI-
C) cover air cargo operations at 121 main hub airports and their spoke 
operations. These inspectors provide inspection oversight, respond to 
air cargo related incidents, provide outreach and industry support, and 
conduct investigations into violations of security programs and 
regulations for 1,500 domestic and international carriers operating in 
the United States, and over 10,000 indirect air carriers. Considering 
the current number of regulated entities, TSA has adequate resources 
for fiscal year 2010.
    TSA expects to issue an interim final rule this fall to meet the 
2010 statutory deadline. The rule is expected to increase the number of 
regulated entities by approximately 8,000 as TSA certifies additional 
cargo screening facilities. It is important to note that it will take 
time to certify these facilities. After certification of all new 
regulated entities and upon full implementation of the Certified Cargo 
Screening Program (CCSP) in 2011, the current number of TSI-C will be 
re-evaluated to determine if additional TSI-C are needed to continue 
their current air cargo oversight mission as well as oversee the new 
CCSP program.
    Question 2. In light of significant delays in issuing regulations 
and processing grant awards and applications, combined with the 
imbalance of expertise in surface transportation modes compared with 
aviation, why were there no funding or FTE increases requested for 
``Surface Transportation Security Operations and Staffing''?
    Answer. The fiscal year 2010 budget request for the Transportation 
Security Administration (TSA) for surface transportation security 
includes an increase of $64,985,000 and 192 Full-Time Equivalents (FTE) 
over the fiscal year 2009 enacted levels for surface transportation 
security. The request includes a funding increase of 25 percent for 
``Surface Transportation Security Operations and Staffing'', and would 
substantially expand TSA's field expertise in surface transportation 
security and capability to conduct joint security augmentation 
operations in the surface modes. Of the proposed increase, $50 million 
will be used to support an additional 15 Visible Intermodal Prevention 
and Response (VIPR) teams (comprised of 169 FTEs) to enhance the 
security of the Nation's surface transportation modes. The teams will 
be dedicated to conducting VIPR operations. In addition, the fiscal 
year 2010 budget request annualizes increases in the fiscal year 2009 
surface transportation security appropriation made to further implement 
the 9/11 Act requirements. This includes the increase of 50 additional 
surface transportation security inspectors, and additional funding for 
exercises with surface transportation providers.
    The responsibility for processing grant awards and applications 
relating to the Transit Security Grant Program (TSGP) lies with the 
Federal Emergency Management Agency, Grant Programs Directorate (GPD). 
GPD received funding in FEMA's fiscal year 2009 budget to hire 
additional FTEs. GPD is in the recruitment and selection process and 
plans to triple the size of staff managing this program by the end of 
the current fiscal year.
    Question 3a. Last year, Assistant Secretary Hawley discussed 
Checkpoint Evolution as TSA's new way of modernizing checkpoints across 
airports. This initiative was started at the end of the previous 
administration. Outside of BWI, it does not appear that many of the 
elements have been implemented at other airports. What is the status of 
Checkpoint Evolution?
    Has it been implemented across all airports?
    Question 3b. What elements of Checkpoint Evolution provide TSA with 
metrics by which to measure enhanced security at airports?
    Answer. Checkpoint Evolution was the term used to brand the 
approach to aviation security that the Transportation Security 
Administration (TSA) is implementing at airports across the country. 
While TSA included many discreet elements at Baltimore/Washington 
International Thurgood Marshall Airport (BWI) to accomplish as part of 
a security strategy, TSA is continuing many elements to evolve and 
enhance our security performance by developing our officers and 
leaders, fielding new technology, and adjusting the approach to 
deploying these assets to evolving threats.
    The installation at BWI included a range of security elements, many 
of which have been developed for Nation-wide deployment. The following 
reports on the implementation of those elements throughout the TSA 
screening workforce:
  <bullet> Enhancements for Employees:
    Over a 6-month period ending in April 2009, two training courses, 
        developed to improve security and increase engagement with 
        passengers, were given to the more than 50,000 front-line TSA 
        employees. The response to the training classes called ENGAGE! 
        and COACH! was overwhelmingly positive as officers leveraged 
        their experience and used newly developed skills to calm down 
        unruly travelers at checkpoints and better detect those with 
        hostile intent.
    TSA has also improved the career development and employment of our 
        Transportation Security Officers (TSOs) by increasing the 
        Behavior Detection Officers (BDO) program, fully implementing 
        training programs, and incorporating passenger engagement as 
        part of our mandate to verify travel documents, which we 
        assumed from the airlines. When officers demonstrate attentive, 
        interactive, and appropriate command presence, a passenger's 
        common, natural anxieties associated with the screening 
        experience are calmed. Passengers who have hostile intent see 
        engaged interactions as a threat to their goals, making their 
        behaviors stand out and easier to detect by officers trained to 
        spot anomalies. Engaged TSOs present a far more formidable 
        opponent to those with harmful intent than technology and 
        process can offer alone. TSA is also using our field 
        intelligence officers, shift briefings, and other communication 
        approaches to enable TSOs to perform their jobs efficiently and 
        effectively.
    As we make strides to improve the professionalism of our officers, 
        one aspect of that effort has been the conversion to new 
        uniforms on September 11, 2008. These uniforms were developed 
        to enhance the professional appearance of the screening 
        workforce and to recognize their vital role in securing the 
        Nation's commercial aviation system.
    TSA continues, through passenger feedback and surveys, to evaluate 
        impact and public perceptions of security measures and officer 
        performance. These internally and independently executed 
        measures will provide additional information on security impact 
        to which Evolution enhancements are a contributor.
  <bullet> Enhancements to Process:
    One element of the Evolution training was to empower the TSOs to 
        use their experience and intelligence-driven intuition to 
        mitigate the threat by utilizing additional screening 
        techniques described in the standard operating procedure (SOP) 
        or by involving other members of their security network. This 
        empowerment of critical thinking by the front-line officer is a 
        key element of the dynamic security at the heart of Evolution.
  <bullet> Enhancements to Technology:
    Additional technology solutions, such as imaging technology and 
        Advanced Technology X-Ray were part of the BWI installation and 
        continue to be rolled out at airports Nation-wide. Technology 
        to help identify fraudulent documents was also deployed at the 
        Travel Document Checker position. TSA has piloted and is now 
        prepared for Nation-wide deployment of ``wireless whisper'' 
        radio communications equipment to airport checkpoints. This 
        technology will improve officer communication capabilities and 
        reduce the background noise levels, allowing for enhanced 
        threat detection and improved security. TSA also continues to 
        pilot new technologies that enhance security and improve 
        passenger movement through checkpoints, including mobile 
        boarding pass scanners.
  <bullet> Security Metrics:
    Completion and measured reinforcement of ENGAGE! training and 
        principles should be viewed as a predictive measure for 
        employee engagement and security effectiveness. Training 
        completion rates and reinforcement efforts are actionable items 
        that address known symptoms of security performance and 
        effectiveness. Though they are lagging indicators, survey 
        ratings, standardized performance assessments, ASAP results, 
        Red Team results, TIP scores, absentee rates, attrition rates, 
        numbers and types passenger complaints, numbers and types of 
        Ombudsman contacts, numbers and types of disciplinary actions, 
        numbers of behavior-initiated detections or security incidents, 
        etc., can all be influenced by the delivery and application of 
        ENGAGE! training and the consistent reinforcement of its 
        principles. The principles taught in the Evolution training 
        address the root causes of issues in all the lagging indicators 
        listed above. Compliant delivery of Evolution training and 
        principle reinforcement is a high-impact driver of performance 
        in all aspects currently evaluated with lagging indicators.
    TSA continually adapts to stay ahead of the threat. Other specific 
initiatives include:
  <bullet> Capturing best practices by aggregating successful ideas for 
        training sustainment and distributing them to other airports 
        Nation-wide;
  <bullet> Utilizing employee surveys, to determine the degree to which 
        Evolution training principles have been adopted by the 
        workforce; and
  <bullet> Tracking of technology deployment, which will lead to 
        enhanced detection and improved security.
    Question 4. Please provide detail on the Secure Flight program 
implementation. There is very little in the budget request on this 
program, and the subcommittee would like assurance that TSA is 
budgeting appropriately for this program, as it should be completely 
implemented in fiscal year 2010.
    Answer. The Transportation Security Administration (TSA) is pleased 
to report that Secure Flight implementation is currently underway and 
the fiscal year 2010 budget request contains sufficient funds to 
continue its implementation. Initial deployment began in late January 
2009 with four aircraft operators. TSA continues to follow a structured 
implementation plan that systematically adds additional aircraft 
operators and flights as the program stands up in order to limit risk. 
Domestic implementation is scheduled to be completed by the end of the 
first quarter of calendar year 2010. International implementations will 
begin in late calendar year 2009 and are scheduled to be completed by 
the end of calendar year 2010. The fiscal year 2010 Secure Flight 
budget request supports the schedule of implementation activities 
during that period. Those activities include coordinated implementation 
with aircraft operators by government and contractor staff, operation 
and maintenance of the Secure Flight system/Secure Flight Service 
Center, and support for the Secure Flight IT systems development. They 
also include funding to support the high standards of privacy, 
security, Independent Validation and Verification, and other program 
management services required by the program. Aircraft operators covered 
by the Secure Flight final rule are required to modify their systems 
and procedures to send and receive Secure Flight passenger data within 
scheduled time frames that are keyed to the Secure Flight 
implementation schedule. There is no mandate to completely implement 
Secure Flight in fiscal year 2010. The TSA PLAN is to complete 
implementation by calendar year 2010 which the Secure Flight fiscal 
year 2010 budget supports.
    Question 5a. According to GAO, the DHS Inspector General, and 
multiple stakeholders, the role, purpose, and activities of the VIPR 
program with respect to surface modes are ambiguous and often poorly 
communicated to relevant transit agencies. With the exception of 
surface inspectors, each of the components named in your written 
testimony has little to no role or expertise in securing surface modes. 
In fact, the program is housed and managed by an aviation security 
component, comprised almost totally by aviation security personnel, and 
lacks any defined objectives or meaningful performance measures 
specific to surface modes. Accordingly:
    Please explain in detail how TSA determined that allocating 
virtually the entire increase in funding and FTEs for surface 
transportation security to the VIPR program is the best way to maximize 
these security resources, given the severe backlog of transit security 
grant awards and overdue regulations, as well as an understaffed 
surface inspection program.
    Question 5b. Please explain how such an allocation of resources is 
consistent with a risk-based strategy for securing surface 
transportation systems and facilities.
    Question 5c. Please explain the delay in submitting to the 
Committee on Appropriations the report on performance standards and 
resource allocation for the VIPR program, as required in the report 
accompanying the fiscal year 2009 Appropriations Act, and provide 
information on the status of that report.
    Answer. The requested additional funding will specifically address 
the inherent vulnerabilities of our Nation's surface transportation 
systems and better position the Transportation Security Administration 
(TSA) to more readily and proactively perform its surface security 
mission as outlined in the 9/11 Act. With the requested funding, TSA 
plans to add an additional 15 Visible Intermodal Prevention and 
Response (VIPR) teams to be based in strategic locations throughout the 
country. Each of the dedicated teams will support a distinct region, 
which include airports and other transportation venues. This will allow 
the teams to be cognizant of their respective regional needs for 
enhanced security and law enforcement operations within the entire 
transportation domain, while allowing them to be scalable and flexible 
to respond and surge based on on-going threat streams. The full 
complement of dedicated VIPR Teams (25) will focus their efforts in the 
surface modes of transportation, consistent with the Secretary's vision 
for transportation security.
    Working with the TSA's Office of Intelligence, the VIPR Program 
develops intelligence-driven deployment plans based on credible threat 
intelligence. Through the use of risk management principles, VIPR teams 
are deployed to implement flexible and nimble security operations at 
high-risk transportation assets. Utilizing the Department of Homeland 
Security (DHS) Risk Analysis Model, VIPR teams are deployed to surface 
and aviation modes to implement security operations at high-risk 
transportation sites. To date, the primary focus of these efforts has 
included the Focus 40 Airports (Category X and Category I), the 
identified 60 High Threat Urban Areas and the 20 High Threat Maritime 
Cruise Ship Ports.
    VIPR teams provide a tool with unique capabilities to the 
transportation system. Deterrent effect is best achieved through 
development and implementation of a joint plan for unpredictable 
deployment of varying force packages at differing times and locations. 
VIPR teams also augment security during periods of heightened threat as 
well as during special events, such as political conventions, major 
sporting events, and other occurrences of national or regional 
significance that raise security concerns. Use of VIPR teams in this 
manner builds a trained and tailored security augmentation capability 
for deployment in periods of heightened threat or in response to 
security incidents.
    VIPR teams are deployed through deliberate planning using a risk-
based approach to work with Federal, State, and local security and law 
enforcement officials for the purpose of augmenting resources in 
response to an intelligence-driven threat or to provide a deterrent 
presence. The program optimizes the ability to leverage a variety of 
resources quickly to supplement local aviation, passenger rail, cruise 
line and mass transit agency security capabilities.
    VIPR allows TSA to respond quickly to unplanned or incident-driven 
events and execute its response and recovery capabilities. Most VIPR 
team activities are scheduled in advance to cover high-risk 
infrastructure, address intelligence-driven threats or support special 
event operations. These core elements dictate VIPR deployments across 
transportation sectors.
    Although TSA recognizes that additional work is needed to complete 
hiring of its Transportation Security Inspector workforce, TSA's Office 
of Security Operations has been moving aggressively to perform the 
necessary recruitment. As planned, all inspector positions will be 
filled in fiscal year 2010 and these positions will be working as an 
integral component of VIPR deployment operations. TSA is also working 
with the Department and key stakeholders to address regulatory and 
grant management issues to provide additional security and efficiencies 
to the surface transportation domain.
    Although earlier reports generated by Government Accountability 
Office and DHS Office of Inspector General have detailed issues 
regarding planning and execution of VIPR operations in collaboration 
with transportation stakeholder/partners, TSA has made great inroads 
with transportation stakeholder/partners all across the Nation and 
provides the bridge to all key components for VIPR operations. There 
have been over 1,600 VIPR operations conducted in the surface modes 
since inception. TSA now enjoys a robust relationship with its 
stakeholders/partners, State, local and international due to the proven 
capabilities that it brings to the enhancement of security and law 
enforcement capabilities at all transportation modes.
    Transportation stakeholder/partners have reacted positively to the 
VIPR concept and often request TSA to augment their forces. TSA 
provides proactive public affairs information in locations were VIPR 
operations occur.
    The fiscal year 2009 report to Congress regarding VIPR deployment 
and performance measures was recently submitted to the Senate and House 
Appropriations Committees on June 25, 2009.
    Question 6. Earlier this year, GAO released a classified technology 
report highlighting some of the certification and deployment challenges 
faced by TSA regarding checkpoint technology. The report indicated 
that, since 2003, over $700 million has been invested in the 
development, procurement, and deployment of checkpoint technologies. 
What mechanisms are in place to ensure that adequate investments are 
made in technologies and that proper and timely certification, 
procurement, and deployment of checkpoint screening technologies are 
carried out by TSA?
    Answer. The Transportation Security Administration (TSA) has 
developed a comprehensive Passenger Screening Program (PSP) that 
encompasses a collection of threat detection devices and projects in 
various states of exploration, development, and deployment based on 
commercial availability and program requirements. The program has a 
mixed lifecycle of technology to include legacy systems, systems in the 
process of deployment, and future systems that are undergoing testing 
and evaluation. The program focuses on deploying screening equipment 
with improved detection capabilities in addition to the lifecycle 
maintenance and replacement of existing (legacy) locations and 
equipment.
    PSP continues to use a sound methodology to procure new emerging 
technologies. As a requirement of the Department of Homeland Security 
(DHS) Acquisitions Directive (AD) 102, projects are required to 
generate Life Cycle Cost Estimates (LCCEs) based on known and estimated 
costs that are presented at prescribed instances, known as Acquisition 
Decision Events (ADEs), to the proper reviewing authority along with 
documentation displaying the benefits of the technology. On an annual 
basis, the PSP participates in both TSA and DHS Acquisition Review 
Boards to review specific project costs and benefits.
    The Program works with the respective stakeholders to develop a 
tailored plan for each project that identifies primary objectives, 
risks, as well as schedule and execution strategies for the procurement 
and deployment of technology. To that end, the PSP must be flexible and 
able to adapt quickly to changes in terrorist tactics. The PSP strives 
towards optimizing technological investments based on thorough analysis 
and risk management principles, as well as the collaborative testing 
and evaluation of new technologies.
    The PSP has implemented a formal testing process as documented in 
our Test and Evaluation Master Plan (TEMP), which establishes a 
framework of the testing processes followed for all PSP technology 
investments to ensure products meet specifications, are safe and are 
operationally effective. TSA is in the process of improving the already 
robust Testing and Evaluation (T&E) paradigm to ensure that operational 
effectiveness and suitability of candidate security technology systems 
are evaluated prior to deployment. Employing the concept of independent 
and integrated testing and evaluation in support of acquisition 
decision events and other program reviews, this process leverages data 
from multiple developmental and operational testing sources, accredited 
vendor data, modeling and simulation, and other special analyses (as 
required), in accordance with testing and evaluation and systems 
engineering principles and best practices, to streamline testing and 
evaluation requirements while still providing a credible and 
comprehensive evaluation product.
    The deployment team has been increased and structured into a 
regional paradigm with specialized knowledge of each respective region 
and the attendant airport requirements for permitting and other 
deployment logistics. Deployment Planning and Execution is organized 
across three regional areas (East, Central, and West). The deployment 
process makes use of the integrated product team (IPT) approach to 
develop strategies, monitor overall performance and achieve deployment 
program goals.
    Question 7a. On June 2, 2009, committee staff received an 
announcement from TSA indicating that TSA is ``currently denying air 
service by Delta to Nairobi and Monrovia until security standards are 
met or security threat assessments change.'' What steps did TSA take to 
reach this decision?
    Did you engage Delta throughout your decisionmaking process?
    Question 7b. When was Delta informed of your decision to deny air 
service to Nairobi and Monrovia?
    Answer. The Transportation Security Administration Representative 
(TSAR) for Africa and a team of TSA inspectors completed a 
comprehensive security assessment of Roberts International Airport 
(ROB) in Monrovia, Liberia and Jomo Kenyatta International Airport 
(NBO) in Nairobi, Kenya. TSA also conducted a Man Portable Air Defense 
Systems (MANPADS) Assistance Visit of NBO and worked with the U.S. 
intelligence community to develop a full understanding of the terrorist 
threat to civil aviation in Africa.
    Upon completion of these initial airport assessments of NBO and 
ROB, the TSA Office of Global Strategies (OGS) led a TSA Integrated 
Product Team (IPT) that included representatives from TSA's Offices of 
Intelligence (OI), Law Enforcement/Federal Air Marshal Service (OLE/
FAMS), Transportation Sector Network Management (TSNM), and Chief 
Counsel (OCC), to ensure that a thorough evaluation of security 
conditions was performed, training and assistance provided, and 
additional security measures implemented, as appropriate.
    TSA is continuing to work with the Liberian Civil Aviation 
Authority to assist it in achieving compliance with international 
security standards, and with the Kenyan Civil Aviation Authority to 
address identified security vulnerabilities and implement mitigating 
measures. TSA will reassess the situation at ROB and NBO as appropriate 
measures are implemented.
    TSA actively engaged Delta Air Lines representatives throughout the 
decision-making process. TSA OGS senior leadership met with Delta Air 
Lines corporate senior security officers on several occasions at TSA 
Headquarters, including on December 11, 2008, January 6, 2009, April 2, 
2009, and April 30, 2009.
    TSA's decision to deny Delta's proposed air service to NBO and ROB 
was communicated to Delta Air Lines on June 1, 2009, based on TSA's 
determination that security was not yet adequate to allow these 
airports to be served. On April 2, TSA briefed Delta Air Lines on the 
observations made by the security inspectors at ROB, and on April 30, a 
similar briefing was provided to Delta regarding the observations made 
by the security inspectors at NBO. During each of these meetings, TSA 
advised Delta Corporate Security officers that while a final decision 
would be made by TSA's Acting Assistant Secretary, in consultation with 
Secretary Napolitano, the TSA IPT was recommending that Delta not 
initiate service to ROB or NBO due to identified security deficiencies 
and/or assessed security concerns.
    Question 8. DHS, and specifically TSA, has had significant 
challenges in its acquisition process, notably in the Secure Flight 
Implementation, Business Operation (IBO) program, and the Information 
Technology Infrastructure Program (ITIP). What steps have you taken to 
ensure that TSA is progressing and improving its acquisition process to 
ensure that procurements are done efficiently and competitively, and 
that there is integrity in the process?
    Answer. The Transportation Security Administration (TSA) has 
confronted many acquisition challenges since its founding only 7 years 
ago. However, TSA takes competition and the integrity of its 
procurements very seriously. The Secure Flight Implementation and the 
Business Operation (IBO) and Information Technology Infrastructure 
Program (ITIP) are competitively awarded procurements. They represent a 
significant advancement and evolution in acquisition strategy. For 
example, the ITIP effort evolved into a performance-based service 
acquisition, in which the scope of the predecessor contract was 
separated into multiple fixed-priced acquisitions instead of a time and 
materials contract. While difficult and challenging, this strategy 
provides for better performance measurement, and the ability to 
incorporate best industry practices.
    TSA has made significant strides to establish processes and 
procedures to ensure consistent, efficient, and effective acquisitions. 
TSA exceeded the competition goal established by the Department of 
Homeland Security Chief Procurement Officer by awarding 71 percent of 
all contract dollars on a competitive basis. In fiscal year 2008, TSA 
awarded 1,100 contracts and only 12 protests were submitted to the 
Government Accountability Office. Also, TSA awarded over 20 percent of 
all contract dollars to small businesses. All of Tier 1 and 2 (TSA's 
largest programs) have certified Program Managers and Contracting 
Officer's Technical Representatives. TSA has pursued several 
initiatives to improve the acquisition process including: (1) 
Implemented several initiatives to ensure the TSA acquisition workforce 
has the appropriate skills; (2) completed an exhaustive lean six sigma 
effort to identify, document, and improve the efficiency and 
effectiveness of acquisition processes; (3) instituted a phased review 
program, in which procurements are reviewed prior to solicitation and 
award and after execution; and implemented an aggressive small business 
program which has produced marked improvement in awarding contracts to 
small business.
                             (tsa) aviation
    Question 9a. Earlier in the Congress, the House unanimously passed 
H.R. 559, FAST Redress Act of 2009. The legislation required the 
Department of Homeland Security to develop a ``comprehensive cleared 
list'' which will enhance the overall efficiency and effectiveness of 
the DHS Traveler Redress Program. The President's budget has requested 
$1.3 million and 1 FTE for the management of the program.
    How will the additional funding and staffing allocation improve the 
overall effectiveness of the program?
    Question 9b. Additionally, the President's budget discusses the 
``centralization of the DHS TRIP processing system''; could you please 
expand on what this ``centralization'' entails and how it will work 
with Secure Flight in the future?
    Answer. The Department of Homeland Security (DHS) Travel Redress 
Inquiry Program (DHS TRIP) serves as the centralized U.S. Government 
customer service office for traveler-related redress concerns. While 
the program office has made substantial progress in establishing a 
robust redress process, it can enhance performance further through 
centrally automating key process functions--such as inquiry intake, 
routing, vetting, tracking, reporting, and response. The objective is 
to gain operational efficiencies and to reduce the overall time 
required to process traveler requests. The fiscal year 2010 budget will 
accomplish this objective through investing in DHS TRIP technology and 
staffing capabilities.
    DHS plans to direct over half of the requested funding toward 
Information Technology (IT) improvements for DHS TRIP through an 
enhanced case management system. This case management system will 
leverage lessons learned since the launch of DHS TRIP in February 2007 
to centralize and improve inquiry intake, routing, tracking, reporting, 
and response functions. DHS plans to direct the remaining funding and 
its staffing allocation to develop and implement additional 
enhancements (i.e., call center support and an improved vetting 
process) that will strengthen customer service. These investments will 
also allow DHS to expand redress support to non-travel related 
watchlist vetting programs in the Department, supporting DHS's 
objective of reusing redress results across vetting programs.
    These IT improvements will allow programs such as Secure Flight to 
use the results of the redress process more effectively to reduce 
occurrences of misidentifications during vetting. DHS TRIP currently 
provides a listing of cleared individuals to the airlines and to Secure 
Flight to assist in the watch list matching process. This cleared list 
contains individuals for whom the redress process has determined are 
not on the watch list but may be prone to misidentification due to the 
similarity of their names and biographic information to records in the 
watch list. Once the new DHS TRIP IT system is implemented, Secure 
Flight (as well as other DHS vetting programs) will benefit by 
receiving automated inquiry updates of cleared individuals on a more 
frequent basis and in a more efficient format. As a result, DHS can 
better prevent future inconveniences to misidentified travelers.
    Question 10a. Throughout meetings between committee staff and TSOs, 
a number of concerns have been raised on TSA's ability to provide 
adequate training for all TSOs who may need recurrent training on 
certain technologies at checkpoints. Additionally, TSOs indicated that 
very few of them were cross-trained to serve in more than one position 
at an airport checkpoint.
    How is TSA able to verify that appropriate recurrent training is 
made available to TSOs who need it at any given time?
    Question 10b. Additionally, does TSA cross-train TSOs to be able to 
serve multiple positions at checkpoint? If so, what percentage of TSOs 
is trained to serve multiple locations at a checkpoint?
    Answer. The Transportation Security Administration (TSA) has 
established an annual National Training Plan. Specific recurrent 
security training courses are loaded into the learning plans of all 
Transportation Security Officers (TSO) on the On-Line Learning Center 
(OLC). TSOs are required to complete this training to ensure they 
maintain proficiency of skills learned during basic training. 
Additionally, the recurrent courses are designed to keep the workforce 
up-to-date with procedural changes; build upon existing skills and 
abilities, new technologies introduced into the screening operations; 
equipment used by the TSOs in the performance of their duties; and, new 
threat items. Recurrent training is available via web-based training on 
the OLC, through instructor-led classes, and hands-on training at the 
checkpoint. Additional training can be assigned to TSOs by the field 
training staff to target TSOs' individual training needs (e.g. X-Ray 
Image Interpretation).
    All TSOs must participate in an Annual Proficiency Review to ensure 
that they meet the qualifications and performance standards required to 
perform their duties as set forth under the Aviation and Transportation 
Security Act (ATSA). TSOs are certified annually based on their overall 
annual performance as defined by the Performance Accountability and 
Standards System (PASS). One of the components of PASS is that TSOs 
must complete all assigned training. Training is recorded and tracked 
through the OLC.
    TSOs are trained to perform checkpoint screening functions, checked 
baggage functions or both. TSA does not have multiple positions at the 
checkpoint, but multiple functions. TSOs rotate and perform the various 
functions. Upon successful completion of Basic Screener Training and 
On-the-Job Training, as well as achievement of passing scores on all 
tests associated with this training, 100 percent of the TSOs certified 
to perform checkpoint screening functions can perform each of those 
functions, therefore, no cross-training is required.
    The TSO workforce is comprised of 16,980 TSOs who can perform all 
checkpoint screening functions; 5,626 TSOs who can perform checked 
baggage screening functions, and 23,753 TSOs who can perform both 
checkpoint and checked baggage functions.
    Question 11. Last year, Assistant Secretary Hawley discussed 
Checkpoint Evolution as TSA's new way of modernizing checkpoints across 
airports. This initiative was started at the end of the previous 
administration. Outside of BWI, it does not appear that many of the 
elements have been implemented at other airports. What is the status of 
Checkpoint Evolution, has it been implemented across all airports? What 
components in Checkpoint Evolution provide TSA with metrics in which to 
measure enhanced security at airports?
    Answer. Response was not received at the time of publication.
    Question 12. So much of the aviation security budget is geared 
towards passenger checkpoint and baggage screening. Please provide us 
with an explanation as to how the agency will balance the need to 
quickly roll out new technologies against the realistic budgetary 
constraints that force TSA to prioritize how new checkpoint and baggage 
screening equipment is allocated at airports.
    Answer. The Transportation Security Administration's (TSA) 
Passenger Screening Program (PSP) has been aggressively engaged in the 
national deployment of new technologies at the screening checkpoint. 
The defined strategy of deploying to high-risk, high-volume airports is 
used to prioritize and determine when each airport will receive the new 
technology. PSP has gained and implemented a host of best practices 
from the recent deployments of Advanced Technologies (ATs) and 
passenger imaging technologies. The preparations for the accelerated 
deployments have been predicated upon these best practices. The 
deployment team has been increased and structured into a regional 
approach with specialized knowledge of their region and the various 
airport requirements for permitting and other deployment logistics. 
There has been dedicated space identified at the Technology System 
Integration Facility for the swift and massive undertaking to provide 
daily monitoring and teaming of the upcoming deployments. Site designs 
are already in the process of being drawn up in anticipation of the 
accelerated deployments thereby shortening the time required to plan 
and install. Finally, there is a streamlining of the contract vehicle 
for deployments with the single systems integrator contract currently 
under competition.
    Question 13. In fiscal year 2010, for Explosives Detection Systems 
(EDS) purchase and installation there is $250 million in mandatory 
spending from the 9/11 Act, $856 million for discretionary spending in 
the fiscal year 2010 budget request, and also $700 million in Recovery 
Act funding. Can you please give the committee a perspective on how 
this money will be allocated and prioritized in deploying these systems 
at airports Nation-wide?
    Answer. The additional funding from the American Recovery and 
Reinvestment Act and fiscal year 2010 budget request will enable the 
Transportation Security Administration (TSA) to accelerate its 
implementation of the Electronic Baggage Screening Program (EBSP). As 
stated in the American Recovery and Reinvestment Act (ARRA) expenditure 
plan, the additional $700 million will shorten the timeline of full 
optimal system deployment by up to 2 years. The initial ARRA spend plan 
included 16 EDS aiport projects to receive the first infusion of ARRA 
funds. Per congressional direction, quarterly updates addressing ARRA 
spend plan changes and fiscal year 2009 appropriation changes will also 
be submitted to Congress.
    Funding considerations for the EBSP include: Program Operations and 
Management (O&M), previously committed multi-year agreements for 
facility modifications, purchase and install of explosives detection 
systems equipment, new terminals, compliance, fulfilling existing 
agreements, equipment for new projects, new funding for facility 
modifications, and technology/engineering initiatives. In developing 
the spend plan, TSA first considers the funding needed to keep the 
organization operating--the Program O&M costs. Next, TSA identifies the 
funding required for previously committed multi-year agreements. Then 
funding is identified for the purchase and installation of this 
equipment to fulfill existing agreements, equip new terminals, address 
compliance issues, and include new projects not requiring facility 
modifications. TSA tries to accommodate all of these projects since 
they are required for 100 percent compliance of the requirement to 
screen all checked baggage for explosives, fulfilling previous 
agreements, equipment-only requests, and new terminal operations. With 
any remaining funds, TSA will prioritize facility modification requests 
and balance those with technology and engineering initiatives for 
system improvements and cost management opportunities.
    Question 14. The overall number of Transportation Security Officer 
FTEs remains about the same in the fiscal year 2010 budget request as 
in previous years with just under 46,000 personnel. At the same time, 
more of these FTEs are performing specialized functions such as 
Behavioral Detection and Travel Document Checking. Please explain how 
you determine what the right amount of passenger and baggage screeners 
is for the current volume of passenger traffic, and how shifting more 
personnel into other specialized security roles impacts traditional 
passenger and baggage screening.
    Answer. The Transportation Security Administration (TSA) utilizes a 
discrete event simulation commonly known as the Staffing Allocation 
Model to determine base staffing requirements for baggage and passenger 
screening activities. The inputs for this model includes multiple 
variables such as an airport's physical configuration, flight 
schedules, passenger volumes, and type and number of screening 
equipment on hand. This level of detail ensures staffing allocations 
are molded to the demand and are sufficient to cover all operations. 
Furthermore, field engineers and workforce utilization experts conduct 
routine analyses to verify that the model inputs remain accurate 
throughout each year. Shifting personnel into specialized security 
roles has no adverse effect on the traditional passenger and baggage 
screening, and improves our overall security posture. TSA has become 
more efficient in its utilization of resources and technology. The 
shifting of resources was not done at the expense of passenger and 
baggage screening, but rather as a result of increased efficiencies 
identified through the use of advanced technologies along with improved 
resource utilization.
    Question 15. The fiscal year 2010 budget contains a modest increase 
over last year's enacted amount for Transportation Security Officer 
training programs. Please highlight where TSA intends to focus with 
respect to allocating training resources. Can you say that TSOs have 
access to appropriate facilities at work to participate in training? 
Have you heard any complaints from the TSO workforce about training 
issues, and if so, have there been any corrections or improvements made 
in this area?
    Answer. With the rapid pace of change and implementation of new 
concepts, demographic challenges, and enabling technologies, the 
Transportation Security Administration (TSA) constantly seeks to 
improve ways to help the security workforce be successful on the job 
with the right knowledge and skills. Therefore, acquiring and using 
emerging technologies and innovative ways to deliver training is 
critical to the success of the mission.
    We recognize that training space constraints continue to be a 
challenge, and we continue to provide off-site space to address space 
restrictions at many airports. Although Transportation Security 
Officers (TSOs) may not have immediate access to training at the 
checkpoints, appropriate facilities are available at every airport for 
TSOs to complete training.
    Question 16. There is a modest increase in the fiscal year 2010 
budget request for Aviation Regulation that includes the inspection 
programs for international programs, repair stations, and the canine 
training program. Given the upcoming cargo-screening mandate, can you 
say that the regulatory programs are adequately resourced?
    Answer. The fiscal year 2010 budget request by the Transportation 
Security Administration (TSA) provides adequate regulatory oversight 
resources to screen 100 percent of passenger cargo originating at U.S. 
airports.
    Question 17. The budget very briefly states in the Tort Claims 
section that TSA screens over 50 million bags per month and reimburses 
passengers that have experienced baggage loss or damage due to TSA 
negligence. Please describe how this process is working in terms of 
outstanding and adjudicated claims.
    Answer. In fiscal year 2008, the Transportation Security 
Administration (TSA) received and adjudicated approximately 17,600 
claims, 19 percent of which resulted in payments to the claimant. In 
fiscal year 2009, through June, TSA has received just over 10,000 
claims. Fiscal year 2009 payment percentages remain consistent with 
fiscal year 2008. TSA is processing claims within the 6-month deadline 
established by the Federal Tort Claims Act, with the exception of 
certain special cases, such as claims that are in litigation. As of the 
end of June 2009, TSA had 2,666 claims under adjudication (i.e., 
outstanding). Of these claims, over 80 percent have been received since 
May 1, 2009.
                      (tsa) surface transportation
    Question 18. Please explain the reasoning behind the allocation of 
surface transportation security resources toward the VIPR program, 
including whether any Federal entities (such as GAO or the DHS 
Inspector General) or non-Federal stakeholders were consulted about 
surface transportation security priorities, and whether any new 
surface-focused components are envisioned for VIPR teams devoted to 
surface activities.
    Answer. The requested additional funding will specifically address 
the inherent vulnerabilities of our Nation's surface transportation 
systems and better position the Transportation Security Administration 
(TSA) to more readily and proactively perform its surface security 
mission as outlined in the 9/11 Act.
    Through Visible Intermodal Prevention and Response (VIPR), TSA 
teams State and local agencies with additional Federal Air Marshals 
(FAMs), Transportations Security Inspectors--Surface, Behavior 
Detection Officers, and Bomb Appraisal Officers. Each element brings 
expertise to the surface modes of transportation in a collaborative 
effort to deter, disrupt, and defeat possible terrorist or criminal 
actions towards the Nation's transportation system. Utilization of 
these assets has been proven effective through the collaborative 
deployment of over 1,600 VIPR operations in the surface modes using 
existing resources not specifically dedicated to VIPR operations. 
Dedication of these assets will create an even greater deterrence and 
public awareness to the surface transportation domain, especially given 
the enhanced level of coordination and communication that now exists 
between TSA and its VIPR partner agencies.
    For example, all of TSA's operational components collaborate on 
plans to deploy VIPR resources in the surface transportation domain and 
TSA's Office of Transportation Sector Network Management meets 
regularly with its stakeholder/partners, collaborating on best 
practices to secure the transportation domain. TSA's transportation 
stakeholder/partners provide necessary and regular feedback and input 
into the plans TSA proposes for future VIPR operational deployments and 
this relationship has strengthened considerably since the Government 
Accountability Office and the Department of Homeland Security Office of 
Inspector General audits. Moving forward, TSA expects these working 
relationships to continue to improve at a national level, particularly 
if additional resources are made available to support the VIPR program 
as requested in the President's budget.
    Question 19. Please explain why only 18 additional canine teams are 
supported by the budget request for surface transportation, and why 
some of those teams are targeted for the ferry sector rather than rail 
and transit activities.
    Answer. The Transportation Security Administration's (TSA's) 
funding of an additional 18 canine teams for surface transportation 
security represents an appropriate allocation of resources within the 
TSA budget. These teams will be under the control of local law 
enforcement responsible for surface transportation security in their 
respective jurisdictions. This is in addition to 82 canine teams in the 
National Explosive Detection Canine Team Program (NEDCTP) that are 
already dedicated to surface transportation security. The NEDCTP will 
continue to monitor its budget during fiscal year 2010 to determine if 
additional surface canine teams can and should be funded.
    With respect to ferry teams, NEDCTP worked with other offices 
within TSA to identify surface transportation security requirements, 
which included ferry systems. The NEDCTP based its decisions for team 
locations on system-wide surface transportation security needs, 
deployment requirements, and overall concept of operations. Ferry 
systems were chosen based on passenger ridership and U.S. Coast Guard 
risk management data.
    Question 20. Please clarify what is happening to the First Observer 
program. This program is supported by the Trucking Security Grant 
Program, which is targeted for termination; yet, the budget 
justification for TSA's request with regard to surface transportation 
security states that the Highway Information Sharing and Analysis 
Center (ISAC) will be continued through fiscal year 2010. The ISAC is 
part of the First Observer Program, which, as noted, is supported by 
the trucking grants. How is this program going to continue if the 
source of its funding is being eliminated?
    Answer. The First Observer program was funded for $15.5 million by 
the fiscal year 2008 Trucking Security Program (TSP) grant, which has a 
36-month period of performance. The HMS Company was awarded the fiscal 
year 2008 TSP grant for the First Observer program, and it developed 
its budget, which includes funding for the Information Sharing and 
Analysis Center (ISAC) for 41 months from the date of award. The grant 
award date was July 15, 2008 and the period of performance is August 1, 
2008 through December 31, 2011. Therefore, the Information Sharing and 
Analysis Center will continue to operate through December, 2011, funded 
by the fiscal year 2008 TSP grant.
    Question 21. Does the ``inter-modal security training and exercise 
program'' referenced in your written testimony and the budget 
justification include the outstanding training regulations for transit, 
rail, and bus workers required under the 9/11 Act? Where is it housed 
within TSA? And for the purposes of this program, does ``inter-modal'' 
include aviation? Please explain how this budget request reflects the 
importance of supporting TSA's regulatory functions to address the long 
delays in issuing these critical security regulations.
    Answer. Three sections of the Implementing Recommendations of the 
9/11 Commission Act of 2007 (9/11 Act) require the establishment of a 
program for conducting security exercises for public transportation 
agencies, railroad carriers, and over-the-road buses. The 
Transportation Security Administration (TSA) has developed the 
Intermodal Security and Training Exercise Program (I-STEP) under the 
auspices of the TSA Office of Transportation Sector Network management 
(TSNM) to provide these exercises. The intermodal programs under the I-
STEP do not include aviation.
    The I-STEP Program does not address the development of regulations 
calling for security training for frontline employees in certain modes, 
as required by the 9/11 Act. TSA is actively developing regulations to 
fulfill these requirements. Once these regulations are issued as final 
rules, I-STEP will reinforce the training standards during exercises. 
The funds needed for continued regulatory development are included in 
the fiscal year 2010 budget request.
    Question 22. In your written testimony you reference the 
International Working Group on Land Transport Security and state that 
TSA is engaged with that organization to promote best practices, 
capacity building, and information sharing. Please describe all of 
TSA's activities with respect to the International Working Group, and 
elaborate on how this budget reflects the significance of those 
activities.
    Answer. The United States proposed the creation of an international 
land transport security working group at the Japanese Ministerial 
Conference on International Transport Security in January 2006. The 
purpose was to create a forum within which the international 
transportation security community could improve land transport security 
by sharing best practices, enhancing cooperation between government 
authorities and industry, and sharing technology information. Three 
years after its inception, members now include: Australia, Canada, 
China, the European Commission, France, Germany, India, Indonesia, 
Israel, Italy, Japan, Malaysia, Netherlands, Philippines, Republic of 
Korea (South), Russia, Spain, United Kingdom, and the United States.
    The Transportation Security Administration (TSA), hosted the 4th 
and 5th International Working Group on Land Transport Security (IWGLTS) 
sessions on behalf of the United States. During the 4th session in 
November 2008, the following priorities for IWGLTS were agreed upon by 
the participating States: (1) Information sharing as an overarching 
theme and the No. 1 priority; (2) creating a compendium of smart 
practices; further developing the secure web board for IWGLTS efforts; 
(3) conducting inter-sessional work; and (4) reaching out to other 
organizations (e.g., International Union of Railways--UIC) to maximize 
efforts; and conducting a survey of members' current and planned 
technologies in land transport security.
    Identifying specific deliverables within the previously agreed-upon 
priorities (Mitigation Activities, Risk Assessment, Technology, Public 
Awareness and Stakeholder Partnerships), prioritizing and deciding 
which deliverables will be pursued before the 6th Session, and 
identifying leads/co-leads for each deliverable for work to begin 
during inter-session periods were accomplished at the 5th session in 
May 2009. IWGLTS members not only identified, prioritized, and 
committed to several deliverables, but also began establishing 
timelines and planning inter-session efforts for the following 
activities: (1) Conduct a survey of members' mitigation security 
measures for land transportation modes--U.S. lead; (2) conduct a survey 
of members' current/future land transport security technologies--
Australia lead; (3) develop a risk assessment matrix of land transport 
modes--France lead; and (4) develop presentations and discussion on 
Public Awareness campaigns (India, Indonesia, and United States will 
present at the next IWGLTS meeting)--U.S. to coordinate during inter-
session periods.
                             small business
    Question 23. As of June 22, 2008, TSA was no longer exempt from 
complying with the Federal Acquisition Regulation. How has this change 
impacted minority-owned, woman-owned, and veteran-owned businesses?
    Answer. Although mandated to comply with the Federal Acquisition 
Regulation since only June 2008, the Transportation Security 
Administration (TSA) has been a strong advocate for small business 
since its inception and has developed a strong and robust small 
business program. Prior to 2007, TSA developed internal management 
directives and processes based upon acquisition best practices to 
ensure small business participation. In 2007, TSA was required to 
comply with the Small Business Act. In fiscal year 2008, TSA awarded 
over 20 percent of contract dollars to small businesses, an increase of 
5.3 percent from fiscal year 2003. In addition, TSA awarded 6.7 percent 
of contract dollars to small disadvantaged business, exceeding the goal 
of 5 percent. TSA also awarded 2.6 percent of contract dollars to small 
businesses owned by disabled veterans.
    Question 24. In order to receive grant funding from TSA, do State 
and local governments that plan to utilize funds in a competitive 
manner have to comply with any Federal rules/regulations on minority 
business or disadvantaged business utilization?
    Answer. The Transit Security Grant Program (TSGP) Grant Guidance 
and Application Kit that is published for each grant cycle includes 
language on Disadvantaged Business Requirements. Both the fiscal year 
2009 TSGP Guidance (page 49) and the fiscal year 2009 American Recovery 
and Reinvestment Act TSGP Guidance (page 53) state ``Applicants are 
advised that, to the extent that recipients of a grant use contractors 
or subcontractors, such recipients shall use small, minority, women-
owned or disadvantaged business concerns and contractors or 
subcontractors to the extent practicable.''

                                 <all>

</pre></body></html>
